U.S. Department of Housing and Urban Development




                                                   Office of Inspector General
                                                    Semiannual Report to Congress

                                                     April 1, 2002 - September 30, 2002
     OIG MISSION STATEMENT
           AND VALUES


      The OIG’s mission is independent and objective reporting to the Secretary
      and the Congress for the purpose of bringing about positive changes in the
      integrity, efficiency, and effectiveness of HUD operations.

      OIG values are as follows:

     F       Relationships among OIG components and staff are characterized by
             teamwork and respect.

     F       Diversity is valued and promoted in the workforce.

     F       Excellence in the workforce is fostered through continuing concern for
             professionalism and career development.

     F       As a general rule, emphasis is placed on “doing” rather than
             reviewing, by delegating operational authority, responsibility, and
             accountability to the lowest appropriate level.

     F       Identifying and meeting client needs in a timely fashion are a primary
             concern. Clients are defined as the Secretary, the Congress, HUD
             managers and employees, and the public.

     F       OIG operations are focused on substance rather than process and rely
             on innovative as well as traditional methods to address issues of
             significance having potential payback in terms of improved integrity,
             effectiveness, and efficiency.




If you would like additional information or copies of the Report, please call (202) 708-0614, x 8195.
        The Report is also available on our internet site at www.hud.gov/oig/oigindex.html
INSPECTOR GENERAL’S MESSAGE




    I have just completed my first full six-month semiannual reporting period
as the HUD Inspector General. It has been both a productive time, during
which our office has realized a number of significant accomplishments, and a
time of setting goals for the future. This Semiannual Report describes the
efforts put forth by the HUD OIG to support the Department’s mission and to
fulfill the mandates of the Inspector General Act of 1978.

     The OIG has been making strides in addressing the President’s Management Agenda (PMA). The PMA,
announced in the summer of 2001, is an aggressive strategy for improving the management of the Federal
Government. It focuses on five areas of management weakness across government where improvements and the
most progress can be made. The Office of Management and Budget is looking for every agency to demonstrate
progress in meeting the PMA. In HUD, each assistant secretary must report on his or her plans and progress in
meeting PMA items. That progress is tracked through monthly Executive Management Meetings. Additionally,
through our audit and investigative efforts, we are striving to focus our work on areas of greatest benefit to the
Department. Before initiating any major audit or investigative effort, we look for a link between our work and
at least one of the initiatives in the PMA.

    In February of this year, in accordance with the Reports Consolidation Act of 2000, the OIG submitted to
Secretary Martinez a summary assessment of the most serious challenges facing the Department. We discuss these
challenges in Chapter 1 of this report. The challenges outlined have been the focus of much of our audit and
investigative effort. HUD is working diligently to address these challenges and in some instances has made
progress in correcting them. We will continue to monitor the Department’s initiatives in this area and report on
their progress.

    Further, we continue to receive and respond to multiple requests from various Members of the Congress.
One significant example during this reporting period is our review of the eligibility of costs funded by Section
514 of the Multifamily Assisted Housing Reform and Affordability Act of 1997, over the last four years. This
includes 76 Outreach and Training Assistance Grants, 5 Intermediary Technical Assistance Grants, and 2 other
contracts totaling about $26 million provided to 40 recipients. Consistent with this Congressional directive, we
completed our reviews of the eligibility of costs at 32 recipients and issued 33 audit reports, with particular
emphasis on identifying ineligible lobbying activities. We have questioned costs totaling over $1.4 million. The
Congress also tasked the OIG with periodically auditing and reporting on the expenditure of $3.5 billion in
Community Development Block Grant Program disaster assistance funds provided to the State of New York, as
a result of the September 11, 2001 terrorist attacks. We quickly discovered that this is a formidable task in that
hundreds of applications are processed and millions of dollars are disbursed each week. We found that
weaknesses in certain application processing procedures could result in duplicate or ineligible assistance. In
addition, we learned that some applicants are not being required to provide details describing how they
determined their estimated economic loss.

    As in past Semiannual Reports, our audits and investigations continue to report fraud and abuse in HUD’s
Single Family Mortgage Insurance Programs. This fraudulent activity has been a major focus of our audits and
investigations over the past several years. Chapters 2 through 5 of this Semiannual Report illustrate a myriad of
examples of schemes carried out against the Department and resultant penalties. As we reported in our last
Semiannual Report, our goal is to increase our focus on these crimes and re-deploy staff to conduct
investigations involving single family fraud and property-flipping. Toward that effort, we have systematically
phased out our Operation Safe Home investigations of violent crime and drug trafficking in HUD’s Public and
Assisted Housing Programs, which we began in February 1994. The Congress funded Operation Safe Home
through Fiscal Year 2002 to allow an orderly and responsible conclusion of the initiative, to cease complete
operations by September 30, 2002. Correspondingly, the Congress directed that we devote additional resources
exclusively for anti-predatory lending and anti-flipping activities.

    Chapter 6 of this report discusses the audit resolution process. We are pleased to report that, for the third
consecutive semiannual reporting period, we have no items to report on significant audits where a management
decision had not been reached for audits that were more than six months old. We attribute this to the ongoing
cooperation and support of the current Administration, and the priority they have placed on resolving all OIG
audit report recommendations in a timely fashion.

    Within the OIG, we continue to reorganize as necessary in order to support the Department and provide
independent reporting to the Congress. We are reallocating resources where needed, and constantly addressing
our staffing issues to ensure that we focus on those areas of HUD operations most needing attention. I would like
to add that the work and accomplishments discussed in this report are the result of a dedicated and committed
OIG staff. The men and women of this organization are consummate professionals who believe in and support
the mission of the Department.

   I look forward to continuing to work with Secretary Martinez in an effort to achieve HUD’s goals.




                                                                       Kenneth M. Donohue
                                                                       Inspector General
                                         Reporting Requirements

  The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the
                         Inspector General Act Amendments of 1988, are listed below:

                                      Source/Requirement                                               Pages

Section 4(a)(2)-review of existing and proposed legislation and regulations.                           83-84

Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to the       7-79, 85-89
administration of programs and operations of the Department.

Section 5(a)(2)-description of recommendations for corrective action with respect to signifi-          13-83
cant problems, abuses, and deficiences.

Section 5(a)(3)-identification of each significant recommendation described in previous             Appendix 2,
Semiannual Reports on which corrective action has not been completed.                                 Table B

Section 5(a)(4)-summary of matters referred to prosecutive authorities and the prosecutions            13-83
and convictions that have resulted.

Section 5(a)(5)-summary of reports made on instances where information or assistance was            No instances
unreasonably refused or not provided, as required by Section 6(b)(2) of the Act.

Section 5(a)(6)-listing of each audit report completed during the reporting period, and for         Appendix 1
each report, where applicable, the total dollar value of questioned and unsupported costs and
the dollar value of recommendations that funds be put to better use.

Section 5(a)(7)-summary of each particularly significant report.                                       13-83

Section 5(a)(8)-statistical tables showing the total number of audit reports and the total dollar   Appendix 2,
value of questioned and unsupported costs.                                                            Table C

Section 5(a)(9)-statistical tables showing the total number of audit reports and the dollar value   Appendix 2,
of recommendations that funds be put to better use by management.                                    Table D

Section 5(a)(10)-summary of each audit report issued before the commencement of the report-         Appendix 2,
ing period for which no management decision had been made by the end of the period.                   Table C

Section 5(a)(11)-a description and explanation of the reasons for any significant revised man-         86-88
agement decisions made during the reporting period.

Section 5(a)(12)-information concerning any significant management decision with which the             88-89
Inspector General is in disagreement.

Section 5(a)(13)-the information described under section 05(b) of the Federal Financial                 89
Management Improvement Act of 1996.
                                                 Table of Contents
Chapter 1 - HUD’s Management and Performance Challenges ..........................................................7

Chapter 2 - Housing Fraud Initiative
       Central District of California........................................................................................    13
       District of Columbia ..................................................................................................   19
       Northern District of Illinois .........................................................................................   20
       District of Maryland ..................................................................................................   25
       Eastern District of New York .......................................................................................      27
       Northern District of Texas ...........................................................................................    29

Chapter 3 - Audits
       HUD Single Family Housing Programs .......................................................................... 33
       HUD Multifamily Housing Programs ............................................................................ 33
       HUD Community Planning and Development Programs ....................................................... 41
       HUD Public and Indian Housing Programs ..................................................................... 45
       Other Significant HUD Audits ..................................................................................... 48

Chapter 4 - Investigations
       HUD Single Family Housing Programs ........................................................................... 49
       HUD Public and Indian Housing Programs ....................................................................... 61
       HUD Multifamily Housing Programs .............................................................................. 71
       HUD Community Planning and Development Programs ...................................................... 72
       Violent Crime in HUD Public and Assisted Housing ........................................................... 73

Chapter 5 - Joint Efforts ...................................................................................................... 79

Chapter 6 - Regulations, Handbooks and Other Directives
       Regulations ............................................................................................................. 83
       Handbooks ............................................................................................................. 84
       Other Directives ....................................................................................................... 84

Chapter 7 - Audit Resolution
       Delayed Actions .......................................................................................................   85
       Revised Management Decisions ....................................................................................         86
       Significant Management Decision With Which the OIG Disagrees ..........................................                   88
       Federal Financial Management Improvement Act of 1996 (FFMIA) .........................................                    89

Appendix 1 — Audit Reports Issued
Appendix 2 — Table A - Audit Reports Issued Prior to Start of Period with No Management Decision at
                        09/30/02
             Table B - Significant Audit Reports Described in Previous Semiannual Reports Where Final
                        Action Had Not Been Completed as of 09/30/02
             Table C - Inspector General Issued Reports with Questioned and Unsupported Costs at
                        09/30/02
             Table D - Inspector General Issued Reports with Recommendations that Funds Be Put To Better
                        Use at 09/30/02
Appendix 3 — Profile of Performance
 Chapter 1            —   HUD’s Management and Performance Challenges
                                                          integrity of many outside entities to carry out a
Information About the HUD                                 large number of diverse programs. Among these
Office of Inspector General                               entities are hundreds of cities that manage HUD’s
                                                          Community Development Block Grant funds,
    The Office of Inspector General at HUD is one         hundreds of Public Housing Authorities that man-
of the original 12 designated by the Inspector            age assisted housing funds, and thousands of HUD
General Act of 1978. The OIG oversees HUD’s               approved lenders that originate and service FHA
programs and operations through its audit and             insured loans.
investigative activities. While organizationally
                                                                Meeting this mission is a major challenge
located within the Department, the OIG’s mission is
                                                          because of limited staff and a large number of
to provide independent and objective reporting to
                                                          programs. HUD management problems associated
the Secretary and the Congress. OIG activities seek
                                                          with program operations have kept HUD on GAO’s
to:
                                                          list of high-risk agencies. HUD’s management team,
Ø Promote efficiency and effectiveness in pro-            the GAO, and the OIG share the view that improve-
  grams and operations.                                   ments in human capital, acquisition, and informa-
                                                          tion systems are essential in removing HUD from its
Ø Detect and deter fraud and abuse.                       high-risk designation. More specifically, HUD must
Ø Investigate allegations of misconduct by HUD            focus these improvements on Rental Housing
  employees.                                              Assistance Programs and Single Family Housing
                                                          Mortgage Insurance Programs, two areas where
Ø Review and make recommendations regarding               financial and programmatic exposure is the greatest.
  existing and proposed legislation and regula-           Furthermore, the inclusion of HUD’s reported
  tions affecting HUD.                                    management challenges, as part of the President’s
    The Offices of Audit and Investigation carry out      Management Agenda, is indicative of the important
these duties with a staff located in Headquarters and     role HUD plays in the federal sector. The Federal
in 10 Regional Offices. Supporting these efforts are      Government places a high priority on correcting
the Office of Counsel and the Office of Manage-           those weaknesses that put HUD on GAO’s high-risk
ment and Policy.                                          list.
                                                              Each year, in accordance with the Reports
                                                          Consolidation Act of 2000, the OIG is required to
                                                          submit a statement to the Secretary with a summary
Major Issues Facing HUD                                   assessment of the most serious challenges facing the
     The Department’s primary mission is to expand        Department. We submitted our last assessment on
housing opportunities for American families seek-         February 26, 2002. These reported challenges have
ing to better their quality of life. HUD seeks to         been the focus of much of our audit and investiga-
accomplish this through a wide variety of housing         tive effort. HUD is working to address these chal-
and community development programs. HUD’s                 lenges and in some instances has made progress in
budget approximates $32 billion annually. Addition-       correcting them. In July 2002, the Deputy Secre-
ally, HUD assists families with their housing needs       tary testified before a Subcommittee of the Senate
by insuring Federal Housing Administration (FHA)          Committee on Banking, Housing, and Urban
mortgages for single family and multifamily proper-       Affairs. He discussed HUD’s progress in meeting
ties. FHA’s outstanding mortgage insurance portfo-        management challenges. The Deputy Secretary
lio is more than one-half trillion dollars. While HUD     noted that last year was largely devoted to getting
is a relatively small agency in terms of staff, about     management teams in place, assessing the manage-
9,100 nationwide, it relies on the performance and        ment environment, and formulating viable strategies

Chapter 1 — HUD’s Management and Performance Challenges                                                       7
and plans to address the major management chal-           Ø The Departmental Enforcement Center (DEC)
lenges and program risks still facing the Depart-           was placed under the direction of the General
ment. The Department’s management challenges                Counsel to consolidate legal resources in
and current efforts to address these challenges are         support of a strong program enforcement effort.
as follows:                                                 HUD’s program enforcement efforts were
                                                            previously under the Office of General Counsel
Department-wide Organizational                              prior to the creation of a separate DEC.
Changes                                                   Ø The Real Estate Assessment Center (REAC) was
                                                            placed under the direction of the Assistant
    Over the last five to six years, the Department         Secretary for Public and Indian Housing (PIH)
has undergone major organizational and manage-              in order to improve REAC’s working relation-
ment changes. Completing these changes so as to             ships with program staff and program partners
stabilize the HUD workforce to operate efficiently          and strengthen accountability for resource use
and effectively is a major challenge. In the past           and results.
Administration, common activities were consoli-
dated in centers, Community Builders were hired,          Ø The Office of the Chief Procurement Officer
and an increased focus was directed at enforcement.         and Office of the Chief Information Officer
An effort was made to realign the Department along          were placed under the direction of the Assistant
functional lines, separating outreach from program          Secretary for Administration/Chief Information
administration. Also, the plan attempted to place           Officer to streamline HUD’s organizational
greater reliance on automated tools, processing             structure and improve service delivery to HUD’s
centers, and contracted services. As HUD made               program and administrative components.
these changes, many employees were assigned new
                                                          Ø The Office of Field Policy and Management was
duties and responsibilities and many new employees
                                                            established as an independent office reporting to
were hired. While organizational changes were
                                                            the Deputy Secretary, with responsibility for
intended to more efficiently and effectively deliver
                                                            oversight of HUD’s field management and
and oversee HUD’s major program activities, disrup-
                                                            assistance to program Assistant Secretaries in
tions caused by these sweeping changes further
                                                            meeting program goals at the field office level.
compounded problems in effectively managing HUD
operations. Among the problems were unclear lines         Ø Substantial numbers of staff in the outreach
of authority, many staff in the wrong location, and         function were redeployed to understaffed
difficulty in providing supervision to remote staff.        program delivery and oversight functions,
                                                            where there is a critical need.
     Our past Semiannual Reports to Congress noted
that many organizational changes were slow to be          Ø New regional management positions were
put in place, and those in place were not working           created to give HUD’s field operations greater
effectively. For example, they lacked delegations of        operational control over the administrative
authority, written policies and procedures, and             budget resources they need to pursue their
training support. HUD’s current management team             operating and program goals, and to strengthen
likewise found problems with the organizational and         the local focus on workload management to
operational changes made by the previous Adminis-           meet national performance goals.
tration. They found some of the organizational and
                                                              These operational changes delegate additional
staffing realignments, such as the Community
                                                          authority to the field. We see these as positive steps
Builder function, an ineffective use of HUD’s human
                                                          in bringing operational activities and authority
capital. As a result, earlier this year, decisions were
                                                          closer to the customers HUD serves.
made and actions taken to pursue separate realign-
ments of headquarters and field activities to better
use existing resources. Changes this year include:



Chapter 1 — HUD’s Management and Performance Challenges                                                        8
Financial Management Systems                                   HUD has a draft plan for establishing and
                                                          maintaining an effective, comprehensive informa-
    HUD needs to complete the development of its          tion technology security program at HUD. Our
financial management systems. The lack of an              review found improvements in information security.
integrated financial system in compliance with            Also, during FY 2002, HUD initiated the planning
federal financial system requirements has been            and program development for an entity-wide secu-
reported as a material weakness in internal controls      rity awareness and training program. Despite these
since FY 1991. While progress has been made in            improvements, greater emphasis on information
improving the Department’s general ledger system,         security is needed.
a number of long-standing deficiencies remain.
    Our annual financial audits continue to report
systems integration problems. For example, there is       Adequate and Sufficiently Trained
a lack of an automated interface between the De-          Staff
partmental general ledger and the FHA subsidiary
ledger, which necessitates extensive manual analy-             For many years, the Department has lacked a
ses, reprocessing, and additional entries. FHA’s          system for measuring work and reporting time,
funds control process is also largely manual, even        thereby making it a difficult task to determine staff
to the point of requiring the hand carrying of            resource needs. HUD worked with the National
documents. Other serious deficiencies include the         Academy of Public Administration to develop a
inability to timely identify excess funds on expired      methodology or approach for resource management
Section 8 projects and inadequate assurance about         that would allow the Department to identify and
the propriety of Section 8 rental assistance pay-         justify its resource requirements for effective and
ments.                                                    efficient program administration and management.
    To correct financial management deficiencies in           HUD needs to more effectively manage its
a Department-wide manner, HUD initiated a project         limited staff resources. Many of the weaknesses
to design and implement an integrated financial           facing HUD, particularly those concerning HUD’s
system consisting of both financial and mixed             oversight of program recipients, are exacerbated by
systems. Over the years, the Department’s plans           HUD’s resource management shortcomings. Accord-
have experienced significant schedule delays,             ingly, we consider it critical for the Department to
changes in direction, and cost overruns. Because of       address these shortcomings through the successful
the many concerns we have raised in our audits, the       completion of ongoing plans. To operate properly
Department is proceeding cautiously. The Depart-          and hold individuals responsible for performance,
ment is planning to contract for a feasibility study      HUD needs to know that it has the right number of
and cost benefit and risk analyses to help it identify    staff with the proper skills.
the best platform for its integrated financial system.        To address staffing imbalances and other human
    HUD’s security program and practices is an-           capital challenges, the Department has implemented
other issue critical to HUD’s financial systems. In       the Resource Estimation and Allocation Process
accordance with the requirements of the Govern-           (REAP). The last phase of REAP (a baseline for
ment Information Security Reform Act, the OIG             staffing requirements) was completed in January
performed its annual evaluation of HUD’s security         2002. The next step in the development of the
program and practices and found that the security         Department’s resource management strategy is the
monitoring program still needs strengthening, the         implementation of the Total Estimation and Alloca-
information security program lacks executive level        tion Mechanism (TEAM). TEAM is the validation
leadership and direction, and previously reported         component of REAP and will collect actual workload
weaknesses in management, operational, and                accomplishments and staff usage data for compari-
technical controls remain uncorrected.                    son against the REAP baseline. TEAM implementa-
                                                          tion began this spring and the second cycle began in
                                                          August. We are currently auditing the TEAM process

Chapter 1 — HUD’s Management and Performance Challenges                                                       9
and expect to issue a report during our next semian-           The audit of FHA’s FY 2001 financial statements
nual reporting period.                                    includes a reportable condition on the need for
                                                          improvement in early warning and loss prevention
    HUD developed a five-year Human Capital
                                                          for FHA single family insured mortgages. FHA
Strategic Plan, which was submitted to OMB earlier
                                                          continues to make progress in improving its ability
this year. An Executive Steering Committee is
                                                          to monitor its insured portfolio. However, as of our
further refining this plan. HUD’s human capital
                                                          last financial audit report, FHA had not yet fully
management challenges consist of:
                                                          implemented certain initiatives to effectively iden-
Ø Linking and aligning staff with mission, goals,         tify and manage risks in its single family insured
  and organizational objectives through strategic         portfolio. FHA needs to increase its use and analysis
  Human Capital Planning.                                 of other data now available to continue improve-
                                                          ments in lender monitoring. Timely identification of
Ø Correcting staff shortages and skills gaps              lenders with above average early default rates is a
  resulting from downsizing initiatives during the        key element of FHA’s efforts to target monitoring
  1990s.                                                  and enforcement resources to single family insured
Ø Meeting long-range staff needs due to a matur-          mortgages and lenders that represent the greatest
  ing workforce, with about half of the workforce         financial risks to FHA. Potentially problem lenders
  eligible for retirement over the next five years.       must be identified before FHA can institute loss
                                                          mitigation techniques and lender enforcement
Ø Increasing the use of technology to support             measures that can reduce eventual claims.
  organizational improvements and the accom-
  plishment of goals and objectives.                          This semiannual reporting period we reported
                                                          on two Single Family Program audits. The first
                                                          audit examined the priority bidding period for
                                                          owner/occupants that were purchasing HUD owned
FHA Single Family Origination and                         properties. The audit found that 29 percent of the
Real Estate Owned (REO) Oversight                         buyers that purchased properties as owner/occu-
                                                          pants never lived in the property. Consequently,
     Procedures and practices pertaining to HUD’s
                                                          where HUD intended to give sales priority to first-
Single Family Loan Origination Program have
                                                          time homebuyers, many investors circumvented the
undergone considerable change, particularly in the
                                                          rules during the initial 10-day priority bidding
last five years. The changes have been both pro-
                                                          period. The second audit examined the Down
grammatic and organizational, including significant
                                                          Payment Assistance Programs operated by several
changes in loan underwriting requirements and the
                                                          nonprofit entities. Because of HUD system problems,
transfer of virtually all aspects of single family
                                                          the audit could not conclusively identify the extent
production and program monitoring from HUD staff
                                                          to which down payment assistance loans have
to lenders and contractors under the oversight of
                                                          higher default rates. However, we did find this
HUD’s Homeownership Centers.
                                                          activity increasing and some evidence that these
     Consistent with the GAO’s identification of          loans pose a greater than average risk to the FHA
Single Family Mortgage Insurance Programs as a            Program. Specifics of these two audits are found in
high-risk area, the President’s Management Agenda         Chapter 3.
has committed HUD to tackling long-standing
                                                               Several steps are in process to improve FHA risk
management problems that expose FHA homebuyers
                                                          management. An accurate appraisal is critical in
to fraudulent practices. HUD is taking steps to
                                                          protecting FHA’s insurance risk. An appraiser watch
protect homebuyers from fraudulent property
                                                          initiative was proposed in July 2002 that would
flipping practices, changes are underway to
                                                          permit HUD to take action against appraisers that are
strengthen the property appraisal process, and other
                                                          associated with a significant number of defaulted
actions are being proposed to better disclose FHA
                                                          properties. Action on that proposal is expected later
closing costs.
                                                          this year. Other actions are in process to strengthen

Chapter 1 — HUD’s Management and Performance Challenges                                                      10
appraiser oversight. Additionally, the Department is          For many years, we have reported on material
attempting to put controls in place to deter the          weaknesses with the monitoring of HAs and multi-
flipping of properties. Most property flips are at        family projects. These monitoring weaknesses
inflated values. The proposal under consideration         seriously impact HUD’s ability to ensure that its
would prohibit FHA from insuring properties where         intermediaries are correctly calculating housing
the last sale is less than 90 days old. Also, proper-     subsidies. This material weakness was first reported
ties resold between 90 days and one year would            in our financial audit in 1991 and it has been
receive tighter scrutiny. Properties that have been       reported in every audit thereafter. The Secretary has
resold in the first year at excessive profit would        made the reduction of subsidy overpayments a top
require an additional appraisal to assure the proper      priority of his Administration.
valuation.
                                                              In conjunction with OMB, HUD has established a
                                                          goal for a 50 percent reduction in both the fre-
                                                          quency of calculation processing errors and the
Public and Assisted Housing                               amount of subsidy overpayments by 2005. The
Program Administration                                    Rental Housing Improvement Project is a Secre-
                                                          tarial initiative designed to reduce errors and
    HUD provides housing assistance funds under           improper payments by: (1) simplifying the payment
various grant and subsidy programs to multifamily         process; (2) enhancing administrative capacity; and
project owners (both nonprofits and for-profit) and       (3) establishing better controls, incentives, and
Public Housing Authorities (HAs). These intermedi-        sanctions. These improvements will be implemented
aries, in turn, provide housing assistance to benefit     through a series of actions over the next two years.
primarily low-income households. HUD spent about
$21 billion in FY 2002 to provide rent and operating          HUD continues to implement its performance-
subsidies that benefited over four million house-         oriented, risk-based strategy for carrying out its HA
holds. In 2000, a HUD study found that 60 percent         oversight responsibilities. As noted in previous
of all rent and subsidy calculations performed by         financial audits, further improvements need to be
administrative intermediaries contained some type         made in the field offices’ monitoring of HAs in key
of error. Weaknesses exist in HUD’s control struc-        areas. As in previous years, we could not fully
ture such that HUD cannot be assured that these           assess HUD’s measures aimed at improving over-
funds are expended in accordance with the laws and        sight of HAs since the Department’s plans to moni-
regulations authorizing the grant and subsidy             tor and improve performance are not yet fully
programs.                                                 developed and continue to experience delays.
                                                          Finally, HUD has been slow to implement additional
    The Office of Public and Indian Housing (PIH)         strategies needed to improve quality control over
provides funding for rent subsidies through its           rental assistance subsidy determinations.
public housing operating subsidies and tenant-based
Section 8 Rental Assistance Programs. These                   In prior years, we have also reported on long-
programs are administered by HAs who are to               standing weaknesses with the processing of subsidy
provide housing to low-income families or make            payment requests under the project-based programs
assistance payments to private owners who lease           administered by the Office of Housing. Historically,
their rental units to assisted families. The Office of    this process has been hampered by the need for
Housing administers a variety of Assisted Housing         improved information systems to eliminate manually
Programs, including parts of the Section 8 Program        intensive review procedures that HUD has been
and the Section 202/811 Programs. These subsidies         unable to adequately perform.
are called “project-based” subsidies because they             Office of Housing staff or their Contract Ad-
are tied to particular properties; therefore, tenants     ministrators (CAs) are to perform management
who move from such properties may lose their              reviews to monitor tenant eligibility and ensure
rental assistance. This is a significant responsibility   accurate rents are charged at multifamily projects.
because of the sizable number of project owners           The primary tool is to conduct on-site reviews that
HUD must monitor.

Chapter 1 — HUD’s Management and Performance Challenges                                                      11
assess the owners’ compliance with HUD’s occu-
pancy requirements. HUD’s continued implementa-
tion of the CA initiative resulted in a substantial
increase in the total number of management re-
views. However, a comprehensive plan needs to be
developed that would result in an increase of on-site
reviews that would assess and ensure that all owners
of assisted multifamily projects comply with HUD’s
occupancy requirements.
    HUD’s plans include a variety of continuing
efforts. Principle among these are: continued
implementation of the CA initiative; increased
enforcement efforts; implementation of more
targeted risk management of reinspections of
properties; better use of mortgagee inspectors;
increased frequency of management/occupancy
reviews for assisted projects; and development of an
integrated risk reporting system. We support these
efforts.




Chapter 1 — HUD’s Management and Performance Challenges   12
                            Chapter 2 — Housing Fraud Initiative
    The OIG Housing Fraud Initiative (HFI) is a joint          law enforcement agencies, including the Federal
law enforcement effort designed to detect and                  Bureau of Investigation, Internal Revenue Service
prosecute fraud in HUD programs. HFIs combine                  Criminal Investigation Division, Postal Inspection
OIG audit and investigative resources with those of            Service, Immigration and Naturalization Service,
the Federal Bureau of Investigation and the United             Customs Service, the Treasury Inspector General
States Attorneys’ Offices. The HFI offices are                 for Tax Administration, the Department of Veterans
located and investigate fraud in the Judicial Districts        Affairs and the Department of Labor OIGs, various
of: (1) the Eastern District of New York; (2) the              U.S. Attorneys’ Offices, the Federal Protective
District of Maryland; (3) the District of Columbia;            Service, various State Police Departments, the New
(4) the Northern District of Illinois; (5) the Central         York State Department of State Banking, the New
District of California; and (6) the Northern District          York City (NYC) Department of Human Resources
of Texas. The goal of the HFI is to prosecute those            Administration, the NYC Department of Investiga-
who abuse HUD programs, thereby helping to                     tion, the NYC Housing and Preservation Depart-
ensure that HUD assistance reaches those who truly             ment, the NYC Housing Authority OIG, the New
need it.                                                       York State Attorney General’s Office, and the
                                                               Manhattan District Attorney’s Office. If these joint
    As reported in previous Semiannual Reports,
                                                               investigations resulted in seizures of any type of
fraud in single family loan origination continues to
                                                               assets, the items were administered by our counter-
be the most pervasive problem uncovered by HFI
                                                               parts with seizure authority, i.e., the Department of
investigations. Some of these investigations were
                                                               Justice, Postal Inspection Service, and the Depart-
conducted solely by the OIG, while others were
                                                               ment of Treasury. Following are examples of recent
conducted jointly with other federal, state, and local
                                                               HFI results.


Central District of California (Greater Metropolitan Area of Los Angeles, CA)
    The table below lists the program, location, HUD loss and/or potential fraudulent transactions total for the
investigative results reported by the HFI of the Central District of California. Following the table is a description
of each case represented in the table.
                                          IDENTIFIED PROGRAM LOSSES
                                        April 1, 2002 through September 30, 2002

                                                                           Actual HUD      Total Potential
                             Program                       Location
                                                                           Loss to Date         Loss
             Single Family Loan Origination           Los Angeles            $3,400,000        $7,600,000
             Single Family Loan Origination           Los Angeles            $5,690,000       $11,000,000
             Single Family Loan Origination           Los Angeles           $24,500,000       $70,000,000
             Single Family Loan Origination           Los Angeles            $1,700,000        $3,400,000
             Property Disposition                     Los Angeles               $50,404        $5,200,000
             Single Family/Title I Loan Origination   Los Angeles              $388,000        $1,100,000
             Property Disposition                     Los Angeles              $515,560          $515,560
             Single Family Loan Origination           La Puente/Van Nuys    $11,000,000       $26,000,000
             Single Family Loan Origination           Maywood                $3,400,000        $7,700,000
             Single Family/Title I Loan Origination   Los Angeles            $4,742,458        $8,200,000
             Single Family Loan Origination           La Puente              $3,300,000        $7,900,000
             Single Family Equity Skimming            Los Angeles            $2,000,000        $2,000,000
             Single Family Loan Origination           Los Angeles              $600,000          $819,600
             Single Family Loan Origination           Rancho Cucamonga         $279,330        $1,400,000
             Single Family Loan Origination           Palmdale               $1,380,000        $3,600,000
             Community Planning and Development       Los Angeles County       $350,000          $350,000
             Single Family Loan Origination           Los Angeles              $912,000        $1,900,000


Chapter 2 — Housing Fraud Initiative                                                                                13
     Defendant Alfonso Reyes Cervantes, an inves-       prepared second contracts for the sale of the same
tor, was sentenced in federal district court to 63      properties, purporting to transfer them to other
months incarceration and three years supervised         fictitious persons. The second sales were inflated by
release, and ordered to pay $3,293,671 in restitution   approximately $100,000 per property. The Guintos
and a $2,200 special assessment. In June 2001,          and others then prepared fraudulent loan applica-
Cervantes pled guilty to one count of conspiracy,       tions in the names of fictitious purchasers for the
seven counts of mail fraud, six counts of making        second sales and submitted the documents to HUD/
false statements, seven counts of money laundering,     FHA. The mortgage insurance application packages
and one count of tax evasion. From 1997 through         in the names of fictitious purchasers contained false
1999, Cervantes and a co-conspirator used compa-        employment documents, verifications that the down
nies, including HQ Investments, AC Investments, A-      payments were either made from the buyers’ per-
Investments, First Home Realty, Top Realty, and A       sonal funds or were gifts, and inflated real estate
& B Property Management, to perpetrate a fraud          appraisals. The Guintos subsequently managed the
scheme directed at commercial lending institutions      properties and collected rent payments from the
and HUD. Cervantes and accomplices purchased            tenants residing in them. Their actions caused
distressed properties in the Los Angeles, CA area       approximately $11 million in fraudulent loans to be
and arranged for sales of those properties to           funded with FHA insured mortgages, and resulted in
strawbuyers at inflated prices ranging from             losses to HUD of $5.69 million.
$125,500 to $310,000. They recruited the
strawbuyers whom they paid for the use of their              In federal district court in Los Angeles, CA,
identities. Cervantes notarized false documents,        defendant Maggie Cuevas, who was an investor,
paid document forgers to create or obtain false W-2     pled guilty to nine counts of wire fraud, while co-
forms and pay stubs, and submitted fraudulent           defendants Graciela Salgado and Sarai Mora pled
applications and documents to lending institutions.     guilty pursuant to the same indictment. Between
He directed third parties to purchase cashiers’         1997 and November 2000, Cuevas, Salgado, and
checks for use as down payments on behalf of the        Mora participated in a fraud scheme that involved
strawbuyers, and then represented that the              businesses owned and operated by Cuevas, such as
strawbuyers or their relatives were the sources of      Maggie Cuevas Insurance, Serrano Telemarketing,
the funds. In order to promote and continue the         and L. Telemarketing. The businesses were used to
scheme, Cervantes used the proceeds from the            help unqualified borrowers obtain approximately
individual property sales to fund subsequent prop-      $70 million in fraudulent FHA insured loans. Cuevas
erty flips to additional fictitious strawbuyers. The    is currently on federal probation for a conviction on
fraud scheme involved over $7.6 million in FHA          similar charges relating to a document forging
insured loans and resulted in losses to HUD in          business that she ran. The most recent indictment
excess of $3.4 million.                                 charged that Cuevas continued the scheme by
                                                        selling forged tax forms, check stubs, and credit
    In Los Angeles, CA, defendants Edgardo              documents that could be used to obtain FHA loans.
Torres Guinto and Danilo Torres Guinto pled guilty      She created fictitious businesses to verify the
in federal district court to five counts of making      documents and then sold the documents to real
false statements to HUD. The Guinto brothers, who       estate brokers and agents for $75 to $300. HUD’s
did business under the names of Western Services        loss is estimated at approximately $20 million.
Group, Golden West Group, Dynamic Group, and
                                                            In the same case, two loan processors were each
Premier Mortgage, engaged in a single family
                                                        charged by information in federal district court in
flipping and loan origination fraud scheme by
                                                        Los Angeles, CA, with one count of wire fraud and
locating multi-unit residential properties in the
                                                        one count of aiding and abetting. Defendant
$100,000-$150,000 value range. They then entered
                                                        Reynalda Gonzalez was employed by California
into contracts to purchase the properties in the
                                                        Quality Mortgage, First Capital Mortgage, and
names of fictitious persons. While the transactions
                                                        Millennium Mortgage, while Javier Salazar was
were pending, the Guinto brothers and others
                                                        employed by Trinity Mortgage, First National

Chapter 2 — Housing Fraud Initiative                                                                        14
Funding Group, and FinServ Capital Mortgage, all          HUD   Single Family Housing Specialist, who was
of which are located in the greater Los Angeles           convicted and sentenced to jail earlier in this
area. Both loan processors allegedly purchased and        investigation. Christensen sold the defendants the
caused others to purchase cashiers’ checks used for       properties at prices far below HUD’s listed price.
the down payments toward single family property           The 46 properties had been appraised at approxi-
purchases, and used false and fraudulent employ-          mately $5.2 million. The defendants have signed
ment, income, and credit documentation to qualify         plea agreements in which the government has
strawbuyers for FHA insured mortgages. The                recommended sentences of two years probation and
fraudulently obtained loans resulted in losses to         restitution to HUD of $50,404, which is the amount
HUD of more than $2.25 million.                           of commissions paid to them.

    In Los Angeles, CA, defendant Luis Sanchez, a              Defendants Greg Phillips, Ben Tyler, and Tony
real estate investor, pled guilty to a federal criminal   Hicks pled guilty in federal district court in Los
indictment charging him with three counts of wire         Angeles, CA, to mail fraud charges. The three
fraud, one count of false statements and one count        utilized their companies, Malitop, Inc., Malitop
of aiding and abetting. Defendant David Garcia            Realty Inc., Western Security Group, Champion
Ramos, an unlicensed real estate salesperson, pled        Investment Group, Pacific Access, Inc., Western
guilty in federal district court to one count of          Property Management Group, and Nesbitt’s Distrib-
conspiracy and one count of mail fraud. Sanchez           uting, Ltd., in a fraud scheme. The scheme was
and Ramos, along with others, purchased residential       directed at commercial lending institutions and the
properties for the purpose of reselling them. They        FHA Title I Program. The defendants used the
then recruited non-qualified buyers to purchase           personal information of others, including Social
properties with FHA insured mortgages. They               Security numbers, dates of birth, and other personal
falsely informed the buyers that little or no down        and credit information, to fraudulently obtain
payment was needed to purchase the properties, and        mortgage loans and Title I loans. They recruited
then purchased cashiers’ checks out of their own          strawbuyers or directed other co-conspirators to do
funds for the actual down payments. As a result,          the same, and then fraudulently notarized docu-
fraudulent mortgage application packages were             ments certifying that the strawbuyers signed deeds
completed and submitted to FHA in the names of            and other documents. The defendants also created
buyers and co-signers that contained false employ-        or obtained false W-2 forms and pay stubs in the
ment documents, false verifications concerning the        names of the strawbuyers. The loan applications and
down payments, false explanation letters concerning       false documents were submitted to lending institu-
the relationships of the co-signers to the buyers, and    tions in order to support inflated income levels
false notarizations of the signatures of buyers and       necessary for the strawbuyers to qualify for the
co-signers. Sanchez’ actions resulted in a loss to        loans. Phillips, Tyler, and Hicks caused at least
HUD of between $1 million and $2 million due to           $1.1 million in defaulted loans, at a loss of
these fraudulent FHA insured loans.                       $388,000 to HUD.

    Informations were filed in district court in Los          Defendants Heidi Lynn Jackson and Walter
Angeles, CA, against Ali Ghomizadeh, Massoud              Brent Williams, employees of Golden Feather
Ghomizadeh, and Behrooz Katirai charging them             Realty Services, Inc., in Los Angeles, CA, each
with making false statements to HUD. The three            pled guilty in federal district court to one count of
defendants were partners in a joint venture to            conspiracy to commit fraud against HUD. Golden
purchase, renovate, and manage HUD real estate            Feather was the HUD contractor for the marketing,
owned properties. The three self-employed defen-          maintenance, and sale of HUD real estate owned
dants falsely stated that they were licensed as real      (REO) properties in California. Jackson and Will-
estate brokers. They purchased 46 HUD properties          iams were marketing and management employees
and received brokers’ commissions. The properties         responsible for the sale of HUD properties. They
were purchased from Karen Christensen, a former           devised a scheme to enter “straw” high bids to win

Chapter 2 — Housing Fraud Initiative                                                                          15
the electronic bid processes for REO properties.         employed by real estate agent Antonio Esquival, and
Once a winning bid was entered, the official bid         who was also affiliated with Coldwell Banker Real
sheets were altered to show that a much lower bid        Estate in Van Nuys, CA, caused the false docu-
had won the bid process. The properties were             ments to be submitted to HUD. Antonio Esquivel
ultimately sold for amounts far below market value.      pled guilty to two counts of submitting false state-
The fraud resulted in a loss to HUD of $515,560.         ments to HUD. Esquivel obtained forged employ-
                                                         ment and income documents in order to make
    Five defendants were the latest to be charged in     ineligible applicants appear qualified for FHA
federal district court as a result of an investigation   insured single family home loans. The loans based
of a single family loan origination fraud and docu-      on false information from Esquivel have a total
ment forgery scheme centered on April 8 Realty in        value of approximately $1 million, and the loss to
La Puente, CA. The five defendants are Julio             HUD is $89,573.
Rocha, an assistant to an independent real estate
investor; Amelia Arias, a real estate agent for C & R        In district court in Santa Ana, CA, defendants
Homes and for Sunrise Realty; Raul Altimirano, a         John Dancy, Claudio Hernandez, and David
real estate agent for Dynamic Brokers in                 Magarin each pled guilty to wire fraud in connec-
Montebello, CA; Antonio Esquivel, an independent         tion with a scheme to defraud HUD. All three
real estate agent; and George Gonzales, a real estate    defendants, who were licensed real estate agents,
agent for Coldwell Banker, George Gonzalez Realty,       were charged in May 2002 with causing the funding
and La Magic Realty. This brings the total number        of FHA insured mortgages through fraud. They
of persons charged in this case to 25. The owners of     created false income and credit related documents
April 8 Realty fabricated and sold thousands of fake     for prospective home buyers who otherwise could
loan documents to over 100 real estate agents and        not qualify for FHA insured loans. The documents
investors. The fabricated documents included W-2         were then provided to loan brokers or real estate
forms, pay statements, bank statements, and letters      agents in Los Angeles and Orange Counties who
of credit, which were used to secure over 1,200          used the documents to prepare fraudulent loan
federally insured loans. In addition, April 8 Realty     packages. The fraudulent applications were ulti-
routinely provided false employment verifications        mately submitted to HUD. Defendant Robert
for FHA loan applicants using fake companies and a       Salamone also pled guilty to two counts of wire
network of individuals throughout the Los Angeles        fraud for his participation in the scheme.
area.
                                                             Defendant Sergio Fernandez, a Maywood, CA
    To date, this investigation has resulted in guilty
                                                         Police Officer, was arrested following his indict-
pleas by 22 individuals and sentences totaling 40
                                                         ment by a federal grand jury. Fernandez, who was a
months of incarceration, 21 years of probation,
                                                         part-time real estate agent, was one of 20 real estate
$335,626 in restitution, and $22,000 in fines. There
                                                         professionals videotaped purchasing fraudulent W-2
are nine remaining defendants to be sentenced. The
                                                         forms and employment statements from a cooperat-
total loss to HUD resulting from the entire fraud
                                                         ing witness during an undercover operation. He
scheme is approximately $11 million, with an
                                                         then used the fake loan documents in support of an
additional $15 to $20 million of FHA insured loans
                                                         FHA loan application. The borrower subsequently
in default. Active loans with an approximate value
                                                         defaulted on the loan and a mortgage insurance
of $120 million contain false documents generated
                                                         claim has been filed with HUD. A separate investi-
by April 8 principals.
                                                         gation into another single family loan fraud scheme
    Also in this case, defendant Julio Rocha pled        disclosed that Fernandez assisted several real estate
guilty to two counts of submitting false statements      investors in recruiting and coordinating
to HUD. Rocha obtained forged employment and             strawbuyers. He met with borrowers and assisted in
income documents in order to make ineligible             the preparation of loan documents during the
applicants appear qualified for FHA insured single       processing of the FHA insured loans. The
family loans. Rocha, who was a real estate assistant     strawbuyers were paid between $800 and $1,000


Chapter 2 — Housing Fraud Initiative                                                                         16
each to fraudulently represent to HUD that they were     of $1.3 million. Acosta was arrested subsequent to
the purchasers of real properties. The scheme            the indictment.
involved the fraudulent use of W-2s, employment
                                                             In the same case, defendants Fernando Garcia
statements, submissions of down payments for
                                                         and Matt Dunne were charged by informations filed
borrowers, and rent skimming. The fraud scheme
                                                         in federal district court. Garcia, who worked
resulted in a loss to HUD in excess of $3.4 million.
                                                         independently as an investor, was charged with
The total value of FHA insured loans involved in the
                                                         making false statements to HUD. Dunne, who
scheme is in excess of $7.7 million.
                                                         worked for Citibank Mortgage as a loan officer and
                                                         as an independent investor, was charged with wire
    In Los Angeles, CA, a federal grand jury
                                                         fraud. The defendants allegedly submitted loan
indicted defendant Lucas Reyes, the co-owner of
                                                         applications that contained false W-2’s and other
Pacific Investment Capital, a mortgage brokerage
                                                         income documents to HUD in order to qualify
company, on one count of conspiracy, two counts of
                                                         ineligible borrowers for FHA insured home mort-
wire fraud, and one count of money laundering.
                                                         gages. The total amount of the insured mortgages is
This brokerage company originated HUD Title I
                                                         over $4.5 million. The loss to the government to
home improvement loans. The co-owner and others
                                                         date is over $2 million.
allegedly obtained fraudulent Title I loans for
properties that had fraudulent first mortgage loans
                                                              Defendant Honey Waymire was charged in
insured by FHA. The Title I loan applications
                                                         district court in Los Angeles, CA, with two counts
contained false information, including employment
                                                         each of bankruptcy fraud, false representation of a
documentation and wage amounts, and falsely
                                                         Social Security number, and false statements.
represented that the loan proceeds would be used to
                                                         Waymire, a self-employed notary public, and
improve the properties. Portions of the proceeds
                                                         previously charged co-conspirators contacted
received from the Title I loans were used to make
                                                         homeowners who had defaulted on their home
the mortgage payments on the fraudulent first
                                                         mortgages. They allegedly caused the homeowners
mortgage loans. The actions of the co-owner and
                                                         to deed their properties to individuals in bankruptcy
others caused a loss of $242,458 to HUD. The
                                                         or to third party entities. Therefore, the
fraudulently obtained first mortgage loans resulted
                                                         homeowners could avoid foreclosure and any
in a loss to HUD of over $4.5 million.
                                                         resulting detrimental impact to their credit.
                                                         Waymire and the co-conspirators fraudulently filed
     In La Puente, CA, defendant Frank Acosta, an
                                                         for bankruptcy in the name of the third party, and
investor, and his spouse, Elizabeth Madrigal, were
                                                         listed the defaulting homes on the bankruptcy
indicted by a federal grand jury on 20 felony counts
                                                         filings. As a result of the fraudulent bankruptcy
each, including nine counts of making false state-
                                                         filings, foreclosure proceedings stopped on the
ments, six counts of wire fraud, one count of
                                                         homeowners’ properties, and mortgage lenders were
conspiracy, and four counts of money laundering.
                                                         prevented from collecting outstanding debts. During
The two were allegedly involved in selling proper-
                                                         the pending bankruptcy proceedings, Waymire and
ties with FHA insured mortgages. They provided
                                                         the co-conspirators collected rental incomes on the
down payments for buyers who purchased homes
                                                         properties and used the money for their personal
from their investment company, Acosta Real Estate
                                                         benefit.
Services, at inflated prices. The scheme involved
the use of inflated appraisals, false verifications of      This case involved approximately 200 single
employment and income, false W-2 forms, fraudu-          family homes, and resulted in the collection of
lent credit histories, and other fraudulent docu-        approximately $3 million in rental incomes. The
ments, to make ineligible borrowers qualify for FHA      majority of these mortgages were insured by HUD or
insured mortgages. The scheme caused HUD to              guaranteed by the Department of Veteran Affairs.
insure fraudulent loans valued at approximately
                                                             Prior to this indictment, co-conspirators Ray
$3.4 million. To date, the loss to HUD is in excess
                                                         Tomlinson and Penny Lubanko were charged with
                                                         five counts of bankruptcy fraud, single family

Chapter 2 — Housing Fraud Initiative                                                                          17
equity skimming, conspiracy, false representation of    resulted in a loss to HUD of approximately $1.38
a Social Security number, and false statements in a     million and caused about $3.6 million in fraudulent
bankruptcy. Both pled guilty to all counts.             loans to be funded with FHA insured mortgages.

    Following a two-week trial, defendants Aniefiok          Defendants Toney Chisum, Jr., the president of
James, Anietie James Okpon, and Oliver Maiben,          American Philanthropy Association (APA), a non-
the president, vice president, and an associate,        profit organization, and Terry Lee Rhodes, an
respectively, of Countywide Financial Group in Los      employee of APA, were indicted by a federal grand
Angeles, CA, were found guilty in federal district      jury on one count of conspiracy, two counts of false
court of 21 counts of conspiracy, false statements,     claims to the United States, five counts of theft of
wire fraud, and mail fraud. Between 1995 and            government funds, and five counts of false state-
1998, the defendants fraudulently originated 22         ments. APA owned and operated several homeless
FHA Title I home improvement single family mort-        shelters located in Los Angeles County. The
gage loans, which resulted in approximately             defendants allegedly devised a false billing scheme
$600,000 in losses to HUD. The defendants used          that involved the creation and submission of fraudu-
straw or fictitious borrowers, forged documents, and    lent documents in order to receive government
false identities to originate FHA insured loans in      reimbursement funding. They submitted documents
order to receive Title I loan proceeds and broker/      that included fraudulent “Cold and Winter Shelter
agent fees.                                             Program” attendance logs that falsely claimed that
                                                        certain persons had received food and shelter free
    Defendant Delma Stevenson pled guilty in            of charge from APA. Between 1994 and 1998, APA
federal court to one count of making false state-       illegally received approximately $550,000 in federal
ments to HUD. Stevenson was the owner of Ideal          funds through its participation in the “Cold and
Financial Services, a Rancho Cucamonga, CA              Winter Shelter Program,” a program funded by
mortgage company that was in the business of            HUD through the City and County of Los Angeles.
originating single family FHA insured mortgage          The Los Angeles Homeless Services Authority
loans. Stevenson obtained fraudulent pay stubs, W-2     administered the program. Chisum was arrested on
forms, and other false documents for her customers      a federal warrant at a homeless shelter operated by
to qualify for FHA insured Title II home loans. The     APA in Los Angeles. A federal arrest warrant has
fraudulently obtained loans resulted in losses to       been issued for Rhodes.
HUD of at least $279,330.
                                                            Defendant Jesse Olivas, a real estate investor
    Defendant Kevin Arruda, a real estate broker        and president of Arivaca Holdings, Inc., was
working at Antelope Valley Realty and at Arruda         indicted by a federal grand jury in Los Angeles,
Realty in Palmdale, CA, was charged by a criminal       CA, on three counts of wire fraud and three counts
information in federal district court with two counts   of false statements. Olivas allegedly purchased three
of wire fraud. As a real estate broker, Arruda was      single family properties and flipped them to
responsible for obtaining information from clients      strawbuyers using fraudulent documentation to
for the processing and submission of loan applica-      qualify the strawbuyers for FHA insured mortgages.
tions for the purchase of real properties with FHA      The fraudulently obtained loans resulted in more
insured mortgages. On the behalf of buyers, Arruda      than $375,000 in losses to HUD.
allegedly caused mortgage applications, which
                                                            In the same case, defendant John Campos, a
contained false employment, income, and credit
                                                        self-employed a notary public, was charged by
information, as well as false verifications that the
                                                        information filed in district court with eight counts
down payments were made from either the buyer’s
                                                        of making false statements to HUD. Campos alleg-
personal funds or were a gift, to be completed and
                                                        edly fraudulently notarized deeds of trust for
submitted to FHA. Arruda was also responsible for
                                                        properties located in the Los Angeles, CA area. In
the purchase of cashiers’ checks that were used as
                                                        doing so, he fraudulently attested that the borrowers
down payments on the properties. His actions
                                                        personally appeared before him and acknowledged

Chapter 2 — Housing Fraud Initiative                                                                       18
that they were authorized to execute the deed of                  tion with the sales of single family properties for
trust, when in fact as he well knew, the borrowers                which funding was derived from FHA insured
had not appeared before him and had not acknowl-                  mortgages. The loss attributable to this case is
edged that they were authorized to execute the deed               approximately $5.5 million. The loss attributed to
of trust. The documents were notarized in conjunc-                Campos is approximately $537,000.




District of Columbia (Greater Metropolitan Area of the District of Columbia)
    The table below lists the program, location, and HUD loss for the investigative results reported by the HFI of
the District of Columbia. Following the table is a description of each case represented in the table.

                                           IDENTIFIED PROGRAM LOSSES
                                         April 1, 2002 through September 30, 2002

                                                                                 Actual HUD
                                       Program                    Location
                                                                                 Loss to Date
                             Single Family Loan Origination    D.C. metro area     $2,421,925
                             Single Family Loan Origination    D.C. metro area     $1,400,000
                             Single Family Loan Origination    D.C. metro area      $ 300,000
                             Single Family Loan Origination/   D.C. metro area     $1,400,000
                             Equity Skimming
                             Assisted Housing                  D.C. metro area        $19,881


     Defendants John Quigley and Timothy                          dent, accepted bribes from Maryland and Washing-
Blackburn, both property speculators in Upper                     ton, DC property speculators to falsify the value
Marlboro, MD, were sentenced to 21 months in                      and condition of homes so the properties would
prison and three years supervised release, and five               meet HUD standards. HUD suffered a $1.3 million
years probation and $23,000 in restitution, respec-               loss as a result of FHA insurance claims paid on the
tively, for their involvement in a property flipping              foreclosed properties. Golden failed to appear for
scheme. Quigley purchased distressed properties,                  sentencing and is now the subject of an outstanding
inflated their values, and sold them for a significant            fugitive warrant.
profit. He also provided borrowers with funds and
                                                                      Also in this case, defendant Gemma T. Clarke,
fictitious documents so they could qualify for FHA
                                                                  also a resident of Upper Marlboro, MD, and a
insured mortgages. HUD paid $796,000 in insur-
                                                                  former Department of Labor employee, was sen-
ance claims as a result of Quigley’s fraudulent
                                                                  tenced in federal court to 11 months in prison and
activities. Blackburn used false documents to
                                                                  three years supervised probation for her involve-
qualify for an FHA insured home loan, and received
                                                                  ment in a property flipping scheme. Clarke was also
thousands of dollars for his participation in the
                                                                  ordered to pay $325,925 in restitution to HUD. She
fraud. He obtained and submitted fraudulent in-
                                                                  manufactured and provided fictitious documents to
come documents, including pay stubs, verifications
                                                                  unqualified homebuyers for a fee so they could
of employment, and gift fund letters, in order to
                                                                  obtain FHA insured home loans. HUD has paid
qualify for the home. The property subsequently
                                                                  $325,925 in insurance claims to lenders as the
went into foreclosure.
                                                                  result of these foreclosures.
    Defendant James E. Golden, who was an FHA
                                                                      Defendant Kerry Newman, a property specula-
approved appraiser, was convicted in federal court
                                                                  tor in Washington, DC, was sentenced in federal
on six counts of bribery and one count of con-
                                                                  court to eight months incarceration and two years
spiracy. Golden, an Upper Marlboro, MD resi-
                                                                  probation, and ordered to pay $224,000 in restitu

Chapter 2 — Housing Fraud Initiative                                                                                    19
tion. Newman previously admitted to participating                  real estate transactions. Ellis’ scheme resulted in a
in a scheme to purchase as many as 40 run-down                     loss to HUD of $300,000.
homes in the District and then flip them at inflated
prices. Newman flipped the properties to buyers                         Defendants Modou Camara, et al, were indicted
whom he assisted in obtaining FHA insured mort-                    by a federal grand jury in Washington, DC, on
gages through the use of false employment informa-                 charges including money laundering, single family
tion. Many of the mortgages have foreclosed,                       equity skimming, wire and bank fraud, and con-
resulting in a loss to the FHA insurance fund of at                spiracy to commit fraud against HUD for their
least $1.4 million.                                                involvement in a property flipping and Section 8
                                                                   scheme. The defendants allegedly obtained falsified
    Defendant Maritza Ellis, a real estate speculator              appraisals for speculators and then aided them in
in Washington, DC, pled guilty in federal court to                 selling properties to strawbuyers at inflated prices.
conspiracy to commit illegal financial transactions.               The speculators provided the strawbuyers with
Ellis purchased and resold properties at inflated                  fraudulent documents to enable them to qualify for
prices. She provided buyers with fraudulent gift                   FHA insured mortgages. The speculators then rented
funds, earning statements, and verifications of                    the homes to Section 8 tenants and collected hous-
employment so they could qualify for FHA insured                   ing assistance payments while allowing the mort-
mortgages. Ellis’ home and bank accounts, with an                  gages to go into default and subsequent foreclosure.
equity of $450,000, were seized during the investi-                Losses to the FHA insurance fund are at least $1.4
gation. These assets were derived from her illicit                 million. Subsequent to the indictment, Camara was
                                                                   arrested.



Northern District of Illinois (Greater Metropolitan Area of Chicago, IL)
    The table below lists the program, location, HUD loss and/or potential fraudulent transactions total for the
investigative results reported by the HFI of the Northern District of Illinois. Following the table is a description
of each case represented in the table.
                                             IDENTIFIED PROGRAM LOSSES
                                           April 1, 2002 through September 30, 2002

                                                                          Actual HUD           Total
                                 Program                   Location
                                                                          Loss to Date     Potential Loss
                    Single Family Loan Origination      Chicago            $2,000,000        $10,000,000
                    Single Family Loan Origination      Chicago              $334,000         $3,200,000
                    Public Housing                      Chicago                $69,666           $69,666
                    Single Family Loan
                                                        Chicago                       $0      $5,700,000
                    Origination/Property Disposition
                    Single Family Loan Origination      Chicago               $250,000          $750,000
                    Single Family 203(k) Rehab Loan
                                                        Chicago               $170,000          $170,000
                    Origination
                    Single Family Loan Origination      Chicago               $250,000          $250,000
                    Single Family 203(k) Rehab Loan
                                                        Chicago               $380,000        $4,900,000
                    Origination
                    Single Family Loan Origination      Waukegan              $740,000       $15,000,000
                    Single Family Loan Origination      Chicago               $250,000          $500,000
                    Single Family Loan Origination      Chicago                $17,760          $400,000
                    Single Family Loan Origination      Chicago                     $0          $376,000
                    Assisted Housing                    DuPage County         $102,850          $102,850
                    Assisted Housing                    Chicago                $12,000           $12,000
                    Assisted Housing                    Chicago                $15,000           $15,000
                    Assisted Housing                    Chicago                $20,000           $20,000

Chapter 2 — Housing Fraud Initiative                                                                                       20
    In Chicago, IL, the following defendants were         capacity as a real estate agent, he signed and
sentenced in federal court to a total of over eight       submitted false loan documentation to obtain an
years in prison, 11 months community service, 19          FHA insured loan to purchase the property. He
months home confinement, and 18 years supervised          bought the property with no money down and
release, fined $11,000, and ordered to pay over           received a $5,000 kickback for his participation in
$2.67 million in restitution. This was the result of      the scheme. The property went into foreclosure.
investigative efforts relating to a case involving over   Ellis also recruited an individual who obtained an
80 loans, 40 of which were FHA insured.                   FHA insured loan to purchase a property from
                                                          Martins.
    Defendant Allison McGowan, a real estate
agent, located and prepared sales contracts for               Defendant Robert Voltl, a real estate attorney,
approximately 40 properties that were purchased           perpetrated a number of fraudulent acts including
and sold at inflated prices to recruited second           tendering false title commitment documents, forging
purchasers and straw purchasers. McGowan re-              documents on behalf of end buyers who never
ceived real estate commissions and kickback pay-          appeared at closing, disbursing cash payments to
ments totaling over $300,000 for her role in the          other defendants under alias names, and falsifying
scheme. She also filled out and directed others to        the source of down payment funds. Lastly, he
fraudulently verify information on mortgage loan          profited by collecting exorbitant fees from repre-
documents on behalf of second purchasers. In              senting all parties involved in the flip process as
addition, she recruited at least seven individuals to     well as through kickbacks from the illegal sales.
serve as second purchasers for the flip scheme. For       Although the proposed restitution was $3.8 million,
most of these 40 transactions, the second buyer           the government filed a forfeiture suit against Voltl.
subsequently defaulted on the mortgage loan and           As a result, the sentencing judge gave Voltl and his
the lender foreclosed on the property. McGowan’s          defense attorney a continuance in order to deter-
participation resulted in losses to HUD in excess of      mine what he will personally be responsible for
$1.5 million.                                             paying and what he will personally forfeit to the
                                                          government in the way of real estate. Final figures
    Defendant Brenda Wince, a mortgagor, pur-
                                                          for restitution and forfeiture have not yet been
chased three properties, two with a false identity
                                                          determined.
and one under her real name. In each instance,
there were numerous false financial and identity              Defendant Angela Nash was an end buyer in the
documents associated with the loan applications.          flipping scheme; she falsified her name, Social
Andre Sommerset signed and submitted false                Security number, and employment in order to
financial documentation to secure two conventional        qualify for the loan. After falling into financial
mortgages. As part of the scheme, he also pur-            trouble, she filed three fraudulent bankruptcies to
chased three properties using his stepson’s name          forestall the foreclosure on both her home and a late
and Social Security number. Sommerset cashed              model truck she also obtained by submitting fraudu-
proceed checks totaling $7,500. He then concealed         lent documents. Defendant Albert Gray, a mort-
the fact that he was receiving the money by having        gagor, who assumed an identity and obtained a
the checks made payable to his mother. In the third       fraudulent driver’s license from the Illinois Secre-
property transaction, Sommerset recruited a               tary of State, purchased two conventional loans
strawbuyer who eventually backed out of the deal.         through a series of fraudulent income information
Nevertheless, Sommerset and his co-conspirators           documents and collected $10,000 in cash as a
closed the fraudulent deal without the presence of        kickback for his role.
the strawbuyer. Sommerset received a one-third
proceeds check in the amount of $2,500 as a                  Defendants Richard Nelson, former president of
kickback for recruiting the strawbuyer.                   and broker for Easy Life Realty in Chicago, IL,
                                                          Millie Morales, former office manager, and Robert
    Defendant Scott Edward Ellis purchased an
                                                          Ducks and Helen Miller, former real estate agents,
investment property from Ahmad Martins. In Ellis’
                                                          were sentenced in federal court for their participa

Chapter 2 — Housing Fraud Initiative                                                                            21
tion in a scheme involving gift funds for FHA             up to a 30 percent discount through HUD’s Direct
insured loans. Nelson was sentenced to 15 months          Sales Program. Other properties, referenced in the
incarceration and two years probation, and was            indictment, were acquired from non-HUD sources.
ordered to pay $334,000 in restitution. Morales was       This investor subsequently arranged for the resale
sentenced to six months home confinement/six              of the properties to buyers, including 37 properties
months work release and two years probation.              sold to the ED and two other NAO employees. The
Ducks was sentenced to 16 months incarceration            investor arranged the buyers’ financing with certain
and two years probation. Ducks’ prison time               loan officers/processors, now three of the defen-
increased significantly as a result of his pre-sen-       dants, who conspired to make it appear that the
tence arrest as part of a 14-year-old homicide            investor took back second mortgages, eliminating
investigation. This investigation disclosed that, after   the need for down payment money from the buyers.
a warrant was issued for his arrest following the         Many of the applications for the mortgage loans
murder, Ducks used an assumed name and Social             contained false employment information, including
Security number. He is currently awaiting trial in        information stating that some buyers worked for
Cook County for that particular case. Miller was          Share Development. The investor also paid most of
sentenced to six months home confinement and one          the buyers’ closing costs and gave the buyers, as
year probation following her earlier conviction for       well as loan officers/processors, an additional
mail fraud. Miller is the seventh and last individual     $3,000 to $4,000 in cash outside of closing. As a
to be sentenced as part of an investigation of Easy       result, the investor received over $3.3 million in
Life Realty. As a result of the investigation, the        proceeds from her sale of the properties and netted
company closed down.                                      about $1.7 million after costs. Mortgage brokers
                                                          received about $350,000 in commissions to origi-
     Defendants Larry Waller and Deloris Jones,           nate the fraudulent loans.
both contractors, each paid $34,833 to the Depart-
                                                              About $150,000 in assets belonging to the
ment of Justice as a result of a civil case filed
                                                          investor were seized simultaneously with a search
against them in the Northern District of Illinois.
                                                          of her residence. Liens were also filed on three
Waller and Jones accepted payments from the
                                                          residential properties owned by the investor. In
Chicago, IL Housing Authority (CHA) for rehabili-
                                                          total, over $230,000 has been received in forfeitures
tation work that was either never completed or was
                                                          related to these properties, all of which were pur-
done improperly by each of their companies at CHA
                                                          chased using proceeds from the scheme.
developments. Their companies are L. Waller &
Associates and D. Jones and Associates.
                                                              In Chicago, IL, six defendants, including a real
                                                          estate agent, an accountant, a loan officer, and three
    In Chicago, IL, Theresa Holt, et al, were
                                                          mortgagors, were charged in a multi-count federal
charged in a 79-count federal indictment with mail
                                                          indictment. The scheme, carried out by Willie
and wire fraud in connection with a loan fraud
                                                          Thurmond, James Wright, Ria Wilson, Sylvia
scheme involving more than 111 properties and
                                                          Reynolds, Sandy Trimble, and Latasha Branch,
approximately $5.7 million in loans. Four of the
                                                          involved the loan officer, accountant, and real estate
defendants were employees of Northeast Austin
                                                          agent, who allegedly conspired to falsify FHA loan
Organization (NAO), a nonprofit organization
                                                          applications in order to qualify unqualified buyers.
previously authorized to participate in HUD’s Direct
                                                          Some of the false statements in the scheme included
Sales Program, including NAO’s executive director
                                                          false employment documents, earnest money
(ED).
                                                          deposits, and Social Security numbers. Of the
    The scheme began when an investor, one of the         $750,000 in fraudulent loans, HUD has suffered
former NAO employees who started her own busi-            $250,000 in losses, with more expected in the
ness, known as Share Development Corporation,             future.
acquired properties in need of rehabilitation. Some
                                                             The accountant allegedly provided each loan
of the properties were acquired from NAO, in
                                                          applicant with a fake self-employment company
violation of HUD rules, after NAO purchased them at

Chapter 2 — Housing Fraud Initiative                                                                          22
name, including false income tax returns and profit     falsification of deeds by speculators and investors to
and loss statements. The accountant was paid a          make it appear that they owned certain properties
$300 kickback for each falsified packet. In addition,   and the subsequent selling of the properties to
the accountant has a prior federal felony conviction    strawbuyers in order to cash out the phony equity.
for providing fraudulent income tax returns.            In one instance, the resale was an FHA insured
                                                        property. In other cases, after the investor falsified
    The real estate agent allegedly falsified down
                                                        the deeds for vacant properties and absentee owners
payments by providing bank deposit tickets from a
                                                        and made the sales, he rented the properties to
totally separate account. In each of the cases,
                                                        Section 8 tenants. Specifically, the warrant was
deposit tickets for the earnest money deposits were
                                                        executed in an effort to determine whether or not
identified with a non-real estate yacht club account,
                                                        fire damage to a house was the result of arson. To
disguised as an escrow account when copied for the
                                                        date, five properties have suffered fire damage
mortgage file.
                                                        following these sales.
     The three buyers charged were supplied with
Social Security numbers to hide otherwise troubled          Defendant Maurice Cody, a general contractor
credit histories. In one case, the buyer filed a        for Prime Construction in Chicago, IL, and a
fraudulent bankruptcy using the same Social Secu-       property investor, pled guilty in federal court to one
rity number in order to forestall foreclosure.          count of mail fraud. Cody falsified information in
                                                        Section 203(k) loan files, including verifications of
    In Chicago, IL, defendant Keith Lou Consago,        employment, W-2’s, and evidence of down pay-
a Section 203(k) general contractor, was arrested on    ments. Cody also participated in the falsification of
a federal warrant following his indictment on three     Section 203(k) draw documents by making it appear
counts of mail fraud and three counts of forgery.       that rehabilitation work had been completed, when
Consago, of Design Rehabilitation and Develop-          in fact it had not.
ment, rehabilitated 203(k) HUD insured properties
and allegedly defrauded at least five mortgagers by         Federal search warrants were executed at the
forging the homeowners’ names on the draw re-           office and personal residence of a real estate agent
quests and the two party checks written from the        in Waukegan, IL, in connection with a single
lender. Consago would pick up the two party checks      family real estate case. The allegations in this case
from the lender in person and/or intercept the mail     include the use of fraudulent Social Security num-
delivery to the homeowners and then sign the            bers, phony income documents, and fake identifica-
homeowners’ names. The majority of the work was         tions, sellers paying down payments on behalf of
never started or was not completed according to         buyers, and hidden kickbacks at closing disguised
specifications, leading homeowners to take out          as contractors’ fees on approximately 75 FHA
additional loans to complete the rehabilitation.        insured loans.
Further investigation revealed that Consago was
writing checks to the personal bank account of the          In cooperation with local authorities, OIG
president of the mortgage company. The loss to          executed a state search warrant at a storage facility
HUD is approximately $170,000. Consago has been         in Chicago, IL, rented by a murdered subject of an
arrested over 45 times by law enforcement agencies      investigation. During the search, files were found
throughout the United States and has been con-          that have been identified as relating to FHA insured
victed of at least 12 felonies including crimes         mortgages. The search was initiated following the
related to theft, drugs, weapons, and assaults. He      murder of Carmel Lacey, the HUD subject, sus-
was termed a “threat to society” and deemed a high      pected of flipping FHA insured properties. Lacey, a
flight risk; he is currently detained.                  real estate broker, was also allegedly involved in the
                                                        submission of false loan origination and closing
    A federal search warrant was executed in            documentation in order to secure FHA insured
connection with an investigation into mortgage          loans. The Chicago Police suspect that Lacey’s
fraud in Chicago, IL. This case involves the            murder was a murder for hire involving the Gang

Chapter 2 — Housing Fraud Initiative                                                                         23
ster Disciples street gang. It is suspected that Lacey       In Chicago, IL, defendant Curtis Lewis pled
may have been involved in money laundering efforts       guilty in state court to state benefits fraud and was
to conceal drug proceeds for the Gangster Dis-           sentenced to six months incarceration and two years
ciples, to include the sale and purchase of several      probation. For six years, Lewis rented a Section 8
FHA insured properties by suspected members of the       unit which he did not occupy but for which he
Gangster Disciples.                                      received Section 8 benefits. Meanwhile, Lewis
                                                         occupied a residence on the other side of the state.
    In Chicago IL, defendant Ray Saez, a loan
officer who previously pled guilty to submitting             Defendant Mark Blakemore, a Department of
false statements to HUD, was sentenced in federal        Labor (DOL) employee, who is also a Section 8
court to six months incarceration (home confine-         landlord, and defendant Kimberly Vaughn, a
ment), four years probation, 200 hours of commu-         Section 8 tenant, were charged in state court with
nity service, and restitution of $17,760 to HUD.         state felony fraud counts in Cook County, IL.
Saez assisted strawbuyers with fraudulent tax            Blakemore allegedly sublet a Section 8 apartment in
records, W-2s, earnings statements, and wage             order to collect market rate rent and Section 8
earnings in order to qualify them for FHA mort-          subsidy simultaneously. Vaughn allegedly allowed
gages.                                                   the unit to be sublet, while at the same time split-
                                                         ting half of the market rate tenant’s rent from her
    Defendant John Morelli, a loan officer in            unit with Blakemore.
Chicago, IL, was sentenced in federal court to
three years probation, 30 days home confinement,
and a $5,000 fine. Defendant Deborah Rivera, a
closing agent, was sentenced in federal court to
three years probation. Morelli and Rivera previ-
ously pled guilty to federal charges in connection
with their attempt to refinance and cash out on a
property that they never actually owned. Specifi-
cally, they falsified deeds and verifications of
employment and deposit.

    Defendant Leasha Tucker, a Section 8 resident
who was found guilty in May 2002 of state benefits
fraud and theft, was sentenced in state court to 30
months probation and 50 hours of public service,
and ordered to pay $300 in restitution. An investi-
gation focused on 12 individuals who were fraudu-
lently receiving housing assistance from the
Dupage County, IL Housing Authority. To date,
the total amount of restitution ordered among the 12
defendants is $102,550.

    Defendant Robin Hill, also known as Robin
Williams, pled guilty in Cook County, IL criminal
court to false statement charges. Hill allowed
Section 8 benefits to be paid on her behalf when
she had actually moved out of the residence in order
to occupy a single family residence she purchased
as an owner/occupant under an alias and a different
Social Security number.


Chapter 2 — Housing Fraud Initiative                                                                        24
District of Maryland (Greater Metropolitan Area of Baltimore, MD)
    The table below lists the program, location, HUD loss and/or potential fraudulent transactions total for the
investigative results reported by the HFI of the District of Maryland. Following the table is a description of each
case represented in the table.
                                           IDENTIFIED PROGRAM LOSSES
                                         April 1, 2002 through September 30, 2002

                                                                          Actual HUD          Total
                               Program                  Location
                                                                          Loss to Date    Potential Loss
                   Single Family Loan Origination   Baltimore                 $838,680       $4,400,000
                   Single Family Loan Origination   Baltimore                 $223,000         $223,000
                   Single Family Loan Origination   Baltimore               $1,500,000       $1,700,000
                   Single Family Loan Origination   Greenbelt                 $135,855         $136,000
                   Single Family Loan Origination   Greenbelt                 $140,000         $140,000
                   Single Family Loan Origination   Baltimore                   $80,000         $80,000
                   Single Family Loan Origination   Greenbelt                   $45,000        $140,000
                   Single Family Loan Origination   Baltimore                 $250,000         $250,000
                   Assisted Housing                 Baltimore County            $53,480         $53,480
                   Assisted Housing                 Baltimore County             $7,250         $25,000

    As a result of an investigation of defendant                   Crystal Perry, a property speculator, falsified
William Otto Schmidbauer, the head Schmidbauer                     documents to obtain FHA insured mortgages. Perry
Realty in Perry Hall, MD, four people pled guilty                  subsequently defaulted on the loans, resulting in a
in federal court to conspiracy to make false state-                $197,025 loss to the government. Speculator
ments and one was sentenced. The case involved 58                  Loretta Delora Granum falsified documents to
Baltimore area real estate transactions where $4.4                 obtain government backed mortgages. She subse-
million in fraudulent loans were obtained. The                     quently defaulted on the loans, with a loss to the
investigation found that speculator Martin Wyatt,                  government totaling $235,512. She was sentenced
with the assistance of Schmidbauer, falsified docu-                to four months incarceration to be followed by two
ments to obtain government backed mortgages.                       years probation.
Wyatt subsequently defaulted on the loans with a
loss to the government totaling $245,143. Pamela                       Defendant Leon Wilkowsky, a speculator who
Cummings prepared and/or submitted numerous                        started in the real estate business as a Section 8
false documents to various lenders in connection                   landlord, was sentenced in federal court to six
with applications for FHA insured mortgages.                       months in a halfway house followed by six months
Among the false documents were verifications of                    home detention, three years supervised release, and
employment and rent, drivers’ licenses, Social                     400 hours of community service. He was also
Security cards, pay stubs, W-2’s, and letters show-                ordered to pay $25,000 to two community service
ing credit accounts of the purchasers with various                 organizations that are addressing the effects of
companies. Based on these fraudulent documents,                    property flipping in the Baltimore, MD area.
numerous FHA insured loans went into default and                   Wilkowsky pled guilty to mail fraud in connection
foreclosure.                                                       with a flipping scheme that targeted investors and
                                                                   defrauded lenders. Over a three and one-half year
    Steven Schmidbauer made false statements that
                                                                   period, Wilkowsky, operating B&S Management,
enabled him to improperly qualify for at least two
                                                                   Inc., conducted a scheme to buy low-cost properties
FHA insured mortgages for residences he purchased
                                                                   in Baltimore and quickly sell them to investors. The
from his father, William Otto Schmidbauer. Steven
                                                                   contract sales prices were substantially higher than
Schmidbauer subsequently allowed both mortgages
                                                                   the actual value of the properties, often two to three
to go into default and foreclosure, resulting in
                                                                   times their value. Buyers were told that they would
$161,000 in losses to the FHA insurance fund.

Chapter 2 — Housing Fraud Initiative                                                                                     25
have to put up little or no cash and would get cash       documents to portray their son as her 24-year old
back at settlement. Wilkowsky used inflated ap-           brother. The fictitious documents included a power
praisals, false second mortgages, and other false         of attorney that authorized Johnson to purchase the
information to obtain mortgages for the buyers that       home on the “brother’s” behalf while he was
exceeded the value of the houses. His scheme              allegedly conducting business out of the country.
resulted in lenders being fraudulently induced to         The home subsequently went into foreclosure and
issue loans between $1.5 million and $2 million           HUD paid the insurance claim.
more than the real value of the properties. The
majority of the property flips were carried out               Defendant Joseph P. McMahon, an attorney at
through Consumers Title Corporation, a title              McMahon Home Title Service in Baltimore, MD,
company owned by Robert Friedman. Friedman                entered into a settlement agreement with the De-
previously pled guilty to mail fraud following a          partment of Justice wherein he and his firm agreed
similar mortgage fraud investigation.                     to pay the government $176,000 in resolution of
                                                          potential claims arising under the False Claims Act.
     In Greenbelt, MD, defendant Malcolm Morris,          McMahon participated in closings on three FHA
Jr., a Federal Aviation Administration employee,          insured homes that had been flipped at least twice
was sentenced in federal court to two years proba-        and were being sold a third time at prices that were
tion, fined $1,200, and ordered to pay $73,000            inflated just enough to cover the required down
restitution for his role in submitting false statements   payment from the ultimate purchaser. All three
to HUD in order to help co-defendant Rose Wright          mortgages have gone into foreclosure, resulting in
avoid foreclosure of her home. In March 1999,             approximately $80,000 in losses to HUD.
Wright entered into a contract to sell her property to
a strawbuyer, who applied for an FHA insured                   Defendant Lincoln Mack, Jr., a mortgagor, was
mortgage. In support of the application, the              convicted after a three-day federal trial for making
strawbuyer submitted W-2 wage and tax statements          false statements to purchase a property in
for 1997 and 1998 as well as a gift letter for $9,000     Greenbelt, MD, with an FHA insured mortgage.
from his sister, Cathy Mack. All of the documents         Mack was convicted of acting in concert with
were false and created by Morris as a favor to            others, all of whom previously pled guilty, by
Wright. When a bank employee called Morris to             purchasing the property as a strawbuyer and using
confirm the strawbuyer’s stated employment, he            fictitious income information and a fraudulent gift
lied to the employee to support the false W-2’s.          letter provided by two confederates, one of whom
After one payment, the property went into foreclo-        was Rose Wright, the seller of the property. Mack
sure. HUD paid a claim of $135,855. Cathy Mack            never made payments on the FHA mortgage and it
was also sentenced in federal court to three years        subsequently went into foreclosure, resulting in a
probation and ordered to pay $7,355 in restitution        claim of $45,000 to the FHA insurance fund.
to HUD. Wright has already pled guilty; federal           Wright, who is a real estate agent, wanted to sell
charges are pending against the strawbuyer.               the property to avoid a pending foreclosure.

    Defendant Patricia Kay Johnson was sentenced              In Baltimore, MD, defendant Philemon
in federal court in Greenbelt, MD, to 10 months           Atugbokoh, an owner of Phil/Fel Tax and Financial
home detention and three years supervised proba-          Consulting, Inc., was indicted by a federal grand
tion, ordered to pay $55,488 in restitution to HUD,       jury on false statement charges for his role in
and fined $500 for her involvement in a mortgage          creating fraudulent W-2 forms and accompanying
fraud scheme that resulted in a $140,000 loss to          pay stubs for individuals attempting to qualify for
HUD. Johnson and her spouse, who has already              FHA insured mortgages. The defendant also created
been sentenced, falsified documents to obtain a           fraudulent verification of employment forms,
$130,000 FHA insured loan to purchase a home.             certifying that individuals were employees of his
The home was purchased in the name of their 13-           company or other companies. He also supplied, by
year old son. Johnson and her spouse falsified            telephone, fictitious verification of employment

Chapter 2 — Housing Fraud Initiative                                                                         26
information to mortgage company personnel seek-                  (suspended), two years probation, and $7,250 in
ing to verify the employment of individuals as                   court ordered restitution to the County Section 8
employees of his company.                                        Office. In recertifying for Section 8 assistance,
                                                                 Colclough initially furnished false information.
    Defendant Joan Wyre, a former Section 8                      Colclough failed to report a December 1996 arrest
tenant, was sentenced in Baltimore County circuit                for assault and then failed to report unemployment
court to pay $53,480 in restitution to the Baltimore             benefits and income from various jobs she held.
County Section 8 Program. This sentence was
based on her previous guilty plea to two counts of                    In Temple Hills, MD, a Prince George’s
felony theft. Wyre filed annual recertifications of              County grand jury indicted defendant Valerie
income and family composition over a seven-year                  Strange for theft relating to her participation in
period that failed to include the residency and                  HUD’s Section 8 Rental Assistance Program through
income of her live-in boyfriend as well as additional            the Prince George’s County Department of Housing
income that she earned.                                          and Community Development. Strange fraudulently
                                                                 received $19,881 in rental assistance after she
    Defendant Minnie Ruth Colclough, a former                    allegedly falsified her annual recertifications by
Section 8 tenant, was sentenced in Baltimore                     failing to disclose her true family income.
County circuit court to 18 months incarceration




Eastern District of New York (Greater Metropolitan Area of New York, NY)
    The table below lists the program, location, and HUD loss for the investigative results reported by the HFI of
the Eastern District of New York. Following the table is a description of each case represented in the table.
                                         IDENTIFIED PROGRAM LOSSES
                                       April 1, 2002 through September 30, 2002

                                                                     Actual HUD          Total
                                 Program              Location
                                                                    Loss to Date**   Potential Los
                     Single Family Loan Origination New York                  TBD     $82,945,773
                     Single Family Loan Origination Hempstead                 TBD       $2,200,000
                     Single Family/Single Family
                                                      Long Island       $1,000,000       $1,200,000
                     203(k) Rehab Loan Origination
                     Public Housing                   Huntington           $115,000        $115,000
                                ** Ongoing Investigation: Amount to be Determined (TBD).

                                                                 previously been debarred by the HUD Enforcement
    Defendant Ahillia Ramotar, an unlicensed real
                                                                 Center.
estate broker and owner of Tri-Metro Realty, pled
guilty to three violations in U.S. District Court,                   Ramotar systematically used strawbuyers, not-
Eastern District of New York. The plea was the                   for-profits, and several mortgage companies to
result of three criminal investigations which origi-             purchase and/or pass through 324 properties that
nally focused on One Rescue, Inc., Tri-Metro                     were ultimately insured by FHA for $60.6 million.
Realty, and Steuben Hill Real Estate Company,                    One hundred twenty-six of these properties were
mortgage companies that were known to be creating                insured under the Section 203(b) Program and 198
fraudulent documents. The investigations revealed                properties were insured under the Section 203(k)
that Ramotar had used numerous names, busi-                      Program.
nesses, and stand-in doubles while she continued to
                                                                     The first count of Ramotar’s plea was related to
obtain FHA insured loans, even through she had
                                                                 loan and credit applications generally. The other

Chapter 2 — Housing Fraud Initiative                                                                                  27
two counts were for violations involving HUD and         Attorney’s Office, Eastern District of New York.
FHA transactions. After Ramotar’s arrest, several        Dosch previously pled guilty in federal court to
federal search warrants were executed on her place       making false statements and in state court to a
of business and at her residence that resulted in the    violation of the New York State Penal Code. Prior
confiscation of numerous boxes of evidence. Subse-       to sentencing, Dosch agreed to forfeit an additional
quent to the federal arrest and searches, federal        $25,000.
seizure warrants were executed against her personal
property. As a result of these seizure warrants, two         Shortly after he resigned from his position as a
condominiums in Garden City, NY, and three               legislator for the County of Nassau, Long Island,
luxury automobiles were seized, and 15 bank              Patrick Williams, former president of Amerifirst
accounts were frozen in the State of New York.           Mortgage Bank in Hempstead, pled guilty in
Federal seizure warrants were also executed against      federal court to 10 counts of fraud involving HUD
two properties in Boca Raton, FL, and four addi-         and FHA transactions and one count of fraud involv-
tional luxury automobiles were seized. The seizure       ing loan and credit applications. Williams was
warrants also resulted in the freezing of approxi-       responsible for submitting false income documenta-
mately $9 million in real property assets.               tion for mortgagors who did not qualify for FHA
                                                         insured financing on properties they purchased
     Another two individuals linked to this massive
                                                         through Amerifirst. As a result of Williams’ actions,
fraudulent scheme were simultaneously arrested on
                                                         individuals using inflated income documentation
federal warrants in Brooklyn, NY, and
                                                         obtained approximately $2.2 million in fraudulent
Stockbridge, GA. Defendant Maurice McDowall, a
                                                         FHA loans.
real estate investor and owner of One Rescue, Inc.,
was arrested in Brooklyn on charges of making false          In the same case, defendant Ronald Greene, a
statements involving HUD and FHA transactions.           real estate agent, pled guilty in federal court to one
McDowall, along with three other co-conspirators,        count of conspiracy to commit fraud against HUD.
was responsible for flipping more than 117 proper-       Greene conspired with Williams in this fraud
ties to Advance Local Development Corporation, a         scheme. Defendant Daniel Bernardin, an accountant
not-for-profit entity that was created for the purpose   who also participated in the conspiracy and pro-
of assisting disadvantaged youths seeking employ-        vided false income documents for loans that Will-
ment. On some of the real estate deals from which        iams originated, pled guilty to conspiracy in August
he benefited, the kickbacks ranged from $4,000 to        2001.
$5,000 per transaction. In total, McDowall made
approximately $1.6 million from these fraudulent              In Long Island, NY, defendant Gary
deals. Even though he cashed most of his profits,        Westwood, a compliance inspector at Community
some of the money and a luxury vehicle were seized       Home Mortgage Company, pled guilty in federal
through a federal seizure warrant. McDowall is           court to making a false statement during an investi-
being detained indefinitely due to the fact that he      gation of a $1.2 million Section 203(k) mortgage
has an outstanding bench warrant from the Philadel-      fraud scheme. Westwood stated that he performed
phia Police Department for a narcotics violation.        all the physical inspections noted on the HUD draw
                                                         request forms for multiple properties. As a result of
    Defendant April Batchelor, a secretary at One
                                                         these alleged inspections, $400,000 in rehabilitation
Rescue, Inc., and spouse of Maurice McDowall,
                                                         funds were released to a contractor, whose spouse
was arrested in Stockbridge, GA, for making false
                                                         was the mortgagor. The investigation disclosed
statements involving HUD and FHA transactions.
                                                         instances where the rehabilitation work was not
Subsequent to her arrest, a luxury vehicle was
                                                         done, but Westwood certified that the work was
seized. Batchelor was released on a $25,000 bond.
                                                         completed.
    In the Bronx, defendant Robert Dosch, another
                                                             In the same case, defendant Kasing Cheng, a
individual linked to this fraudulent scheme, who
                                                         licensed real estate agent and mortgage broker, pled
was an appraiser and owner of Steuben Hill Real
                                                         guilty in federal court to conspiring to defraud
Estate Company, forfeited $75,000 to the U.S.

Chapter 2 — Housing Fraud Initiative                                                                         28
HUD.   Cheng was a fugitive for nine months. He                     entered into a civil settlement agreement in state
fled to the Dominican Republic and Malaysia after                   superior court to repay the Authority’s mortgage
being indicted. Cheng acted as a middleman and                      banking corporation $43,000. Robinson took the
flipped properties to a real estate investor. The                   funds as an alleged salary without Authority ap-
properties were sold at inflated prices, with the                   proval. Robinson, together with Authority’s former
investor providing false income and asset informa-                  chairman, Nathaniel Ham, took over $115,000 from
tion to HUD. All 11 properties involved in the fraud                Mortgage Banking Corporation when their terms
scheme have either been foreclosed or are in fore-                  ended. Ham previously repaid $72,000 that was
closure. Losses to the FHA insurance fund are                       taken as an alleged loan. Ham used the funds to pay
estimated at $1 million.                                            personal expenses, including property taxes and
                                                                    college tuition for his son.
    Defendant Charles Robinson, former commis-
sioner of the Huntington, NY Housing Authority,



Northern District of Texas (Greater Metropolitan Areas of Dallas and Ft.
Worth, TX)
    The table below lists the program, location, HUD loss and/or potential fraudulent transactions total for the
investigative results reported by the HFI of the Northern District of Texas. Following the table is a description of
each case represented in the table.

                                          IDENTIFIED PROGRAM LOSSES
                                        April 1, 2002 through September 30, 2002

                                                                       Actual HUD      Total Potential
                                   Program              Location
                                                                       Loss to Date         Loss
                       Single Family Loan Origination   Dallas           $1,000,000      $50,000,000
                       Single Family Loan Origination   Dallas             $881,191      $13,000,000
                       Single Family Loan Origination   Dallas               $22,000          $22,000
                       Single Family Loan Origination   Dallas           $1,000,000       $2,600,000
                       Public Housing                   Corsicana             $4,000           $4,000
                       Assisted Housing                 Dallas               $18,000          $18,000


                                                                    million of which are in default, with a loss to HUD
    In Dallas, TX, defendant Craig Delcambre was
                                                                    of over $1 million.
sentenced in federal court to three months in prison
and three years supervised release, and ordered to
                                                                        Defendants Orlando Reyes, Joann Reyes, and
pay $29,206 in restitution to HUD and a $200
                                                                    Kenneth Gaillard were indicted by a federal grand
special assessment. Delcambre was found guilty of
                                                                    jury in Dallas, TX, for aiding and abetting and
one count of submitting false statements and one
                                                                    false statements. Orlando Reyes is the pastor of a
count of identity theft. He used a Social Security
                                                                    church in Fort Worth and is also president of Kings
number belonging to another individual in order to
                                                                    Land Development Company (KLD). Orlando Reyes
obtain an FHA insured loan. He later used that same
                                                                    and Joann Reyes, operating as KLD, allegedly
Social Security number to file bankruptcy. The
                                                                    purchased homes in the southeastern area of Fort
investigation of Delcambre resulted from a larger
                                                                    Worth, hired contractors to make repairs, and
investigation involving Universal Lending Group
                                                                    marketed the homes for sale. In 1994, Joann Reyes,
(ULG) of Southlake, TX. ULG originated over $50
                                                                    while still involved in KLD, began operating a
million in loans during a two-year period, $4
                                                                    mortgage company under the name of Royal Lend


Chapter 2 — Housing Fraud Initiative                                                                                      29
ing as a net branch of American Investment Mort-         pleading guilty to one count of illegal reentry after
gage Company (AIM), a direct endorser of FHA             deportation and one count of false statements.
insured loans. In order to avoid the appearance of       Chaudhry was ordered to serve 120 months in
impropriety, brother-in-law Kenneth Gaillard was         prison and pay a $200 special assessment. Upon
brought in to handle the day-to-day operations of        release from prison, he will be remanded to the
KLD.                                                     custody of the INS to face deportation proceedings.
                                                         If Chaudhry is not deported, he will be required to
    KLD purchased dilapidated homes at low prices,
                                                         serve a period of three years supervised release.
made some repairs, obtained inflated appraisals,
                                                         Chaudhry, also known as Roberto Martinez and Joe
and then sold the homes to low-income buyers via
                                                         Robert Perez, is a citizen of Pakistan who had been
FHA insured financing from AIM, with closing costs
                                                         living in Dallas. He had not applied for readmission
and down payment assistance through the City of
                                                         to this country since the time of a previous deporta-
Fort Worth. Joann Reyes allegedly falsified docu-
                                                         tion on August 30, 1996. Chaudhry also made false
ments to qualify the buyers for the FHA loans and
                                                         statements on a uniform residential loan application
the grants from the City of Fort Worth. Together,
                                                         for the purpose of obtaining an FHA insured mort-
the three pushed through these transactions, includ-
                                                         gage using the name and Social Security number of
ing signing false statements certifying that KLD had
                                                         a person named Roberto Martinez. In addition,
not provided any funding when they knew this was
                                                         Chaudhry made a false application to the Social
not true. The closing costs and/or down payments
                                                         Security Administration for a Social Security
were paid in several ways. First, sometimes Gaillard
                                                         number in the name of Joe Robert Perez. Chaudhry
bought a cashier’s check payable to the Common-
                                                         was also charged with making a false application to
wealth Title Company and had the buyer sign the
                                                         the U.S. Department of State to obtain a U.S.
check as the remitter. Second, the church would
                                                         passport in the name of Joe Robert Perez.
write “grant” checks to the title company to pay a
portion of the buyer’s closing costs or down pay-
                                                             Defendant Joey Davis was indicted by a Dallas,
ment. Subsequently, KLD would refund that money
                                                         TX federal grant jury on one count each of con-
to the church. In reality, the church was used as a
                                                         spiracy, identity theft/misuse of a Social Security
“front” to make it seem that the buyers were
                                                         number, and false statements. Davis was allegedly
receiving grants when in reality KLD was making
                                                         responsible for causing false documents to be
the payments. Finally, Gaillard instructed the
                                                         processed in order to originate fraudulent FHA loans
Commonwealth Title Company to take the closing
                                                         for himself and other individuals. Crest Mortgage
costs directly out of KLD sales proceeds.
                                                         Company of Dallas took advantage of its direct
    As a direct endorser of FHA insured loans, AIM       endorsement status and approved in excess of $1
was responsible for determining buyers’ qualifica-       million in fraudulent loans that are in claim status.
tions. In addition, FHA requires that if a buyer         Davis is responsible for over $225,000 in claims to
misses three payments in a row within the first six      be paid by HUD. The total potential loss is $2.6
months of the loan, then the mortgage company is         million.
required to pay back the origination fee received for
processing the loan. When this occurred, AIM                  The Corsicana, TX Housing Authority board
reclaimed the money from Joann Reyes, who was a          of commissioners accepted the resignation of
loan processor. Knowing this, Joann Reyes occa-          George Linicolmn, the Authority’s executive direc-
sionally made the mortgage payments when the             tor, during a special executive session meeting. The
buyers fell behind during the first six months. HUD      meeting was called as a result of an investigation
has paid claims of $881,191 in this case, and the        which disclosed that Linicolmn took various Au-
total potential loss to the Department attributable to   thority assets and used Authority employees to
AIM is more than $13 million.                            conduct his personal business. The board of com-
                                                         missioners gave Linicolmn the option to resign or to
    Defendant Riffat Mahmud Chaudhry was                 be terminated after he admitted his wrongdoing.
sentenced in federal court in Dallas, TX, after          The total loss is $4,000.

Chapter 2 — Housing Fraud Initiative                                                                         30
    Defendant Debra Hartfield, a Section 8 recipi-
ent, was arrested in Dallas, TX, on a state charge
of theft of over $1,500. Hartfield received Section 8
subsidies to which she was not entitled based on her
income and family composition. Between October
1995 and November 2000, Hartfield allegedly failed
to report wage income that would have prevented
her from receiving Section 8 rent subsidies. The
approximate loss to the Department was $18,000.




Chapter 2 — Housing Fraud Initiative                    31
                                        Chapter 3       —   Audits
                                                        HUD Down Payment Assistance
HUD Single Family Housing                               Programs
Programs
                                                             Based on a request from the General Deputy
     Single Family Housing Programs are meant to        Assistant Secretary for Housing, we reviewed a
provide mortgage insurance that enables individuals     statistical sample of 1,125 FHA case files to deter-
to finance the purchase, rehabilitation, and/or         mine the percentage of borrowers receiving down
construction of a home. During this reporting           payment assistance (DAP) from nonprofit corpora-
period, we conducted a nationwide review of the         tions, and to find out if the DAP assisted loans are
Real Estate Owned owner-occupant sales initiative       more likely to default than loans without DAP
and a follow-up review of down payment assistance       assistance. Under DAP, the seller or builder reim-
from nonprofit corporations.                            burses the nonprofit organization for the assistance.
                                                        The audit found that the use of DAP assisted loans
                                                        has increased and is now widespread. In addition,
HUD Single Family Sales to Owner-                       DAP assisted loans have a greater tendency to default
Occupant Purchasers                                     than unassisted FHA loans. The review also found
                                                        that information in HUD’s Single Family Data
    Under the Single Family Real Estate Owned           Warehouse is inaccurate, and that stronger controls
(REO) owner-occupant sales initiative, HUD estab-       are needed to ensure that lenders enter correct
lished an initial 10-day priority bidding period open   information so that HUD can accurately evaluate the
only to owner-occupant buyers. The buyers must          performance of DAP assisted loans and the associ-
certify that they will occupy the property as their     ated risk to the FHA fund. We recommended that
primary residence and live in the property a mini-      HUD consider implementing a proposed rule prohib-
mum of 12 months. Additionally, the buyers can          iting seller derived down payment assistance loans.
only purchase one HUD property within a two-year        (Report No. 2002-SE-0001)
period. Our nationwide audit found that 29 percent
of the purchasers did not comply with these require-
ments. We estimated that from January 1995 to July
2001, purchasers bought 41,547 single family            HUD Multifamily Housing
properties, valued at $2.9 billion, that did not
comply with residency requirements. Further, 1,550      Programs
purchasers bought 1,851 properties, valued at               In addition to multifamily housing developments
$107.3 million, in violation of purchase frequency      with HUD held or HUD insured mortgages, the
limitations. HUD management was not monitoring          Department owns multifamily projects acquired
the requirements, and was therefore unaware of the      through defaulted mortgages, subsidizes rents for
significance of the noncompliance. Also, HUD’s          low-income households, finances the construction
Single Family Accounting Management System did          or rehabilitation of rental housing, and provides
not provide sufficient information to enable the        support services for the elderly and handicapped.
homeownership centers and management and
marketing contractors to easily prescreen prospec-          During this reporting period, the OIG reviewed
tive buyers. The abuses may have prevented a            assistance funded by Section 514 of the Multifamily
number of prospective owner-occupants from              Assisted Housing and Reform Affordability Act of
acquiring HUD homes. (Report No. 2002-PH-0002)          1997 and the HUD Section 232 Nursing Home
                                                        Program. These reviews were in addition to our
                                                        efforts to address multifamily equity skimming.



Chapter 3   — Audits                                                                                       32
Equity Skimming                                            irregularities related to construction activities, we
                                                           did find that the owner improperly disbursed over
    Equity skimming is described as the willful            $312,000 in project operating and trust funds, while
misuse of any part of the rents, assets, proceeds,         defaulting on the $12.9 million HUD insured mort-
income or other funds derived from a multifamily           gage and while providing HUD with inaccurate and
project covered by an FHA insured or held mort-            incomplete information on monthly accounting
gage. The use of project assets or income for other        reports. Because the owner failed to fully disclose
than reasonable operating expenses and necessary           all pertinent information concerning Ashley Cross-
repairs, or for the payment of unauthorized distribu-      ings and the mortgagor entity, HUD approved the
tions to the owner, constitutes a violation of the         loan without full knowledge of all the relevant facts
Regulatory Agreement between the owner and HUD             surrounding the acquisition of the property. Had
and plays a significant part in the realization of         HUD been aware of all the facts, the loan might not
losses to the FHA insurance fund. Equity skimming          have been approved. The misuse of funds contrib-
deprives projects of needed funds for repairs and          uted to the mortgage default and HUD’s recommen-
maintenance. This, in turn, contributes to the             dation to foreclose on the mortgage. Subsequent to
financial and physical deterioration of projects and       the foreclosure recommendation, HUD decided to
the resultant substandard living conditions for the        dispose of the mortgage in a note sale. The FHA
families who depend on the Federal Government to           insurance fund stands to suffer a substantial loss
provide housing. The following reflects the results        when the mortgage note is sold as a result of the
of our equity skimming review activity during this         assignment. In response to the audit, the Atlanta
reporting period.                                          Enforcement Center agreed, among other things, to
                                                           pursue debarment action against the mortgagor
    In pre-litigation settlement of a civil multifamily
                                                           entity and its individual principals. (Report No.
equity skimming case, Biltmore Properties, Inc., in
                                                           2002-AT-1004)
Phoenix, AZ, delivered a certified check for
$195,000 to the Department of Justice, U.S.                    In response to a request from the HUD Colum-
Attorney, in Phoenix. The settlement pertains to           bia State Office, we audited Magnolia Lane Apart-
overcharges by Biltmore between January 1, 1991,           ments in Conway, SC, to determine if the owner
and December 31, 1995, in the capacity of manage-          properly used project operating funds. We found
ment agent for 33 HUD insured multifamily projects.        that the owner caused a mortgage default by misus-
The overcharges were identified in a 1995 OIG audit        ing project funds. The owner disbursed over
of Biltmore operations. Biltmore agreed to pay the         $185,000 in project operating and trust funds for
Justice Department $195,000 without admission of           ineligible purposes. The distributions included
liability, legal fault, or responsibility for any of the   nearly $149,000 paid after the mortgage default,
$280,000 of overcharges alleged in the civil equity        constituting an equity skimming violation. The
skimming case. The government claimed Biltmore             owner improperly encumbered a project escrow
overcharged projects for services and equipment            account for $100,000 to secure unspecified notes,
including payroll handling fees, check processing          and spent over $43,000 in tenant security deposits
fees, computer equipment, water treatment, and             and prepaid rent. Throughout the period of default,
central systems services. Some of the services and         the owner ignored HUD’s requests for accounting
equipment were provided by Biltmore, while others          reports and did not remit net project cash as re-
were provided by undisclosed identity-of-interest          quired. We recommended that HUD become mort-
entities.                                                  gagee-in-possession (MIP) of the project, debar the
                                                           mortgagor principals, and recover the questioned
     At the request of the HUD Jacksonville Multi-
                                                           costs. HUD became MIP on April 25, 2002. (Report
family Hub, we audited Ashley Crossings Apart-
                                                           No. 2002-AT-1001)
ment Homes in Largo, FL, including project
operations, construction activities, and procedures
relating to the application, firm commitment, and
initial closing on the project. Although we found no

Chapter 3   — Audits                                                                                           33
    Due to concerns raised by the Multifamily          this semiannual reporting period, we completed our
Housing Program Office, we audited Casa de             reviews of the eligibility of costs at 32 recipients
Vallejo, a multifamily senior housing project in       and issued 33 audit reports, with particular empha-
Vallejo, CA, and found that rental income was          sis on identifying ineligible lobbying activities.
being used to subsidize the food and maid service      Generally, we found that lobbying activities oc-
programs. We also found that: (1) project funds        curred at a number of grantees; however, there was
were being used to pay non-project expenses (unse-     no objective way to identify or separate costs
cured loans, loans to persons outside the project,     associated with the possible lobbying. We have also
personal expenses, donations and contributions,        questioned costs totaling over $1.4 million. We took
excessive management fees, and expenses of             exception to grant administration at 26 grantees, as
projects not related to Casa de Vallejo); (2) tenant   discussed below.
security deposits were borrowed by the management
                                                           Our audit work is continuing. During the next
agent to supplement rental income; and (3) monthly
                                                       six months, we plan to complete audits of the
reports for establishing net income were not prop-
                                                       remaining eight recipients and issue a wrap-up
erly completed. As a result, more than $110,000 in
                                                       report on the results of our audit work at all 40
ineligible costs were paid using project funds, and
                                                       recipients. This report will be discussed in our
over $8,000 in costs lacked adequate documenta-
                                                       March 2003 Semiannual Report to Congress.
tion. The management agent generally agreed with
our findings and has already reimbursed the project    Newark, NJ
nearly $14,000. (Report No. 2002-SF-1001)
                                                            We completed an audit of the OTAG and PEG of
                                                       the Ironbound Community Corporation in Newark,
Assistance Funded by the Multifamily                   NJ. The review found that the grantee was unable
Assisted Housing Reform and                            to: (1) provide adequate documentation to support
                                                       rental expenses of over $18,000 that were charged
Affordability Act of 1997                              to the OTAG; and (2) support the pre-determined
                                                       percentages used to allocate nearly $160,000 in
    The Congress was seriously concerned with the
                                                       total costs incurred among the four HUD prescribed
manner in which HUD’s Office of Multifamily
                                                       activities of the OTAG. The review did not disclose
Housing Assistance and Restructuring (OMHAR) has
                                                       any instances where the grantee expended grant
been managed. Consequently, in the 2002 Defense
                                                       funds on lobbying activities. (Report No. 2002-NY-
Appropriation Act (Public Law 107-117), Congress
                                                       1004)
required that the HUD OIG audit each provision of
assistance funded by Section 514 of the Multifamily    Raleigh, NC
Assisted Housing Reform and Affordability Act of
1997 over the last four years administered by              We audited two OTAGs and three ITAGs awarded
OMHAR. This includes 76 Outreach and Training          to the North Carolina Low-Income Housing Coali-
Assistance Grants (OTAG), five Intermediary Techni-    tion, Inc., Raleigh, NC. Although we did not
cal Assistance Grants (ITAG), and two Public Entity    identify any ineligible lobbying activities, we did
Grants (PEG) totaling about $26 million provided to    find that the grantee obtained advances in excess of
40 recipients. The Act also provides that the Secre-   program needs, claimed reimbursement for expen-
tary recapture amounts not meeting the require-        ditures not paid, and claimed reimbursement for the
ments of Section 514 as determined by OIG audits       same expenses twice, resulting in overcharges of
and to provide no funding to those entities that       $52,000. Also, the grantee did not use a cost
violate the requirements for a period of four years.   allocation method or plan that complied with
                                                       guidance in OMB Circular A-122. The lack of an
    Auditing 100 percent of grants awarded is an       adequate cost allocation plan resulted in overcharges
extraordinary request requiring commitment of          to the grants of at least $9,000. Finally, the grantee
about 42 percent of audit field staff to the effort.   hired a nonprofit organization to conduct portions
Consistent with the Congressional directive, during    of the grant activities under a cost reimbursable

Chapter 3 — Audits                                                                                         34
type contract. Of the more than $166,000 in in-        consultants for project management, financial and
voices submitted by the contractor, over $73,000       legal services. In addition, the grantee charged the
was not adequately supported, and represents           OTAG for staff involved in lobbying activities The
potential overcharges to the grants. (Report No.       lobbying included meetings with Congressional staff
2002-AT-1005)                                          from the Senate as well as other lobbying activities.
                                                       We could not determine the exact cost of lobbying
Tucson, AZ                                             activities because the grantee failed to maintain
    In Tucson, AZ, we audited the Southern             detailed payroll records. (Report No. 2002-BO-
Arizona People’s Law Center OTAG. Although the         1004)
grantee’s staff participated in conference calls and   Richmond, VA
attended conferences, both of which included topics
that could be construed as lobbying, there was no           We audited the OTAG awarded to the Virginia
objective way to identify or separate costs associ-    Poverty Law Center, Richmond, VA, and found
ated with the possible lobbying activities. We did     that the Center did not maintain personnel activity
find, however, that the grantee does not have          reports in accordance with OMB Circular A-122 to
adequate management controls and failed to prop-       support $63,000 in personal salaries and fringe
erly document and allocate employee salary and         benefits charged to the grant. In addition, the
other costs in accordance with OMB requirements.       grantee could not support nearly $12,000 in indirect
Of the $109,000 in OTAG funding the grantee            costs because it did not prepare a cost allocation
received though June 30, 2002, we determined that      plan per the guidance in OMB Circular A-122.
claims totaling nearly $80,000 were ineligible and     According to the grantee’s cost allocation proce-
nearly $20,000 were unsupported. (Report No.           dures, all expenses are allocated based on time
2002-SF-1007)                                          spent on each activity; however, since the grantee
                                                       does not maintain detailed time reports to support
Albuquerque, NM                                        its allocation rates, we could not determine whether
    An audit of the New Mexico Public Interest         the grantee’s allocation plan was reasonable. Also,
Education Fund’s OTAG and three PEGs disclosed         according to the grantee’s reports to HUD’s Office
that, contrary to requirements, the Education Fund,    of Multifamily Housing Assistance Restructuring,
located in Albuquerque, NM, engaged in lobbying        grantee staff attended a training conference and a
activities. Because the Education Fund recorded its    number of teleconferences that included lobbying
time by grant, it did not document the time ex-        activities. However, due to the lack of adequate time
pended for specific activities performed under the     records, we could not determine the total time and
grant. Thus, the cost for lobbying activities could    associated costs expended for these ineligible
not be determined. In addition, the Education Fund     activities or verify the grantee’s claim that its
overcharged the grant more than $13,000 for            employees did not participate in the ineligible
salaries and could not support another $2,000 in       activities. (Report No. 2002-PH-1002)
salary costs. The Fund also incorrectly claimed        Dover, DE
over $1,200 for costs that it did not incur and
nearly $3,000 in unsupported costs. (Report No.             We completed an audit of the Delaware Housing
2002-FW-1003)                                          Coalition in Dover, DE, and found that the Coali-
                                                       tion did not maintain adequate accountability over
Springfield, MA                                        its OTAG and PEG funds in accordance with OMB
    An audit of the Anti-Displacement Project OTAG     Circulars A-122 and A-110. Specifically, the Coali-
in Springfield, MA, disclosed that the grantee         tion assisted ineligible properties, did not maintain
charged nearly $7,000 in ineligible costs for lodg-    personnel activity reports to support about $39,000
ing and transportation to three National People’s      in salaries and fringe benefits, lacked adequate
Action Conferences. The grantee also incurred          documentation to support $17,000 in other direct
questionable costs of nearly $38,000 paid to three


Chapter 3 — Audits                                                                                         35
and indirect costs charged to the grants, and paid       total time or costs expended on these ineligible
nearly $22,000 for ineligible expenditures. In           activities. (Report No. 2002-PH-1005)
addition, according to the grantee’s reports to
HUD’s Office of Multifamily Housing Assistance           Baltimore, MD
Restructuring, the grantee attended numerous                 We audited the FY 2000 OTAG awarded to the
training teleconferences and conferences that            Legal Aid Bureau, Inc., Baltimore, MD, and
included various ineligible lobbying related activi-     found that Legal Aid did not maintain adequate
ties. However, due to a lack of detailed time            accountability over its OTAG funds. Specifically,
records, we could not determine the total time and       Legal Aid did not maintain personnel activity
associated costs expended for these activities.          reports to support nearly $91,000 in salaries and
(Report No. 2002-PH-1003)                                fringe benefits charged to the grant and disbursed
Philadelphia, PA                                         over $3,000 for ineligible expenditures, which
                                                         included computers, entertainment, and lobbying
     We completed an audit of Tenants’ Action            activities. In addition, Legal Aid did not prepare a
Group of Philadelphia, PA, and found that the            cost allocation plan per guidance in OMB Circular
Action Group did not maintain adequate account-          A-122, thus causing nearly $23,000 in unsupported
ability over its OTAG funds in accordance with OMB       indirect costs to be allocated to the grant. Also,
Circular A-122. Specifically, the Action Group           according to the grantee’s reports to HUD’s Office
assisted ineligible projects, did not maintain person-   of Multifamily Housing Assistance Restructuring,
nel activity reports to support nearly $98,000 in        the grantee participated in a number of teleconfer-
salaries charged to the grant, lacked adequate           ences that included sessions on how the National
documentation to support over $35,000 in other           Alliance of HUD Tenants affiliates were to lobby
direct or indirect costs, and disbursed about            legislators. We also identified an instance where the
$14,000 for ineligible expenditures. Also, accord-       OTAG coordinator participated in a letter writing
ing to the grantee’s reports to HUD’s Office of          campaign in an attempt to influence HUD and local
Multifamily Housing Assistance Restructuring,            elected officials. These activities are prohibited
grantee staff attended and participated in a number      under OMB Circular A-122. Since the grantee did
of training conferences that included ineligible         not maintain detailed time records, we could not
lobbying related activities. However, since the          determine the actual amount of time and associated
Action Group did not maintain adequate travel and        costs expended for these ineligible activities. (Re-
time records, we could not determine the actual          port No. 2002-PH-1006)
costs associated with these activities. (Report No.
2002-PH-1004)                                            Baltimore, MD
Philadelphia, PA                                             We audited the FY 1998 OTAG awarded to the
                                                         Legal Aid Bureau, Inc., Baltimore, MD, and
     We completed an audit of the Philadelphia, PA       found that Legal Aid did not maintain adequate
Regional Alliance of HUD Tenants and found that          accountability over its OTAG funds. Specifically, the
the Alliance did not maintain adequate accountabil-      grantee assisted ineligible projects, did not maintain
ity over its OTAG and PEG funds in accordance with       personnel activity reports to support nearly
OMB Circular A-122. Specifically, the Alliance           $108,000 in salaries and fringe benefits, and dis-
assisted ineligible properties, did not maintain         bursed $1,000 in ineligible lobbying expenditures
personnel activity reports to support nearly $16,000     from the grant. The grantee did not prepare a cost
in salaries, lacked adequate documentation to            allocation plan per guidance in OMB Circular A-
support about $45,000 in direct costs, and paid over     122, thus causing $51,000 in unsupported costs to
$23,000 for ineligible expenditures. In addition, the    be allocated to the grant. Also, according to the
grantee attended numerous training teleconferences       grantee’s reports to HUD’s Office of Multifamily
and conferences that included ineligible lobbying        Housing Assistance Restructuring, the grantee
related activities. However, due to the lack of
detailed time records, we could not determine the

Chapter 3 — Audits                                                                                            36
participated in a number of teleconferences and         we did find that HRCSF and Tides Center lacked
conferences that included sessions on how to lobby      adequate management controls and failed to prop-
legislators. Further, we identified instances where     erly document and allocate employee salaries and
the OTAG coordinator met with a Congressman and         other costs in accordance with OMB requirements,
local City Counsel delegates to discuss particular      resulting in over $4,000 in unsupported costs. In
properties in the Mark-to-Market Program. Under         addition, the grantees did not comply with adminis-
OMB Circular A-122, these activities are prohibited     trative and accounting requirements. (Report No.
and any associated costs are considered ineligible.     2002-SF-1005)
However, since the grantee did not maintain detailed
time records, we could not determine the actual         Oakland, CA
amounts of time and associated costs expended for            We audited the Low-Income Housing Fund’s
all of these ineligible activities. (Report No. 2002-   ITAGs  and found that the grantee, located in Oak-
PH-1007)                                                land, CA, did not adequately monitor subgrantee
San Diego, CA                                           activities and charges to the ITAGs. The grantee did
                                                        not consistently require supporting documentation
    Although staff of the Legal Aid Society of San      for subgrantee expenses, confirm allocation meth-
Diego, CA, participated in conference calls and         ods or payroll records, or confirm that subgrantees
attended conferences relating to its OTAG, both of      did not charge the grant for lobbying related activi-
which included topics that could be construed as        ties. As a result, the grantee obtained insufficient
lobbying, there was no objective way to identify or     support to confirm nearly $257,000 charged to the
separate costs associated with possible lobbying        ITAGs. In addition, the grantee did not submit timely
activities. All other grant costs appear to have been   or complete quarterly reports to HUD. (Report No.
incurred in compliance with applicable regulations      2002-SF-1004)
and requirements. (Report No. 2002-SF-1807)
                                                        Honolulu, HI
Los Angeles, CA
                                                            In Honolulu, HI, our audit of the Legal Aid
     We audited the Los Angeles, CA Center for          Society of Hawaii’s OTAG found that the grantee
Affordable Tenant Housing OTAGs and found that          charged the grant over $6,000 for tenant legal
although the grantee’s staff participated in confer-    representation not allowed by the 1998 notice of
ence calls and attended conferences, both of which      funding availability, OMB, or the grant agreement.
included topics that could be construed as lobbying,    In addition, the grantee did not sufficiently confirm
there was no objective way to identify or separate      nearly $11,000 in questionable subgrantee payroll
costs associated with the possible lobbying activi-     expenses. (Report No. 2002-SF-1006)
ties. Most of the other grant costs appear to have
been incurred in compliance with applicable regula-     Sacramento, CA
tions and requirements. However, the grantee did            Although staff of the California Coalition for
fail to properly allocate employee salary costs in      Rural Housing in Sacramento, CA, participated in
accordance with OMB requirements. (Report No.           conference calls and attended conferences, both of
2002-SF-1808)                                           which included topics that could be construed as
San Francisco, CA                                       lobbying, there was no objective way to identify or
                                                        separate costs associated with the possible lobbying
    Although staff of the Housing Rights Commit-        activities. Other grant costs appear to have been
tee of San Francisco, CA (HRCSF) and Tides              incurred in compliance with the applicable regula-
Center participated in conference calls and attended    tions and requirements. However, the grantee did
conferences, both of which included topics that         not submit complete quarterly progress reports to
could be construed as lobbying, there was no            HUD in compliance with its grant agreements.
objective way to identify or separate costs associ-     (Report No. 2002-SF-1806)
ated with the possible lobbying activities. However,


Chapter 3 — Audits                                                                                          37
Providence, RI                                           New York, NY
    We issued an interim report on the OTAG                  We audited the OTAGs and PEG of The Legal Aid
awarded to People to End Homelessness in Provi-          Society in New York, NY. The grantee refers to its
dence, RI. Because of the condition of their inter-      FY 1998 OTAG as OTAG I, and its FY 2000 OTAG as
nal controls and financial records, we have not yet      OTAG II. Our review disclosed that the grantee: (1)
completed our evaluation of grant expenditures. We       charged excessive salaries, fringe benefits and
will issue a final report covering that area after we    administrative costs totaling $12,000 to its OTAG II;
finish evaluating the accounting records. Thus far,      and (2) failed to provide supporting documentation
we have determined that the grantee does not have        for costs totaling nearly $7,800 that were charged to
adequate internal controls to ensure grant funds are     its Other Than Personal Service account under OTAG
properly used. (Report No. 2002-BO-1006)                 I. The review did not disclose any instances where
                                                         the grantee expended grant funds on lobbying
Frankfurt, KY                                            activities. (Report No. 2002-NY-1005)
     An audit of the eligibility of costs of the Home-   Salt Lake City, UT
less and Housing Coalition of Kentucky, Inc.,
Frankfurt, KY, concluded the grantee failed to               The Crossroads Urban Center in Salt Lake
maintain adequate records to support charges to the      City, UT, generally used its OTAG and PEG grant
grants, and charged the grants for ineligible activi-    funds for eligible activities. The nonprofit docu-
ties. The ineligible activities included unreasonable    mented its lobbying activities and as a matter of
consulting fees, lobbying activities that are prohib-    policy did not charge these costs to the HUD grants.
ited by OMB Circular A-122, and unrelated travel         However, Crossroads did not adequately document
and training costs. The grantee’s failure to comply      costs of the grant and did not have a federally
with requirements under OMB Circulars A-122 and          approved cost allocation plan when it charged
A-110 resulted in overcharges to the grants of at        nearly $24,000 of indirect costs to the grant. Also,
least $16,000 for ineligible activities. The grantee     Crossroads used over $14,000 in grant funds for
also failed to use a cost allocation method or plan      ineligible costs. (Report No. 2002-DE-1005)
that complied with guidance in OMB Circular A-122
to allocate indirect costs to the grants. Conse-         Des Moines, IA
quently, the grantee could not support nearly                Our review of the eligibility of costs of the OTAG
$55,000 of indirect costs charged to the grants. In      for the Iowa Coalition for Housing and the Home-
addition, the grantee failed to submit required          less, Des Moines, IA, concluded that the grantee is
supporting data for some payment vouchers. (Re-          an effective and well run organization, with the
port No. 2002-AT-1808)                                   exception of the method used to charge salaries.
Honolulu, HI                                             The audit disclosed that the grantee overcharged the
                                                         grant nearly $5,000 because the method used to
    We audited the OTAG and three PEGs awarded to        charge salaries was not proper. (Report No. 2002-
the Affordable Housing and Homeless Alliance,            KC-1003)
Honolulu, HI, and administered by the Amador-
Tuolumne Community Action Agency. The audit              Colorado Springs, CO
found that the grantee overcharged the grant at least       In Colorado Springs, CO, we audited the
$12,000 for salaries, had questioned costs of nearly     Housing Advocacy Coalition and the
$3,000, unsupported costs of nearly $2,000, and          CommunityResource Center’s OTAG. The Housing
duplicate billings of about $200, and did not com-       Advocacy Coalition and the Community Resource
ply with appropriate regulations and other require-      Center jointly submitted a grant application. The
ments under OMB Circular A-122. We did not               two nonprofits share the grant as co-recipients, even
identify any instances where grant funds were
expended in support of lobbying activities. (Report
No. 2002-DE-1002)

Chapter 3   — Audits                                                                                         38
though the HUD grant agreement identifies the             lio. A key control to evaluate the financial health of
Housing Advocacy Coalition as the grantee. The            the projects is the annual audited financial state-
audit found that the grantees overcharged the grant       ments submitted to the Real Estate Assessment
nearly $3,900 for salaries and did not comply with        Center’s Financial Assessment Subsystem. The
other requirements under OMB Circular A-122. In           survey found that financial statements submitted
addition, the grantees participated in lobbying           contained numerous examples of Regulatory Agree-
activities, contrary to the enabling legislation and      ment violations; however, HUD does not receive
OMB Circular A-122. (Report No. 2002-DE-1004)             financial statements for leased nursing homes.
                                                          These significant control weaknesses, in our opin-
Topeka, KS                                                ion, have contributed to a high number of defaults
    In Topeka, KS, we reviewed the eligibility of         and assignments of Section 232 projects.
costs of Housing and Credit Counseling, Inc.’s OTAG            The current Office of Housing management
and concluded that the grantee has an effective and       established a Section 232 Task Force and has
well-run organization with two exceptions. First, the     initiated actions to identify and correct program
grantee could not demonstrate that the allocation         control weaknesses. The Task Force identified all
plans used to distribute salaries and indirect costs to   the weaknesses that we identified and developed an
the grant were reasonable. Second, the grantee did        action plan to address the weaknesses. However, at
not have documentation to support the method of           the time of our audit, Housing did not have a
cost allocation used in its plans and did not obtain      timetable for implementing the proposed corrective
HUD’s approval for the plans. (Report No. 2002-           actions. (Report No. 2002-KC-0002)
KC-1002)
                                                          Ridgeview Manor Nursing Home Project
Dallas, TX
                                                              An OIG audit of Ridgeview Manor, a Section
    We audited two OTAGs and a PEG of the Texas           232 HUD insured project in Hopkins, SC, found
Tenant’s Union, Dallas, TX. Overall, Texas                that the project’s cost certification included over
Tenant’s Union used its grants for eligible activities.   $223,000 in nonexistent, ineligible, and unsup-
However, the Tenant’s Union supported the Na-             ported costs. In addition to the overstated project
tional Alliance of HUD Tenants by attending annual        costs, we identified ineligible disbursements of
conferences. Although the National Alliance of            nearly $213,000 from construction funds and
HUD Tenants provided training opportunities, it also      $62,000 from operating funds. Improper draws of
performed lobbying activities. In addition, the           construction (mortgage) funds totaling $209,000
Tenant’s Union inadvertently claimed a minimal            and unauthorized loans facilitated the ineligible
amount in ineligible and unsupported costs. (Report       expenditures. The improper draws were based on
No. 2002-FW-1805)                                         nonexistent and ineligible costs. Further, Ridgeview
                                                          owners requested mortgage funds for accounts
                                                          payable but did not pay the vendors in full.
HUD Section 232 Nursing Home                                  Ridgeview’s internal controls were not adequate
Program                                                   to ensure proper accounting or timely submission of
                                                          financial reports to HUD, or to safeguard assets
    A nationwide survey of HUD’s Office of Hous-
                                                          against theft, loss, and misuse. Lastly, A&R Enter-
ing Section 232 Nursing Home Program disclosed
                                                          prises, a former management company, improperly
that HUD does not have adequate controls in place to
                                                          retained rental income of nearly $20,000 belonging
ensure that all nursing home Regulatory Agreement
                                                          to Ridgeview Manor and inflated prices for goods it
violations are identified. Significant control weak-
                                                          provided by nearly $13,000.
nesses occurred because past HUD management did
not properly assess and identify risks or design             Among other things, the audit recommended
weaknesses and implement proper controls to               debarment of A&R Enterprises and its affiliates
protect HUD’s interests in its nursing home portfo-


Chapter 3 — Audits                                                                                            39
from participation in HUD programs. (Report No.             When we began our work earlier this year, we
2002-AT-1006)                                           quickly realized that weaknesses in certain applica-
                                                        tion processing procedures could result in duplicate
                                                        or ineligible assistance. As a result, we issued an
                                                        interim report that noted:
HUD Community Planning                                  Ø Empire State may be awarding CDBG disaster
                                                          grants to applicants who have already received
and Development Programs                                  Small Business Administration (SBA) disaster
    The Office of Community Planning and Devel-           loans. In some instances, applicants may not be
opment (CPD) seeks to develop viable communities          eligible to receive both a CDBG grant and an SBA
by promoting integrated approaches that provide           loan.
decent housing, a suitable living environment, and      Ø Empire State was not requiring applicants to
expanded economic opportunities for low- and              provide any details showing or describing how
moderate-income persons. The primary means                they determined their estimated economic loss.
toward this end is the development of partnerships        This estimate is a key component of the calcula-
among all levels of government and the private            tion that is used to determine whether an
sector. During this reporting period, OIG audited         applicant is eligible for a grant. It should be
Community Development Block Grant (CDBG)                  noted that in some instances, the amount of the
Disaster Assistance Funds in the State of New York,       estimated loss is in the millions of dollars.
the Economic Development Initiative, CDBG devel-
opment projects in Utica, NY, Community Planning            In discussing our interim report with HUD and
and Development Programs in Jersey City, NJ, and        Empire State officials, Empire State changed the
Pomona, CA, the HOME Investment Partnerships            application process and now requires applicants to
Program, and the Supportive Housing Program.            provide details as to how they calculate their esti-
                                                        mated loss. However, to ensure that the application
Disaster Assistance Funds – State of                    process is consistent, we believe that Empire State
New York                                                should request the same data from the previous
                                                        applicants (4,100) who have already received
     As a result of the September 11, 2001 terrorist    grants.
attacks, Congress has provided three separate
appropriations for HUD to provide a total of $3.5           We recommended that HUD consult with appro-
billion in CDBG disaster assistance funding to the      priate SBA officials and determine whether duplica-
State of New York. In December 2001, Congress           tion of benefits exists, which may necessitate a legal
specifically tasked the HUD OIG to periodically audit   opinion. Also, HUD must ensure that Empire State
and semiannually report on the expenditure of these     is complying with Congress’ intent regarding the
funds. The Empire State Development Corporation         reduction of CDBG disaster grants by any other
(Empire State) and Lower Manhattan Development          public benefits that an applicant may have received.
Corporation are serving as administrators of this           We expect to issue our next audit report by
funding for the State. Each week, hundreds of           March 31, 2003, covering activities from program
applications for assistance are processed and mil-      inception through September 30, 2002. Also, we
lions of dollars are disbursed. The desire to provide   plan to issue an audit report by September 30,
disaster assistance as quickly as possible and the      2003, covering the six-month period from October
size of this operation have made our audit work a       1, 2002, to March 31, 2003, and every six months
formidable task. We have committed a substantial        thereafter. (Report No. 2002-NY-1802)
number of our New York staff to this assignment.
This commitment will continue as expenditures
under this program are expected to continue over
the next few years.


Chapter 3 — Audits                                                                                             40
HUD Economic Development                                     were not fully used in accordance with the terms
                                                             and conditions under which the funds were ap-
Initiative                                                   proved and did not satisfy the national objective of
    In response to a Congressional request, the OIG          low- and moderate-income benefit. (Report No.
audited the Los Angeles, CA Community Develop-               2002-SF-1003)
ment Bank (LACDB) to determine whether allega-
tions of mismanagement and improper use of funds
had merit. We found the allegations were partially
correct. LACDB had not fully complied with HUD
regulations and Economic Development Initiative
Agreement requirements. Specifically, LACDB: (1)
approved over $69 million in loans and investments
to 101 businesses that had not met the national
objective of creating jobs for low- and moderate-
income persons; (2) provided loans or investments
to businesses that were located outside the Empow-
erment Zone (EZ) target area in excess of funding
limits; and (3) invested over $26 million in venture
capital businesses that provided minimal benefit to
EZ target area residents. In addition, contrary to
OMB Circular A-122, Cost Principles for Non-Profit
Organizations, LACDB did not exercise prudent
business practices and incurred unreasonable and
unnecessary expenses in administering its program
activities. Consequently, HUD funds for economic
                                                                          Los Angeles Time, August 7, 2002
revitalization activities within the EZ target area




Utica, NY Development Projects
    Pursuant to a request from the Director of CPD in HUD’s Buffalo Office, we audited two development
projects within the City of Utica, NY: the Utica Historic Marina Project and the Parkway Recreation Center
Project. The Historic Marina Project, shown below, is part of the Canal Corridor Initiative, a HUD initiative.
    We found that the Marina Project may not meet its job creation goal because the grantee failed to develop a
plan to ensure that the required goal would be met for low- and moderate–income families. The grantee also
expended nearly $903,000 of its CDBG entitlement funds on the Marina Project. HUD disagreed with the expen-
diture of these funds and directed the grantee to reimburse its CDBG Program nearly $903,000.
    We also found that, as part of its Parkway Recreation Center Project, the City of Utica used CDBG funds to
help finance the renovation of a ski chalet in spite of a warning by HUD that the activity may not meet a national
objective of the CDBG Program.
   The audit questioned a total of $1.37 million of CDBG funds. The City has already agreed to pay back over
$900,000 and reimbursed its CDBG Program $300,000 prior to issuance of our audit. (Report No. 2002-NY-
1003)




Chapter 3   — Audits                                                                                                41
                                               Historic Marina Project in Utica, NY




                     Ski chalet at Parkway Recreation Center Project in Utica, NY. Renovated with CDBG Funds.




Chapter 3 — Audits                                                                                              42
CPD Programs, Jersey City, NJ                          and documentation supporting program activities.
                                                       (Report No. 2002-SF-1803)
    We audited the CPD Programs of the Hudson
County Division of Community Development
(grantee) in Jersey City, NJ. Specifically, we
reviewed the grantee’s CDBG, Emergency Shelter
                                                       HUD HOME Investment
Grant (ESG), and HOME Investment Partnership           Partnerships Program
(HOME) Programs. The audit disclosed that the
                                                           We completed an internal audit survey of the
grantee did not always comply with program re-
                                                       HOME   Investment Partnerships Program (HOME).
quirements, laws, and regulations, nor did it have
                                                       The survey work primarily concentrated on overall
adequate controls to ensure that all activities were
                                                       program monitoring and the Community Housing
carried out in an economical, efficient, and effec-
                                                       Development Organization (CHDO) approval pro-
tive manner. Specifically, the grantee:
                                                       cess. Some of the rationale for the review evolved
Ø Provided $1 million in CDBG funds for the            from our prior audit of Nonprofit Participation in
  purchase of land without obtaining the required      HUD Single Family Programs. We were concerned
  HUD approval and applicable environmental            that nonprofit organizations precluded from partici-
  clearance from the New Jersey Department of          pation in Single Family Programs might be partici-
  Environmental Protection.                            pating in HOME and that problems found with
                                                       nonprofits participating in Single Family Programs
Ø Charged approximately $64,000 in questionable        could extend to CHDO nonprofits. Specifically, we
  costs to the CDBG Program.                           were concerned that: (1) CHDO nonprofits could be
Ø Allowed subrecipients to charge over $17,000 in      controlled by profit motivated groups or individu-
  excessive salaries to the ESG Program.               als; (2) property resale profit margins could be
                                                       excessive; and (3) construction or rehabilitation
Ø Failed to monitor the timeliness of subrecipient     work might not meet minimum standards.
  ESG expenditures, adequately document compli-
  ance with federal labor standards, and inspect           The survey identified some areas of apparent
  HOME assisted rental projects. (Report No.           risk and several deviations from program require-
  2002-NY-1002)                                        ments including: (1) monitoring weaknesses at both
                                                       the HUD field office level and at the Participating
                                                       Jurisdiction (PJ) level; (2) administrative weaknesses
                                                       at both the PJ and subgrantee or CHDO; and (3)
City of Pomona, CA                                     actual or apparent conflicts of interest. However, for
     In response to a request from the HUD Los         the most part, our concerns that HOME might be
Angeles Office, we performed a limited review of       experiencing problems with CHDOs similar to those
the use of HUD CDBG funds by the Latino Chamber        we found for Single Family nonprofits were allevi-
of Commerce (LCC), a subgrantee of the City of         ated. Therefore, we do not believe additional
Pomona, CA. Specifically, we were asked to             internal audit coverage is warranted at this time.
evaluate a complaint alleging that the LCC had used    The survey report includes recommendations
its CDBG subgrantee allocation from the City of        addressing several departmental and programmatic
Pomona for ineligible activities. The complaint        issues, and a recommendation for a legal opinion as
alleged Pomona City Council members sat on the         to the applicability of federal cost principles and
board of directors for the LCC, and that they re-      conflict of interest restrictions to CHDOs. (Report
ceived campaign contributions from the LCC’s CDBG      No. 2002-SF-0801)
funds. Although we did not find evidence to sup-           In a related audit, also performed as part of the
port the complaint allegation, we did note concerns    national internal audit survey of the HOME Invest-
with the City’s oversight of its subgrantees as well   ment Partnerships Program, we reviewed the
as problems with the LCC’s management controls         operations of two Participating Jurisdictions (PJs),
                                                       the City of Stockton, CA, and San Joaquin

Chapter 3 — Audits                                                                                         43
County, CA, and two Community Housing Devel-           over $34,000 of operating expenditures were
opment Organizations (CHDOs), Asociacion               ineligible for HUD funding because they were not
Campensina Lazaro Cardenas, Inc., and                  matched by VORCI funds. (Report No. 2002-AT-
Stocktonians Taking Action to Neutralize Drugs.        1003)
Generally, the PJs and CHDOs complied with statu-
tory and regulatory requirements. However, the
survey identified some areas of apparent risk and
several deviations from program requirements           HUD Public and Indian
including: (1) weaknesses in PJ monitoring of          Housing Programs
CHDOs; (2) administrative weaknesses at both the
PJs and CHDOs; and (3) actual or apparent conflicts        HUD provides grants and subsidies to approxi-
of interest. (Report No. 2002-SF-1804)                 mately 4,200 housing authorities (HAs) nationwide.
                                                       About 3,200 HAs manage public housing units and
                                                       another 1,000 HAs, with no public housing, manage
HUD Supportive Housing Program                         units under Section 8 Programs. (Many HAs admin-
                                                       ister both Public Housing and Section 8 Programs.)
    At the request of the Director, Office of CPD,     HUD also provides assistance directly to HAs’
HUD Atlanta Office, we audited the expenditures of     resident organizations to encourage increased
a three-year 1997 Supportive Housing Program           resident management of public housing develop-
(SHP) grant of $1.88 million by the National Schol-    ments and to promote the formation and develop-
arship Service and Veteran’s Opportunity and           ment of resident management entities and resident
Resource Center (NSS-VORCI) in Atlanta, GA. Our        skills. Programs administered by HAs are designed
objectives were to determine whether grant and         to enable low-income families, the elderly, and
matching funds were properly accounted for and         persons with disabilities to obtain and reside in
expended for eligible costs. We also assessed          housing that is safe, decent, sanitary and in good
whether a subsequent 2000 renewal grant was            repair.
properly accounted for.
                                                           During this reporting period, we reviewed the
    We found that NSS-VORCI’s management did not       Grants Management Center, the Public Housing
establish:                                             Assessment System, and various housing authority
                                                       activities.
Ø Accounting system procedures and controls in
  compliance with federal requirements for grant       HUD’s Grants Management Center
  fund accounting.
                                                       Operations
Ø Procedures to ensure only eligible and neces-
  sary expenditures were charged to SHP grant               The Office of Public and Indian Housing
  funds.                                               created the Grants Management Center (GMC) to
                                                       streamline and increase the efficiency of the admin-
Ø Procedures to monitor and compare SHP expen-         istrative functions pertaining to its categorical and
  ditures to the approved budget.                      formula grant programs. In FY 2000 and 2001, GMC
    In addition, NSS-VORCI expended about 25           processed grant awards for categorical programs
percent of 1997 SHP grant funds for ineligible and     totaling approximately $1.2 billion and formula
unsupported costs. Costs incurred were frequently      programs for $12.3 billion. These grants included
not in the approved budget, were for unapproved        the categorical grants of the Housing Choice
housing facilities, or were not in compliance with     Voucher Program and the Resident Opportunities
SHP regulations. As a result, grant fund expendi-
                                                       and Self-Sufficiency Program (ROSS), as well as the
tures included over $158,000 of ineligible costs and   formula grants for the Capital and Operating Funds.
nearly $314,000 of unsupported costs. In addition,     Our audit of GMC’s FY 2000 and 2001 operations
                                                       showed that staff did not comply with established



Chapter 3   — Audits                                                                                       44
procedures when rating and ranking ROSS Resident        addressing problem areas identified by the relevant
Services Delivery Models applications. This led to      PHAs indicators, using a less comprehensive ap-
scores that were arithmetically incorrect and unsub-    proach than was provided for under the PHAs
stantiated by reviewers’ written comments. As a         regulations. Meanwhile, the Troubled Agency
result, GMC provided the decision-makers a list of      Recovery Center’s role and functions in assisting
eligible applicants based on unsubstantiated scores.    troubled agencies has continued to erode with the
While consolidation has streamlined grant process-      Centers now serving only 18 troubled and 29 non-
ing activities, GMC’s management did not establish      troubled agencies.
baseline/benchmark information and quantifiable
                                                            Further, not related to the restrictions imposed
indicators that directly relate to its operations and
                                                        by the Conference Report, HUD did not always
regularly compare these indicators against perfor-
                                                        designate agencies with failing management opera-
mance goals. Consequently, GMC management
                                                        tions scores as troubled and/or forward them to the
could not demonstrate that grant administrative
                                                        Troubled Agency Recovery Centers in a timely
functions are carried out more efficiently. (Report
                                                        manner. HUD was also not providing assistance to
No. 2002-AO-0001)
                                                        Agencies that failed the resident service and satis-
                                                        faction indicator of PHAS.
                                                            Lastly, we found that agencies were either not
                                                        correcting or not correcting in a timely manner Life
HUD’s Utilization of the Public                         Threatening Exigent Health and Safety (EH&S)
Housing Assessment System                               violations identified during the Real Estate Assess-
                                                        ment Center’s physical inspections. Generally, local
     We completed a multi-location review of HUD’s      HUD Offices’ monitoring methods to ensure correc-
utilization of the Public Housing Assessment            tion of identified EH&S violations within 24 hours
System (PHAS). The PHAS is an assessment system         were inconsistent and not effective. (Report No.
that measures the performance of a public housing       2002-PH-0001)
agency. Under PHAS, HUD examines four essential
areas of operation. These areas are the Authority’s:
(1) physical condition; (2) financial condition; (3)
management operations; and (4) resident satisfac-
                                                        HUD’s Up-front Grant Funds
tion (through a resident survey) of the Authority’s         In response to a complaint, the OIG reviewed a
services. Generally, we found that HUD staff have       $7.7 million Up-front Grant provided to the
been using the PHAS scoring results in monitoring       Lafourche, LA Parish Housing Authority. The
their agency portfolios and in assisting agencies to    purpose of the review was to determine if the
improve failing or low scoring components of the        Authority properly used HUD funds in the develop-
PHAS score. However, Conference Report 106-988          ment of City Place I & II. In developing the new
restricted HUD from taking any adverse action           properties, the Authority awarded a development
against an agency receiving a failing PHAS score,       contract after receiving only one proposal and
hindering HUD’s ability to fully implement the PHAS     without soliciting other proposals. The developer
and limiting its effectiveness in improving agency      then awarded the construction contract totaling
performance. Specifically, the Conference Report        $13.6 million without competition. HUD provided
did not permit HUD to forward its worst performers      information on the cost reasonableness of the new
(troubled) to one of two Troubled Agency Recovery       developments and is confident that the amount paid
Centers, where appropriate intervention strategies      was reasonable. However, due to the developer’s
could be developed and implemented to help              financial difficulties, the developer defaulted. As a
troubled agencies perform at an acceptable level.       result, one development was transferred to the
Because of this restriction, local HUD Offices have     Authority and it appears the other development
been using their limited resources to provide tar-      might also be transferred. (Report No. 2002-FW-
geted technical assistance to these agencies in         1802)

Chapter 3 — Audits                                                                                              45
Newport, RI Resident Council, Inc.                      Oakland, CA Housing Authority
    At the request of the HUD Massachusetts State           In response to a citizen complaint, the OIG
Office of Public Housing, we performed an audit of      completed a limited review of the Oakland, CA
the Newport, RI Resident Council, Inc. (NRC). Our       Housing Authority’s operations pertaining to the
objective was to determine if the NRC was adminis-      rehabilitation of the 49th Street housing develop-
tering the federal funds that it received in an effi-   ment. We found that the Authority expanded the
cient, effective, and economical manner and in          scope of the $468,000 roof replacement contract
compliance with the terms of its federal contracts      into a comprehensive modernization project costing
and regulations. The NRC received funds from the        nearly $3 million without following federal require-
Housing Authority of the City of Newport through        ments. In addition, we identified questionable
the Comprehensive Grant Program and the Tenant          change orders totaling over $100,000 and problems
Services Program. The NRC also received funds           with the quality of contractor’s work. (Report No.
from the City of Newport through the Rhode Island       2002-SF-1002)
Small Cities Community Development Block Grant
for the Employment Readiness Program.
    Our audit disclosed the NRC did not establish       Houma, LA Housing Authority
accountability over federal funds. Specifically, the
                                                             We audited the Low-Rent Program of the
NRC failed to maintain adequate accounting and
                                                        Housing Authority of the City of Houma, LA, to
monitoring records over Comprehensive Grant,
                                                        determine whether the Authority maintained ad-
Tenant Services, and Employment Readiness
                                                        equate controls over cash and procurement. The
Program funds provided by the Authority and the
                                                        audit concluded the Authority had inadequate
City. We also noted nearly $43,000 in questionable
                                                        controls and management over cash and procure-
costs for personal expenses, cash bonuses, and
                                                        ment. Specifically, the Authority improperly pro-
loans. The deficiencies occurred because the NRC
                                                        cured $1.1 million in contracts; paid $240,000 in
board of directors did not effectively manage and
                                                        ineligible and unsupported expenditures; did not
account for its federal funds. (Report No. 2002-BO-
                                                        deposit tenant receipts totaling over $48,000; and
1003)
                                                        allowed employees to abuse their positions. As a
                                                        result of poor management, lax oversight, and a
                                                        failure to follow requirements, the Authority mis-
Tupelo, MS Housing Authority                            managed HUD funds and may have exposed the
                                                        funds to fraud, waste, and abuse. (Report No.
    In response to a request from the HUD Missis-
                                                        2002-FW-1002)
sippi State Office of Public Housing, we audited the
Housing Authority of the City of Tupelo, MS, and
found that the Authority: (1) improperly advanced
over $1.4 million of Public Housing Program funds       Chelsea, MA Housing Authority
for non-federal development activities; (2) did not
                                                            We performed an audit of the Chelsea, MA
maintain its conventional low-income housing in
                                                        Housing Authority’s operations. The audit objec-
good repair and condition; (3) did not spend nearly
                                                        tives were to determine whether the Authority was
$294,000 of Comprehensive Grant Program funds,
                                                        administering its Public Housing and Section 8
as approved; (4) inappropriately pledged its assets
                                                        Programs in an efficient, effective and economical
as collateral for loans totaling over $1.1 million;
                                                        manner; and whether the Authority was complying
and (5) did not adequately control its appliance
                                                        with terms and conditions of its Annual Contribu-
inventory. (Report No. 2002-AT-1002)
                                                        tions Contract, applicable laws and HUD regula-
                                                        tions. Under the Section 8 Housing Choice Pro-
                                                        gram, a family with a Section 8 voucher may
                                                        relocate to another unit outside of the jurisdiction of


Chapter 3 — Audits                                                                                            46
the public housing authority (PHA) that originally     functionality were fully identified. In addition, we
processed the voucher (initial PHA). The vouchers      found the Plan did not fully address OIG and GAO
then may be administered or absorbed by the PHA        open report recommendations to correct long-
that has jurisdiction over the area of the new unit    standing material weaknesses in the computer
upon proper notification of the initial PHA. This      systems supporting major HUD activities. The
means that the new PHA may bill HUD directly for       weaknesses inadequately addressed included the
units absorbed or may receive payment from the         Department’s financial systems, Section 8 rental
initial PHA depending on their agreement.              subsidies, FHA business processes, and FHA funds
                                                       control. Although HUD’s submission is called a
     We found that the Authority did not effectively
                                                       Multi-Year IT Plan, we believe that strategic re-
manage its Section 8 Voucher Program according to
                                                       source planning should entail budget planning for
federal guidelines. The Authority did not follow the
                                                       the succeeding five-year period. (Report No. 2002-
requirements of a federal district court ruling by
                                                       DP-0801)
obtaining permission from initial PHAs located
within Massachusetts before absorbing Section 8
vouchers. Also, the Authority failed to notify out-
of-state PHAs that Section 8 vouchers they had         HUD’s Security Plans
issued had been absorbed by the Authority. As a
                                                           The OIG reviewed security plans prepared for
result, for the vouchers it absorbed, the Authority
                                                       HUD’s   mission critical systems. The review was
received two payments for each family receiving the
                                                       made in conjunction with the OIG’s FY 2001 finan-
subsidy – one from the initial PHA that issued the
                                                       cial statement audit and as part of the OIG’s annual
voucher and one from HUD. The Authority owes the
                                                       independent evaluation of the overall effectiveness
initial PHAs as much as $239,000.
                                                       of HUD’s security program, as required by the
    The audit also disclosed that the Authority        Government Information and Security Reform Act.
needs to grant tenants in federal family projects an   The objective was to determine whether security
allowance for maintenance and replacement of a         plans prepared for HUD’s critical information
refrigerator when the Authority does not provide       systems were compliant with OMB Circular A-130
one. The Authority owes its tenants as much as         and consistent with National Institute of Standards
$107,000 as an allowance for maintaining and           Technology Publication (NIST) 800-18.
replacing refrigerators. (Report No. 2002-BO-1005)
                                                            Our review found that the security plans for
                                                       mission critical systems did not meet the require-
                                                       ments or guidelines of either OMB Circular A-130
                                                       or NIST Publication 800-18. HUD has not updated
Other Significant HUD Audits                           the Department’s information security policies and
                                                       procedures for preparing security plans to conform
HUD’s Information Technology Plan                      to current OMB Circular A-130 and NIST Publication
                                                       800-18 guidelines. Additionally, the Office of the
    In response to a Congressional request, the OIG
                                                       Chief Information Officer (OCIO) was not coordinat-
conducted a review to determine whether the HUD’s
                                                       ing and sharing with the responsible program area
Multi-Year Information Technology (IT) Plan (FY
                                                       officials the results of a contractor’s review of the
01-FY 03) addresses previously reported computer
                                                       Department’s security plans for appropriate correc-
system weaknesses and whether the most critical
                                                       tive action. Without adequate security plans and
weaknesses have been assigned sufficient funding
                                                       proper coordination between the OCIO and the
priority.
                                                       program areas, the Department is at risk that
    We found that HUD management was well aware        critical information systems will not be adequately
of the weaknesses that required corrective action.     protected against waste, loss, and unauthorized use.
The Department, however, sometimes initiated           (Report No. 2002-DP-0002)
system projects before the prerequisite Enterprise
Architecture Plan, business processes, and system

Chapter 3   — Audits                                                                                          47
                                  Chapter 4           —   Investigations
    In addition to Housing Fraud Initiative responsibilities, the Office of Investigation investigates all types of
potential wrongdoing in HUD’s programs and activities. This Chapter presents results from:
(1) white collar investigations relating to HUD’s Single Family, Public and Indian Housing, Multifamily, and
    Community Planning and Development Programs; and
(2) Operation Safe Home (OSH) investigations relating to violent crime and drug trafficking in HUD’s Public
    and Assisted Housing Programs.
    Results from this second area are reduced from previous Semiannual Reports to Congress. This reduction
has occurred because during the last semiannual reporting period, we systematically phased out OSH investiga-
tions. The Congress funded OSH through FY 2002 to allow an orderly and responsible conclusion of the initia-
tive, to cease complete operations by September 30, 2002. Thus, in accordance with the requirements of HUD’s
FY 2002 Appropriations Act (Pub. Law 107-73), approved November 2, 2001, OIG has closed OSH violent crime
investigations and re-deployed staff to focus on investigations involving single family fraud and property flip-
ping. The OSH results discussed in this Chapter stem from investigation cases that were initiated prior to the
closing out of the initiative. The tables below show the effect of our shift in focus from OSH to single family
fraud and property flipping.




Chapter 4 — Investigations                                                                                            48
     Some of the following cases were conducted         in Detroit, MI, pled guilty in federal court to one
solely by the OIG while others were conducted           count of wire fraud. Additionally, defendants
jointly with other federal, state, and local law        Patrick Quinlan, chief executive officer, Lee Wells,
enforcement agencies, including the Federal Bureau      president, and John O’Leary, senior vice president
of Investigation, the Securities and Exchange           for corporate finance, MCA Financial Corporation,
Commission, Drug Enforcement Administration,            were indicted in federal court for a variety of
the Bureau of Alcohol, Tobacco, and Firearms,           charges, to include conspiracy, making false state-
Secret Service, Internal Revenue Service – Criminal     ments to the Securities and Exchange Commission,
Investigation Division, the Postal Inspection Ser-      and mail, wire and bank fraud. Previously in this
vice, Department of Labor – Department of Labor         case, four individuals, who held prominent posi-
Wage and Hour Division, U.S. Marshals Service,          tions within the same company structure, pled
the State of New York Office of the Attorney            guilty in federal court.
General, the New York City Department of Investi-
                                                             MCA Financial Corporation owned and operated
gation, the Office of Inspector General for the New
                                                        two subsidiaries, MCA Mortgage Corporation, an
York City Housing Preservation and Development
                                                        FHA direct endorsement lender, and Mortgage
Department, the U.S. Probation Office – District of
                                                        Corporation of America, in addition to controlling
New Jersey, the State of Missouri Division of
                                                        Detroit Revitalization, Inc., a HUD approved non-
Aging, State of Missouri Division of Social Reha-
                                                        profit. Quinlan and Wells occupied management
bilitation Services, the Missouri Department of
                                                        positions at both MCA Financial and Detroit Revital-
Social Services, Kansas Bureau of Investigation,
                                                        ization. Generally, it was alleged that they fraudu-
Kansas Department of Social and Rehabilitative
                                                        lently sold investments in mortgages and land
Services, Texas Department of Human Services,
                                                        contracts they had acquired and assembled into
local police and sheriff’s departments, housing
                                                        investment pools. This was made possible by
authority police, U.S. Attorney’s Offices, local
                                                        misrepresenting to current and potential investors
District Attorney’s Offices, and the Treasury
                                                        the performance of earlier pools and fraudulently
Inspector General for Tax Administration, Social
                                                        inflating the value of the mortgages and land con-
Security Administration, Department of Education,
                                                        tracts through a series of transfers between MCA and
and Veterans Affairs OIGs. If these joint investiga-
                                                        off-book limited partnerships. Investors’ and SEC’s
tions resulted in seizures of any type of assets, the
                                                        losses totaled $200 million. Although HUD was not
items were administered by our counterparts with
                                                        an investor, it was led to believe that, since 1993,
seizure authority, i.e., the Department of Justice,
                                                        the financial health of the company was in stable
Postal Inspection Service, and the Department of
                                                        condition per MCA’s annual direct endorsement
Treasury.
                                                        certifications, when in fact, these certifications were
                                                        grossly inflated. This allowed MCA’s various com-
                                                        panies to continually participate and profit from a
HUD Single Family Housing                               HUD non-profit program, the FHA Direct Endorse-

Programs                                                ment Program, and act as an approved FHA 203k
                                                        contractor, when they otherwise should have been
    HUD Single Family Housing Programs are              terminated because of their true financial condition.
meant to provide mortgage insurance that enables
individuals to finance the purchase, rehabilitation,        A complex investigation in Houston, TX,
and/or construction of a home. During this report-      resulted in a case involving two distinct schemes to
ing period, OIG investigations uncovered schemes of     defraud HUD and commercial lenders. The basic
fraud involving loan origination, property flipping,    scheme used by the contractors was to locate
and Title I home improvement loans.                     potential borrowers and convince them that they
                                                        should apply for HUD insured Title I home improve-
    In the biggest real estate fraud scheme in the      ment loans. In exchange, the borrowers would have
history of Michigan, defendant Kevin Lasky, the         overdue credit bills paid and would receive cash
former vice president of MCA Mortgage Corporation

Chapter 4 — Investigations                                                                                   49
kickbacks of between $2,000 and $20,000. Mini-          tenced in federal court on one count of bank fraud.
mal work would be performed on the properties and       Polcyn was ordered to serve 51 months in prison
the contractors would retain the rest of the loan       and 36 months supervised release, and was ordered
proceeds.                                               to pay $502,000 in restitution to Equicredit Corpo-
                                                        ration, a subsidiary of Bank of America, and a $100
    The second scheme was to provide false infor-
                                                        special assessment.
mation to lenders to obtain FHA insured and con-
ventional loans on houses that were being flipped at        Defendant Vivian Bond, after being convicted
substantially higher prices. Proceeds from HUD          of mail fraud, was sentenced in federal court to 12
insured home improvement loans were also used in        months in prison, 36 months supervised release, a
some cases as the down payments for these houses.       $100 special assessment, and $195,210 in restitution
The scheme involved getting inflated appraisals,        – $100,767 to Sunshine Mortgage Company and
using straw borrowers, and quickly flipping houses      $94,423 to First Preference Mortgage Company.
from one borrower to another. Due to the ever
                                                            Defendant Janet Cooper pled guilty in federal
increasing number of houses flipped in this scheme,
                                                        court to one count of mail fraud. Cooper admitted
when a home was flipped to the higher loan value,
                                                        providing false information to commercial lenders
part of the loan proceeds were used to pay off the
                                                        to obtain single family mortgage loans. She also
existing FHA or conventional loan.
                                                        admitted acting as a “finder” for the properties to
     The following actions are the results of this      be used in real estate flips for which she was paid
ongoing investigation designated “Operation Straw       $3,000 per property. The amount of fraudulent
House.” The overall scheme may involve three            loans obtained directly in Cooper’s name exceeded
criminal organizations and an estimated $74 million     $1 million. She was sentenced to one year in prison
in fraudulent loans obtained by approximately 75        and 36 months supervised release, and ordered to
individuals.                                            pay $1,196,007 in restitution, payable to Equicredit
                                                        Corporation of America, and a $100 special assess-
    Defendant Kevin Mei pled guilty in federal
                                                        ment.
court to one count of money laundering and was
sentenced to 97 months in prison and 36 months              Defendant Christine Nagy, a real estate investor,
supervised release, and was ordered to pay              was sentenced in federal court on one count of bank
$3,398,893 in restitution to commercial lenders and     fraud to one day in jail and 36 months supervised
a $100 special assessment. The judge held Kevin,        release, and ordered to perform 200 hours of
Daniel, and Frank Mei, Jr., responsible for the total   community service and pay $112,980 in restitution
amount of restitution. On the same date, defendant      to a financial institution. Nagy made false state-
Frank Mei, Jr., pled guilty in federal court to one     ments on single family mortgage loan applications.
count of money laundering and was sentenced to 78
                                                            Defendant David Lasko was sentenced in
months in prison and 36 months supervised release,
                                                        federal court on false statement charges to six
and was ordered to pay a $100 special assessment.
                                                        months home confinement and 36 months super-
Defendant Daniel Mei also pled guilty in federal
                                                        vised release, and ordered to pay $22,500 in restitu-
court to one count of money laundering and was
                                                        tion to HUD and a $100 special assessment. Lasko
sentenced to 63 months in prison and 36 months
                                                        admitted obtaining a $24,000 FHA insured Title I
supervised release, and was ordered to pay a $100
                                                        home improvement loan from a Title 1 home
special assessment. In addition, defendant Frank
                                                        improvement contractor. As part of the scheme, he
Mei, Sr., pled guilty in federal court to one count
                                                        received approximately $19,000 in cash from this
of misprision of a felony and was sentenced to 14
                                                        home improvement contractor even though no home
months in prison and 12 months supervised release,
                                                        improvement work was ever performed.
fined $6,000, and ordered to pay a $100 special
assessment.                                                Defendant Iva Hunter, president of Hunter
                                                        Acceptance Corporation, was sentenced in federal
   Defendant Thomas Polcyn, the president of
                                                        court to four months home confinement and 60
Western Lending, a commercial lender, was sen-

Chapter 4 — Investigations                                                                                 50
months supervised release, and ordered to pay a           Defendant Craig Garrett, a real estate investor,
$100 special assessment and $22,500 in restitution    was sentenced in federal court on one count of wire
to HUD. Hunter, who submitted false statements to     fraud. He was ordered to serve 18 months in prison
HUD, previously pled guilty to assisting home         and placed on 36 months supervised release.
improvement contractors in obtaining over $1          Defendant Leonard Dennis, III, a mortgage broker,
million in Title I home improvement loan proceeds.    was sentenced in federal court on one count of bank
                                                      fraud to 27 months in prison and 36 months super-
    Jim Douglas Kinser, a salesman for AA Quality
                                                      vised release.
Construction, a Title I contracting firm, was sen-
tenced in federal court to 12 months imprisonment         Defendants John Pounds and Jonathan McIn-
and 36 months supervised release, and ordered to      tosh were sentenced in federal court after being
pay $21,792 in restitution to Household Finance       convicted on charges of mail fraud. Pounds re-
and a $100 special assessment. Kinser previously      ceived 12 months in prison, 36 months supervised
pled guilty to submitting false statements via the    release, and a $100 special assessment. McIntosh
U.S. Postal Service to obtain single family mort-     received 15 months in prison, 36 months super-
gage loans and FHA insured Title I home improve-      vised release, and a $100 special assessment.
ment loans.
                                                          Defendant Garron Cross, a real estate investor,
    Defendant John McGrath, the owner of AA           was sentenced in federal court on mail fraud
Quality Construction Company, and defendant Alex      charges. Cross previously pled guilty to making
McGrath, the general manager, were sentenced in       false statements to commercial lenders on loan
federal court for money laundering. Both previously   applications for single family mortgages. He was
admitted to fraudulently obtaining over $1 million    sentenced to one year in prison and three years
in FHA insured Title I home improvement loan          supervised release, and ordered to pay a $100
proceeds. John McGrath was sentenced to 65            special assessment. The amount of restitution will
months in prison and 36 months supervised release,    be determined by the court at a later date.
and was ordered to pay a criminal fine of $20,000
                                                         Defendant Joe Bob Moncrief, a real estate
and a $100 special assessment. Alex McGrath was
                                                      appraiser, pled guilty in federal court to conspiracy
sentenced to 50 months in prison and 36 months
                                                      and was sentenced to 210 months in prison and 36
supervised release, and was ordered to pay a crimi-
                                                      months supervised release.
nal fine of $5,000 and a $100 special assessment.
                                                          Defendant Murray Cutbirth, owner of Eclipse
    Defendant Michael Verona, real estate agent
                                                      Funding, a mortgage brokerage, pled guilty in
and part owner of Beacon Realty, was sentenced in
                                                      federal court to one count of mail fraud and was
federal court on one count of mail fraud. Verona
                                                      sentenced to 27 months in prison and 60 months
admitted submitting false statements to lenders to
                                                      supervised release, and ordered to pay a $100
obtain single family loans and to recruiting
                                                      special assessment. Restitution will be determined
strawbuyers for additional fraudulent loan transac-
                                                      at a later date.
tions in concert with the Kevin Mei organization.
Verona was ordered to serve 30 months in prison           Defendant Philip Durban, former construction
and 36 months supervised release, fined $6,000,       manager with BCM Builders, an FHA Title I home
and required to pay a $100 special assessment.        improvement contractor, was sentenced in federal
                                                      court for a prior conviction of one count of mail
    Defendant Yolanda Roy, a former escrow officer
                                                      fraud. Durban previously admitted to submitting
for Citizen Title Company, was sentenced in federal
                                                      false statements to commercial lenders to obtain
court on one count of mail fraud and one count of
                                                      single family mortgage loans. He was ordered to
aiding and abetting for her role in fraudulently
                                                      serve 21 months in prison and 36 months super-
obtaining single family mortgage loans. Roy was
                                                      vised release, and ordered to pay a $100 special
ordered to serve 18 months in prison and 36
                                                      assessment.
months supervised release, was fined $2,500, and
was ordered to pay a $100 special assessment fee.

Chapter 4 — Investigations                                                                                 51
    Defendant Cecil Mann, III, was sentenced in         mail fraud and one count of conspiracy. Carlisle,
federal court after being convicted on false state-     doing business as Lyle Construction, Southern
ment charges. He previously pled guilty to submit-      Builders, Associated Remodelers, Associated
ting a construction completion certificate stating      Funding, Texas Remodelers Acceptance Corpora-
that he had not received anything of value over $25,    tion, and Champion Renovators, solicited
but later admitted to receiving over $12,000 in cash    homeowners to apply for HUD insured home im-
kickbacks from AA Quality Construction, an FHA          provement loans and then paid the homeowners
home improvement contractor. Due to Mann’s prior        cash kickbacks. Carlisle obtained over $400,000 in
cooperation with the government, his full repayment     FHA Title I home improvement loan proceeds. In
of the FHA insured loan prior to sentencing, and his    1996, he was convicted of making false statements
being 100 percent physically disabled due to an         to HUD.
accident, the sentencing judge ordered Mann to pay
a $1,000 fine and a $25 special assessment.                 In Corpus Christi, TX, defendant Alfonso V.
                                                        Villarreal was charged in an information filed in
    An information was filed in federal court
                                                        federal court with submitting false statements and
against defendant Lawrence Preston Meeusen, a
                                                        subsequently pled guilty. He was previously in-
real estate investor, charging him with one count of
                                                        dicted on one count of conspiracy and one count of
mail fraud. He subsequently pled guilty to one
                                                        making false statements to HUD relating to his
count of mail fraud and one count of aiding and
                                                        fraudulently obtaining a $20,900 FHA insured Title
abetting. Meeusen acted as a straw borrower for
                                                        I home improvement loan through BCM Builders of
Kevin Mei by submitting false statements to lenders
                                                        Houston.
on loan applications sent through the U.S. Postal
Service and obtained $934,950 in fraudulent loans           These actions are the result of an investigation
for single family homes in and around the Houston       which disclosed that Villarreal stated that he had
area.                                                   not received any inducement to obtain the HUD
                                                        insured loan when, in fact, he had received $7,750
    Defendant Eban Dennis, Sr., an investor in a
                                                        and the contractor had paid about $4,000 in bills
single family mortgage fraud flip scheme, pled
                                                        for him, for a total amount of $11,750. As part of
guilty in federal court to one count of mail fraud.
                                                        Villarreal’s plea agreement, the two counts of the
Dennis admitted that he provided false statements
                                                        original indictment will be dismissed upon sentenc-
on loan applications to lenders, including that he
                                                        ing. This case is a spin-off of “Operation Straw
intended to occupy the house as his principal
                                                        House.”
residence and that he provided a down payment
when in fact he did not.
                                                             Defendant Tommy Shelton, a Title I home
    Defendant David Rawls, a real estate investor,      improvement contractor in Beaumont, TX, was
pled guilty in federal court to one count of bank       indicted by a federal grand jury on one count of
fraud for submitting false statements to a bank.        conspiracy. The indictment charged that Shelton
Defendant James J. Long, president of Foresite          conspired with the owners of AA Quality Construc-
Mortgage Corporation, pled guilty to one count of       tion to fraudulently obtain an FHA insured Title I
mail fraud and one count of aiding and abetting.        home improvement loan in the amount of $20,600.
                                                        The indictment was the result of an investigation
    To date, 46 individuals have been charged with
                                                        which disclosed that Shelton received over $17,000
federal violations, 40 of whom have pled guilty.
                                                        in cash kickbacks from AA Quality Construction and
One person was convicted, one was acquitted, and
                                                        failed to repay his loan. This case is a spin-off of
one case was dismissed. The rest are pending trial.
                                                        “Operation Straw House.”
In addition, over $5 million in real estate and
approximately $58,000 in cash have been seized.
                                                            Defendants John D. Garrita and John C.
                                                        Bykowski, former employees of PinnFund USA,
   Also in Houston, TX, defendant John Charles
                                                        Inc., pled guilty in federal court in San Diego, CA.
Carlisle pled guilty in federal court to one count of
                                                        Garrita was the former chief financial officer, and

Chapter 4 — Investigations                                                                                 52
 Bykowski was the former administrative assistant at       support PinnFund’s direct endorsement application
 PinnFund.                                                 were personal funds, when in fact Grafton Partners
                                                           loaned the funds to PinnFund.
      In March 2002, defendant Michael J.
 Fanghella, the founder and director of PinnFund,              Garrita and Bykowski admitted to being co-
 pled guilty in federal court to conspiracy to commit      conspirators in the PinnFund fraud scheme. Garrita
 wire fraud and money laundering, tax evasion, and         prepared and disseminated false financial state-
 filing a false entry with HUD.                            ments, and participated in a scheme to deceive
                                                           PinnFund’s auditors regarding the company’s true
                                                           financial situation. Bykowski admitted to participat-
                                                           ing in the fraud when he made cash withdrawals
                                                           from PinnFund’s accounts for the personal benefit
                                                           of Garrita, Bykowski, and others, while concealing
                                                           the cash income from the IRS. Garrita pled guilty to
                                                           one count of conspiracy to commit wire fraud; one
                                                           count of conspiracy to commit money laundering,
                                                           three counts of tax evasion, and one count of filing
                                                           a false entry with HUD. Bykowski pled guilty to one
                                                           count of conspiracy to defraud the United States and
                                                           two counts of subscribing to a false personal income
                                                           tax return.
                                                               In March 2001, PinnFund was placed into a
                                                           court ordered receivership based on an enforcement
                                                           action by the Securities and Exchange Commission,
                                                           whose civil action against PinnFund was considered
                                                           one of the largest securities fraud cases in San
                                                           Diego County history.

                 San Diego Union-Tribune, March 23, 2002        In Norfolk, VA, defendant Christopher Probst,
                                                           a real estate speculator, pled guilty to a federal
     PinnFund USA was a sub-prime lender as well as
                                                           charge of conspiracy to commit wire fraud, mail
 a HUD approved direct endorsement lender. In a
                                                           fraud, and bank fraud, was sentenced to 34 months
 classic Ponzi scheme, Fanghella, with the assistance
                                                           imprisonment to be followed by three years super-
 of other PinnFund officers, concealed from inves-
                                                           vised release, and was ordered to pay $676,000 in
 tors the fact that PinnFund was losing money from
                                                           restitution, including $65,500 to HUD. Defendant
 the mortgage business, while at the same time,
                                                           Vanessa Probst, the speculator’s spouse, who played
 soliciting new investor money. From 1997 to 2000,
                                                           a lesser role in their scheme, was sentenced to five
 through various partnerships, Fanghella gave
                                                           years probation, including 120 days home deten-
 investors over $200 million that he had falsely
                                                           tion, and ordered to pay $103,000 in restitution
 represented as earnings or a return of capital. These
                                                           jointly with her spouse. Beginning in 1996, the
 payments were made from money contributed by
                                                           couple purchased run-down properties in the
 new investors. Fanghella’s illegal income was over
                                                           Norfolk area and, after performing cosmetic repairs
 $2.2 million for 1996, over $6 million for 1997,
                                                           to the properties, sold them to strawbuyers who
 and over $5.7 million for 1998. He also transferred
                                                           used stolen identities to obtain conventional and
 approximately $17.3 million from PinnFund to
                                                           HUD insured mortgages. Using a company that
 Barbados for the eventual benefit of his girlfriend,
                                                           existed only on paper, the speculators created
 Kelly Cook. Cook, also known as Kelly Jaye and
                                                           fictitious employment and income documents that
 Kelly Spagnola, was an adult film actress who did
                                                           enabled the strawbuyers to qualify for the mort
 not provide any service to PinnFund. Fanghella also
 falsely reported to HUD that the funds used to

Chapter 4 — Investigations                                                                                   53
gages. The speculators also falsified their own         loan proceeds and used the money for their personal
income and employment to purchase homes for             benefit and to advance the fraud scheme. As a result
themselves. Following his conviction, Probst            of the fraud, the defendants obtained more than $5
provided investigators with information about the       million from FNMA and more than $26 million from
decade-old homicide of a youth who had been listed      GNMA. The investigation was initiated based on
as missing, and helped local authorities locate the     GNMA having discovered irregularities during an
victim’s unmarked grave. Based on Probst’s infor-       audit of the builder. The GNMA losses are based on
mation, police in other states are investigating the    the cost to repurchase each fraudulent loan from
alleged killer for other unsolved homicides of          GNMA investors.
missing young men.
                                                            The defendants also fraudulently obtained a $5
                                                        million line of credit with a banking and trust
    Seven Charlotte, NC residents were indicted by
                                                        company by submitting straw mortgages and false
a federal grand jury on 66 counts alleging con-
                                                        documents. This investigation has resulted in the
spiracy, wire fraud, bank fraud, making false
                                                        seizure of assets worth $8 million.
statements and entries, and money laundering.
Defendants James and Macy McLean and Paul and
                                                            In Boise, ID, the following individuals were
Debbie Zimmerman owned and operated First
                                                        indicted and/or sentenced in federal court for their
Beneficial Mortgage, a mortgage brokerage corpo-
                                                        roles in multiple fraudulent loan origination
ration. Defendants Richiedean Guess and Alice and
                                                        schemes orchestrated by defendant Kevin Everson.
Willie Green worked for a local builder.
                                                        Everson, a real estate broker, property developer
     The scheme entails defrauding HUD and the          and loan officer, was indicted in November 2001 for
Government National Mortgage Association                his part in originating 59 fraudulent mortgages
(GNMA) whose mission is to support affordable           worth $5.3 million. Twenty-four of these loans
home ownership in America by providing an effi-         were FHA insured.
cient government secondary market vehicle to link
                                                            Defendant Michael Everson, former loan
the capital and federal housing markets. A bundle
                                                        officer and brother of Kevin Everson, was sen-
of loans, usually totaling $1 million, is packaged by
                                                        tenced to five years probation and 90 days home
a lender and sold to investors as a pool for which it
                                                        detention and fined $1,000. Michael Everson was
is required that an actual existing dwelling is con-
                                                        previously convicted for providing down payments
structed and that a homeowner is submitting
                                                        and falsifying numerous documents on behalf of
monthly mortgage payments. GNMA is the final
                                                        unqualified borrowers.
guarantor of the loan pools and mortgage-backed
securities and will fully reimburse the investors           Defendant Matthew Christensen, a former loan
should the need arise.                                  officer and Kevin Everson’s former business part-
                                                        ner, provided down payments and falsified numer-
    The defendants are alleged to have devised and
                                                        ous documents on behalf of unqualified borrowers.
executed an elaborate mortgage fraud scheme to
                                                        He was sentenced to three years probation and four
generate over 100 loans that were purported to be
                                                        months home detention, and fined $3,000.
FHA insured loans on nonexistent properties that
                                                        Christensen was the loan officer for nine of 59
were ultimately resold to investors in mortgage
                                                        fraudulent loan originations, 24 of which were FHA
pools backed by GNMA, as well as the Federal
                                                        insured.
National Mortgage Association (FNMA). GNMA was
required to make the investors whole when the               Defendant Eunice Maria Alexander, assistant
fraud was discovered. The defendants would recruit      and office secretary to Kevin Everson, was sen-
strawbuyers to secure fraudulent FHA insured home       tenced to six months detention at the Port of Hope
loans through a builder and these loans, in most        halfway house and six months home detention as
cases, were secured by properties that were vacant      part of a five-year probationary period, and fined
lots or for homes belonging to legitimate               $20,000. Alexander pled guilty to one count of
homeowners. The defendants allegedly received the       misprision of a felony. The plea resulted from an

Chapter 4 — Investigations                                                                                   54
agreement with the U.S. Attorney’s Office.              false documents to HUD in order to obtain FHA
Alexander provided down payments and falsified          mortgage insurance. Meeks was a loan processor
numerous documents on behalf of unqualified             who prepared mortgage origination documents
borrowers.                                              containing false W-2’s, income tax returns, and
                                                        verifications of employment and deposit.
    A federal grand jury indicted Jeanette Espinosa,
a former loan officer, on 10 counts of wire fraud for        These individuals were part of a conspiracy that
her part in the scheme to provide down payments         resulted in the origination of $20 million of mort-
and falsify numerous documents on behalf of             gage loans for properties that were purchased by
unqualified borrowers. A federal grand jury also        unqualified straw borrowers in flip transactions that
indicted Clay Preuit, a former supervisor at            artificially inflated the value of properties. The
Transnation Title and Escrow, on 21 counts of wire      scheme resulted in losses to both the FHA insurance
fraud, mail fraud, and forfeiture for his part in the   fund and the Federal National Mortgage Associa-
scheme to cause Transnation to approve numerous         tion.
fraudulent documents on behalf of unqualified
borrowers.                                                  In New York, NY, defendant Rudy Lavanture,
                                                        also known as Jean Lavanture, of Intrust Investment
    Defendant Claude Blevins, Jr., the single
                                                        Realty, was convicted in state superior court for
shareholder of the American Mortgage Exchange in
                                                        participating in a real estate securities fraud
Atlanta, GA, was sentenced in federal district court
                                                        scheme, as well as grand larceny in the second
to 21 months imprisonment, three years supervised
                                                        degree for stealing property worth more than
release, and 100 hours of community service, and
                                                        $50,000. Lavanture was sentenced to one to three
ordered to pay $2,248,745 in restitution and a $100
                                                        years for intentional real estate securities fraud, two
special assessment. Blevins previously pled guilty
                                                        to six years for grand larceny in the second degree,
to a one-count information charging him with
                                                        and a $500,000 confession of judgment that will be
conspiracy to commit bank fraud, wire fraud, using
                                                        passed on to the victims of the scam. Lavanture also
false Social Security numbers, and submitting false
                                                        received a permanent order of injunction barring
documentation to HUD in order to obtain FHA
                                                        him from activities dealing in securities.
mortgage insurance.
                                                             Lavanture operated an unlicensed real estate
    Defendant Deysha Simpson, a former assistant
                                                        enterprise as a speculator with an office located in
branch manager for Citizens Trust Bank, was
                                                        the World Trade Center. He duped investors from
sentenced to five years probation and six months
                                                        New York and New Jersey out of over $1 million by
home detention, and ordered to pay $58,400 in
                                                        first luring the investors with advertisements in the
restitution. Simpson previously pled guilty in
                                                        New York Times and other newspapers. He then
federal court to conspiracy to submit false docu-
                                                        posed as a broker who had a special relationship
ments that were used to obtain mortgage loans.
                                                        with “HUD.” This special relationship allegedly
Specifically, Simpson was charged with preparing
                                                        enabled him to obtain properties that could be
false verifications of deposit (VODs) that grossly
                                                        resold at a promised 30 to 70 percent return on
overstated the amount of funds that numerous
                                                        investment. Lavanture claimed that he could pur-
unqualified borrowers had on deposit with Citizens
                                                        chase HUD homes, make cosmetic repairs, and sell
Trust Bank. These VODs were then submitted to
                                                        the homes within two to three months at greatly
various mortgage companies and banks to obtain
                                                        inflated prices without investor risk. He told the
mortgages on properties that were part of a property
                                                        investors that the homes to be repaired already had
flipping scheme.
                                                        purchase agreements and approved mortgages.
    Defendant Renee Meeks, an employee of the           Several of these properties did not exist or were
American Mortgage Exchange, pled guilty in              beyond repair.
federal court to a one-count information charging
                                                             To further assure the investors about the secu-
her with conspiracy to commit bank and wire fraud,
                                                        rity of their investments, Lavanture filed a Certifi-
using false Social Security numbers, and submitting
                                                        cate of Assumed Name with the State of New York

Chapter 4 — Investigations                                                                                   55
to do business under the assumed name of “HUD.”            using a false Social Security number in the origina-
He then opened bank accounts using the assumed             tion of FHA loans. Werner and others sold homes to
name of HUD, deposited checks from investors that          illegal immigrants from Mexico. He helped provide
were made payable to HUD, and withdrew the funds           false Social Security numbers and fraudulent
for personal use. He continued to collect funds            income and employment information to the buyers
from investors, allegedly to be used for repairs to        to obtain FHA loans to purchase the properties. The
the properties, and told the investors that the clos-      investigation has uncovered 28 fraudulent FHA loans
ings were imminent.                                        valued at over $3.1 million. The loans in default
                                                           total $1.2 million.
    This investigation was initiated following
complaints received by the OIG, State of New York
                                                               A federal seizure warrant was served on a real
Office of the Attorney General, and the U.S.
                                                           estate investor in East St. Louis, IL. The warrant
Attorney’s Office, Southern District of New York.
                                                           ordered $970,000 in alleged laundered proceeds to
                                                           be turned over to federal officers, and resulted in
    In Jersey City, NJ, the following employees of
                                                           the seizure of $939,000 in cashiers’ checks and
County Mortgage Company, Inc., pled guilty in
                                                           $19,000 from a bank account. The investor alleg-
federal court to one count each of conspiracy to
                                                           edly generated the seized funds by selling dilapi-
commit mail fraud: defendant Robert Jordan,
                                                           dated properties at inflated values to unqualified
president, defendant Peter Tortorelli, vice president,
                                                           buyers in and around East St. Louis. The investor is
defendant Marlene Schill, a loan officer, defendant
                                                           a community leader and Section 8 landlord. Along
Philip Noce, attorney, and defendant Ralph Torres,
                                                           with using fraudulent means to sell properties he
real estate broker.
                                                           owned, evidence shows that he also allowed other
    The fraud was committed for the purpose of             real estate investors to use his business names as an
causing FHA to insure single family mortgages that         employer to qualify unemployed individuals for FHA
were based on false information. The scheme began          and conventional loans. The seizure warrant in part
with the purchase of residential homes in Jersey           resulted from a search warrant executed on the
City, which were then sold at falsely inflated prices.     investor’s business in July 2002. Two days after that
Non-qualified buyers were recruited to purchase            warrant was served, the investor transferred over
these homes, and fraudulent mortgage applications          $700,000 in certificates of deposit (CDs) to his
were completed, including false appraisals, employ-        daughters’ names. A week later, he cashed in the
ment documents, federal income tax returns,                CDs by obtaining several cashiers’ checks payable to
employment verifications, gift letters, attorney trust     his daughters and his spouse. At that time, he also
account gift certification forms, and credit explana-      was in possession of over $200,000 in additional
tion letters. Jordan and Tortorelli participated in this   cashiers’ checks. Most of the checks seized were
scheme to fraudulently originate and underwrite            retrieved from the back of a picture frame located in
loans for approximately 32 properties. The scheme          a refurbished automobile in the investor’s garage. A
resulted in FHA’s insuring over $ 4.7 million in           total of $958,139 was wired to a Postal Inspection
fraudulently created loans. To date, the approximate       Service account where it will be held in escrow.
loss to the FHA insurance fund is over $1.9 million.
                                                               Additionally, the investor was arrested on
This investigation also resulted in the seizure of a
                                                           federal charges for allegedly threatening to kill a
$29,000 luxury automobile that was owned by
                                                           newspaper reporter who has also been investigating
Torres and purchased with proceeds from the fraud
                                                           and writing stories related to the investor’s alleged
scheme.
                                                           property flipping. In a taped conversation, he made
                                                           several threats of death and serious bodily injury to
    Defendant Leonardo Werner, a real estate
                                                           the reporter an his family. He also allegedly threat-
salesman, doing business as General Realty, pled
                                                           ened that he had a loaded assault weapon with two
guilty in federal court in Las Vegas, NV, to count
                                                           clips taped together. In addition to his arrest,
one of a criminal information charging him with
                                                           Agents seized an assault weapon, an automatic
conspiracy to make false statements to HUD and
                                                           weapon, and three shotguns from the investor’s

Chapter 4 — Investigations                                                                                     56
 residence. On the same day, the individual was             Defendant Yigal Rappaport, a real estate agent,
 charged in federal court with tampering with a         pled guilty in federal court to submitting false
 witness.                                               statements to HUD in connection with fraudulent
                                                        FHA insured mortgages. An investigation disclosed
     In Atlanta, GA, defendant Sandra Jackson was       that Rappaport participated in the scheme with
 sentenced in federal court to 57 months in prison      Luessenhop.
 and three years supervised release, and ordered to
 pay over $1.1 million in restitution. Jackson pled         In Maricopa County, AZ, defendant Brenda
 guilty to charges of bank fraud, conspiracy to         Trejo, also known as Brenda Cervantes, was sen-
 commit mortgage and bank fraud, mail fraud, wire       tenced in county court to two years probation as a
 fraud, fraud against HUD, bankruptcy fraud, and        result of her participation in an extortion scheme
 fraudulent use of Social Security numbers. She         against two subjects of an OIG single family loan
 created false documents and companies and used         origination fraud investigation. The investigation
 them to qualify borrowers for FHA insured loans.       revealed that Trejo represented herself as a HUD
                                                        employee purportedly acting on behalf of the HUD
      In Calhoun, GA, five individuals were sen-        OIG Agent investigating the single family loan fraud
 tenced in federal court for conspiring to defraud      matter. Trejo solicited $5,000 from each of the two
 HUD. The defendants pled guilty and received the       subjects in return for an offer to make the federal
 following sentences: loan officers Becky Wilburn       investigative file “disappear.” She was interviewed
 and Mary McDonald were each sentenced to one           concerning this matter and acknowledged attempt-
 year confinement and three years probation; real       ing to extort money at the suggestion of a Santeria
 estate agent Beth Culbert was sentenced to 120 days    witchcraft practitioner with whom one of the
 home confinement and five years probation; builder     subjects had consulted. Trejo signed a confession
 Christopher Frix and real estate agent Larry Clark     acknowledging her actions. Trejo appeared in the
 were each sentenced to six months home confine-        Superior Court of Maricopa County and pled guilty
 ment and five years probation. The combined            to one class four felony count of extortion.
 restitution for the five defendants was $754,220.
                                                            In the same case, a federal grand jury indicted
     McDonald and Wilburn overlooked bad credit         four employees of American Financial Resources,
 histories and forged documents for mortgagors who      Inc.: Marco Vasquez, the former branch manager,
 did not qualify for FHA insured loans. They also       and loan officers Sandra Rodriguez, José Alvarado,
 conspired with Culbert, former owner of ReMax          and Lorena Soledad. Defendant Lonny Brooks, a
 Home and Land in Calhoun. Clark, a real estate         self-employed computer technician, was also
 agent at ReMax Homes, and Frix, a Gordon               indicted on one count of conspiracy to submit false
 County, GA builder, conspired to create false          statements to HUD. Defendant Stacy R. Ghazi, an
 documents and provide down payment assistance to       employee of Credit Reporters, in Tempe, AZ, was
 people seeking FHA insured mortgages.                  also included in the indictment.
                                                            Federal search warrants were executed at the
      Defendant Charles Luessenhop, the president of
                                                        mortgage company branch office, Brooks’ resi-
 Skyline Mortgage in McLean, VA, was sentenced in
                                                        dence, and Vasquez’ credit reporting office. The
 federal court to four months imprisonment and two
                                                        investigation disclosed that the loan officers, with
 years supervised release, and was ordered to pay
                                                        the assistance of Brooks and Vasquez, allegedly
 $223,800 in restitution. Luessenhop participated in
                                                        produced and submitted to HUD false W-2 forms,
 a scheme with a borrower to provide a false gift
                                                        pay stubs, and credit reports for the purchase of
 letter to the mortgage company to hide the source of
                                                        homes with FHA insured mortgages. The investiga-
 funds being used for the purchase of the property
                                                        tion has disclosed that 125 properties, with FHA
 and enable the unqualified borrower to qualify for
                                                        insured mortgages totaling $11.2 million, were
 an FHA insured mortgage. The mortgage subse-
                                                        purchased with falsified documents prepared by
 quently went into foreclosure, causing HUD to pay a
                                                        these co-conspirators. To date, HUD has sustained
 $245,000 claim from the mortgage insurance fund.

Chapter 4 — Investigations                                                                                57
approximately $66,000 in losses; further claims are    probation, and was ordered to pay $14,735 in
pending.                                               restitution.

    Defendants Alfred Rotiroti and Robert Coyle            In St. Louis, MO, defendant Tyrone Valentine
were sentenced in federal court following their        was sentenced in federal court to 28 months impris-
conviction at trial for falsifying inspections and     onment and 36 months supervised release, and
draw requests on Section 203(k) insured properties     ordered to pay a $300 special assessment. Valentine
in Cleveland, OH. Both received six months in          obtained four different Missouri drivers licenses
prison and two years probation, and were ordered       using false names and Social Security numbers. He
to pay a total of $43,000 in restitution.              used the identities to obtain credit cards, vehicles,
                                                       and vehicle loans, as well as Section 8 housing
    In Las Vegas, NV, defendant Virginia Ly was        assistance payments as a landlord using the name
sentenced to six months home detention and three       and identification “Roy Jones.” Valentine also sold
years supervised release, and ordered to pay           heroin and was arrested with over 50 ounces in his
$25,000 in restitution to HUD. Ly previously pled      possession. Valentine was previously charged in two
guilty in federal court to count one of a criminal     separate indictments with possession with intent to
information charging her with mail fraud. Ly           distribute heroin, credit card fraud, and vehicle
recruited a strawbuyer to obtain an FHA insured        forfeiture. The second indictment charged him with
loan by providing fraudulent income and employ-        five counts of misuse of a Social Security number
ment information to the strawbuyer. Ly subse-          and one count of submitting false statements to
quently obtained two HUD Title I loans and profited    HUD. The first indictment was superseded by the
from the loan proceeds. In these two transactions,     second.
she assumed the identities of other individuals to
                                                           In the same case, an individual was arrested
obtain first and second loans on the properties.
                                                       after she was indicted on multiple federal charges,
                                                       including submitting a false statement in order to
    In Buffalo, NY, defendant William Roland
                                                       obtain an FHA insured mortgage loan. She used a
Hayes, an Erie County youth services officer, was
                                                       fraudulent Social Security number and false wage
sentenced in federal court after previously pleading
                                                       and bank account information. The FHA insured
guilty to one count of making a false statement to
                                                       loan has foreclosed. The individual was also
HUD. He was sentenced to one year of probation
                                                       charged with false use of a Social Security number
and ordered to pay $7,000 in restitution to HUD.
                                                       and with three counts of bank fraud.
Hayes falsely certified that he would use a home
purchased under the Officer Next Door Program as
                                                            In Denver, CO, defendant Michael Slavens,
his primary residence for a period of three years
                                                       also known as Lee Abihai and Anthony Makaha,
from the date of closing, as required. Instead, he
                                                       pled guilty in federal court to count 13 of a third
sold the property to his brother, a New York State
                                                       superseding indictment, which charges him with
corrections officer, who rented the residence to a
                                                       committing, and aiding and abetting in the commis-
Section 8 tenant.
                                                       sion of mail fraud. He was sentenced to four
                                                       months home detention and five years probation,
    In Evansville, IN, defendant Timothy Wathen,
                                                       and ordered to pay a $100 special assessment fee.
a former underwriter for First Indiana Bank, pled
                                                       Slavens was previously charged in an indictment
guilty and was sentenced in federal court for his
                                                       with one count of conspiracy to commit offenses,
role in a fraud scheme whereby down payment
                                                       three counts of mail fraud, and two counts of
funds provided by a real estate developer were
                                                       fraudulent use of a Social Security number for his
falsely reported as gifts made by purchasers’
                                                       part in a property flipping scheme in Denver.
relatives. The scheme resulted in numerous defaults
                                                       Slavens was strawbuyer on a number of the proper-
on FHA insured mortgage loans. Wathen was sen-
                                                       ties.
tenced to four months home detention and two years



Chapter 4 — Investigations                                                                                   58
    Defendant Jason Lacerte, owner of Lacerte                  Additionally, defendant Jesse Gater pled guilty
Realty, LLC, in Manchester, NH, was sentenced             in federal court to one count of committing fraud
federal court to one year probation and 100 hours of      and swindles. As an employee of the Postal Credit
community service, and fined $10,000. Lacerte             Union, Gater used his position to set up false
previously pled guilty to count one of a two-count        accounts and submit false verifications to mortgage
indictment charging him with falsely claiming he          companies. He committed the fraud to aid HyRizing
was purchasing a HUD real estate owned property as        Investments in the flipping scheme. Along with
an owner/occupant, when in fact he flipped the            setting up false accounts, Gater also obtained two
property for a $21,000 profit on the day of closing.      $5,000 loans through the Postal Credit Union using
                                                          false identifications. Gater was sentenced to six
    In St. Louis, MO, defendant Clyde Pate pled           months imprisonment and three years probation,
guilty in federal court to a two-count information        and ordered to pay $10,000 in restitution.
charging him with misuse of a Social Security
number and filing false bankruptcy petitions. Pate             Defendant Edward Maier, Jr., a Philadelphia,
pled guilty to two different schemes. First, he           PA speculator, pled guilty in federal court to mak-
admitted to purchasing four properties using differ-      ing false statements to enable first-time, low-income
ent false identifications and setting or causing the      mortgagors to purchase FHA insured homes for
homes to be set on fire. He then applied for and          which they ordinarily would not have qualified. An
received $170,126 in insurance proceeds. Second,          investigation found that Maier purchased and then
he admitted forging and recording false deeds at the      resold at least 64 homes over a three-year period by
St. Louis Recorder of Deeds Office and selling            providing prospective purchasers with false gift
properties without the true owners’ knowledge or          letters and employment documentation. To date, at
consent. Along with recording the false deeds, Pate       least seven of the mortgages have foreclosed,
falsely completed and filed bankruptcy petitions in       resulting in $344,000 in claims to the FHA mortgage
the name of the true owners in order to keep the          insurance fund. Maier has already agreed to repay
City from selling the properties for delinquent           the lending institution almost $1.6 million in profits
taxes. Pate admitted causing a $956,210 loss as a         he earned from the sale of homes with fraudulent
result of the second scheme. The total loss resulting     mortgages.
from both schemes is over $1.1 million.
                                                               Defendant Kimberly MacDonald, a loan officer
     In a separate case also in St. Louis, MO,            at Accent Mortgage Services, Inc., in Atlanta, GA,
defendants Preston Randall and Latina Randall pled        pled guilty in federal court to conspiracy.
guilty in federal court to conspiracy to commit mail      MacDonald was previously charged with mail fraud
fraud. Preston Randall also signed a Stipulation of       and making false statements to HUD. She was
Facts admitting to using his property investment          responsible for originating over $2 million in
company, HyRizing Investments, in a conspiracy to         fraudulent FHA insured loans, representing a poten-
illegally flip properties for an inflated value, obtain   tial loss to HUD of approximately $500,000. Defen-
loans using false identities, steal identities, and use   dant Rosemarie Thomas, a real estate agent and co-
false income documentation. Randall stipulated to         conspirator, was charged with tampering with a
causing $650,000 in losses due to his illegal prop-       witness and pled guilty to one count of conspiracy
erty flipping schemes. Latina Randall, who also           to defraud the United States. Thomas created false
worked for HyRizing Investments, used the identities      documents concerning the loans originated by
of others to obtain mortgages. Among the victims          MacDonald and gave the documents to a witness to
was a man whose identity was stolen by the                provide to the OIG.
Randalls, who used the identity to sell four proper-
ties and to obtain four mortgages. Latina Randall             In Reading, PA, defendant Shawn Huntzinger,
was sentenced to 24 months probation and ordered          a loan officer with Avstar Mortgage Corporation,
to pay a $100 special assessment.                         and defendant Philip Horvath, an underwriting
                                                          chief at Avstar and who is a former HUD employee,

Chapter 4 — Investigations                                                                                    59
pled guilty in federal court to participating in a       or to obtain a portion of the mortgage proceeds.
scheme to generate fraudulent FHA insured mort-          The three used Spanish-speaking strawbuyers, who
gages valued at over $2 million. The third defendant     could read or speak very little or no English, to
in this case, property speculator Twila Nazario, is      obtain the properties. After the closings, the
presently returning from Spain to answer to the          strawbuyers did not occupy the properties. In some
charges. An investigation found that the three           cases, the defendants rented out the properties. The
defendants formed several companies which pur-           Hispanic victims were under the impression that the
chased at least 35 homes in and around the Reading       documents they signed were being used to improve
area and resold them at inflated prices to unsuspect-    their credit or to assist others in purchasing homes.
ing first-time homebuyers, many of whom are of           The strawbuyers were unaware they were signing
Hispanic origin. The defendants provided the             documents to buy and sell properties to new
buyers with false documents, including verifications     strawbuyers.
of employment, credit histories, and gift letters to
                                                             After the defendants obtained control of the
enable them to qualify for the mortgages. Some of
                                                         properties, they failed to make the mortgage pay-
the buyers were so naďve that they thought they
                                                         ments and the lending banks foreclosed. Some of
were renting rather than buying. Many were
                                                         these loans were FHA insured and HUD ultimately
saddled with monthly mortgage payments far above
                                                         suffered the loss along with those banks holding the
their true means, resulting in numerous foreclo-
                                                         conventional loans. In an effort to delay foreclosure
sures. As a result of this investigation, HUD sued
                                                         on one property, Abrego forged the signature of and
Avstar and won a $192,000 judgment.
                                                         impersonated a buyer/borrower in the filing of a
                                                         Chapter 13 bankruptcy proceeding. Many of the
    In Tampa, FL, defendant Michael Mittler, a
                                                         Spanish-speaking victims knew nothing of the
former employee of the Great Stone Mortgage
                                                         properties purchased in their names until their
Company, pled guilty in federal court to a criminal
                                                         credit was ruined by the foreclosures.
information charging him with obstruction of a
proceeding before a Department of the United
                                                             In Indianapolis, IN, defendant Linda Stone
States. During an interview, Mittler made a false
                                                         pled guilty in federal court to one count of con-
statement to an OIG Special Agent. The Agent was
                                                         spiracy to defraud HUD’s Single Family Mortgage
attempting to interview Mittler as part of an investi-
                                                         Insurance Premium (MIP) Refund Program. Defen-
gation of alleged fraud committed by the owners
                                                         dant George Herman Ruth pled guilty in federal
and principals of Great Stone Mortgage Company
                                                         court to one count of conspiracy to commit mail
against FHA, GNMA, and several financial institu-
                                                         fraud and make false claims to the government.
tions. Great Stone issued over $1.5 billion in GNMA
                                                         Stone and Ruth forged and submitted fraudulent MIP
certificates, with over $150 million resulting from
                                                         claim forms, forged U.S. Treasury checks received
the conspiracy.
                                                         as a result of the false claims, and diverted the
                                                         money obtained from those checks, amounting to
    In Seattle, WA, defendants Mario Cacho
                                                         more than $30,000, for their personal benefit.
Figueroa and Leslie Charlene Reisig were convicted
                                                         Ruth, who was incarcerated at the time of these
on 21 counts of conspiracy, mail fraud, wire fraud,
                                                         offenses, was able to make it appear that by using
and bank fraud. The convictions followed a two-
                                                         aliases, he was due MIP refunds from HUD. This
week jury trial in federal court involving hundreds
                                                         investigation averted over $100,000 in attempted
of documents and approximately 50 witnesses —
                                                         fraudulent MIP claims.
most of whom spoke only Spanish. A third co-
defendant, Jaime Garcia Abrego, pled guilty to one
                                                             In Florissant, MO, defendant Yolanda Smith
count of wire fraud and one count of bankruptcy
                                                         pled guilty in federal court to making a false state-
fraud prior to the September trial.
                                                         ment on an FHA insured loan application. She also
    The investigation focused on 24 single family        pled guilty to bank fraud charges in an unrelated
homes for which the defendants arranged sham             matter. Smith’s loan application contained a fraudu-
sales to obtain the homes for their own benefit and/     lent Social Security number, false employment and

Chapter 4 — Investigations                                                                                   60
income information, and fraudulent bank account          later seized at the subject’s residence. Further
information. The FHA loan has gone into foreclo-         investigation disclosed that Hutchison used the
sure, and HUD has suffered a loss of over $35,000.       facsimile machine at the Hampden County Training
                                                         & Employment Consortium, a federally funded (to
    Defendant Melvin Rice, Jr., was found guilty in      include HUD funds) nonprofit organization affiliated
federal court on two counts of making false state-       with the City of Springfield, to file his insurance
ments. Rice, a Memphis, TN Police Officer since          claim. He then allegedly used the Postal Service to
1993, participated in the Officer Next Door Pro-         further the scheme.
gram, agreeing to live in a discounted HUD property
for three years after the purchase. In fact, Rice            In Cleveland, OH, Otis Bevel, et al, were
rented the property and falsified certifications as to   charged in a 100-count indictment in federal court,
his residency. When the renters refused to lie for       five of whom had a specific nexus to HUD Single
Rice, he had them evicted. Testimony was provided        Family Programs. Specifically, three Section 8
by HUD OIG and HUD program officials during the          landlords, one FHA mortgagor, and one Section 8
course of the one-day trial. The Director of the REO     tenant, who simultaneously received Section 8
Division at the Atlanta Homeownership Center was         assistance on behalf of their own residences, were
designated as the expert witness in the prosecution.     charged with conspiracy, mail fraud, bank fraud,
Though 78 Officers in Memphis participated in the        money laundering, misuse of Social Security
program, Rice was the first to be prosecuted of the      numbers, wire fraud, and false statements in con-
few believed to have defrauded the government            nection with their false loan applications for single
through this program in the Memphis area.                family houses in the Cleveland area. Fraudulent
                                                         statements by these individuals included false
    In Atlanta, GA, defendants Leonard and Lynda         names, Social Security numbers, and employment
Bohannon were indicted by a federal grand jury for       information, as well as fabricated down payments.
obtaining mortgages and other loans through the
use of Social Security numbers that were not                 Defendant Donald Tarner, a former HUD real
assigned to them. The couple allegedly purchased         estate asset manager (REAM), pled guilty in federal
two homes with mortgages totaling over $300,000,         court in Harrisburg, PA, to making false state-
four vehicles with loans totaling over $100,000, and     ments to evade outstanding requirements and to
jewelry. They also obtained a HUD insured Title I        obtain at least three HUD owned homes to which he
home improvement loan in the amount of $5,500            would not ordinarily be entitled. An investigation
and a student loan, all by using Social Security         found that Tarner used an employee to purchase the
numbers that were assigned to others. They did this      homes for him and supplied the employee with
in order to conceal their true credit situation. The     whatever funds were required to complete the sales.
defendants have defaulted on the Title I loan, and       He then used them as rental properties. HUD used
HUD has paid a $5,500 claim to the lender. Other         REAMs to manage and market properties prior to the
lenders have initiated foreclosure and repossession      awarding of nationwide contracts several years ago.
procedures.

    Defendant Michael Hutchison was indicted by a
federal grand jury in Springfield, MA, on one
count of wire fraud and one count of mail fraud.         HUD Public and Indian
Banking and real estate records found during a
search of Hutchison’s residence revealed a land
                                                         Housing Programs
flipping scheme and indications of public corrup-            HUD provides grants and subsidies to approxi-
tion. The evidence revealed that he had filed            mately 4,200 housing authorities (HAs) nationwide.
fraudulent insurance claims on property and per-         About 3,200 HAs manage public housing units and
sonal items in excess of $4,000 that were reported       another 1,000 HAs, with no public housing, manage
as stolen. These reportedly “stolen” items were          units under Section 8 Programs. (Many HAs admin-

Chapter 4 — Investigations                                                                                       61
ister both Public Housing and Section 8 Programs.)     who previously served as HUD Assistant Secretary
HUD also provides assistance directly to HAs’          for Administration and who held a high level
resident organizations to encourage increased          position at the Department of Defense, was previ-
resident management of public housing develop-         ously charged with theft of public funds, mail
ments and to promote the formation and develop-        fraud, and making false statements on loan docu-
ment of resident management entities and resident      ments. Specifically, Freeman diverted monies from
skills. Programs administered by HAs are designed      a Housing Authority fund for her own benefit,
to enable low-income families, the elderly, and        including paying off a $50,000 personal loan and
persons with disabilities to obtain and reside in      making $62,000 in mortgage payments on her
housing that is safe, decent, sanitary, and in good    rental property in Virginia by using forged authori-
repair.                                                zation letters from the board of commissioners.
    During this reporting period, investigations
                                                           Also in Cleveland, OH, defendant Fernando
discovered instances of fraud, false statements,
                                                       Newcomb pled guilty in federal court to felony
conspiracy, theft, and bribery involving Public and
                                                       possession of a firearm. The plea resulted from the
Indian Housing Programs.
                                                       controlled delivery of counterfeit Cuyahoga Metro-
                                                       politan Housing Authority checks and the subse-
     Defendant Bertha Gilkey, a nationally known
                                                       quent execution of a search warrant for evidence of
public housing activist in St. Louis, MO, was
                                                       the fraudulent checks at Newcomb’s residence.
sentenced in federal court to five years probation
                                                       During the search, a revolver, a semi-automatic
and ordered to pay $19,019 in money she em-
                                                       handgun, and an assault rifle were seized. Future
bezzled from HUD. Gilkey admitted that when she
                                                       charges relative to Newcomb’s involvement with the
was the unsalaried head of the Cochran Gardens
                                                       counterfeit checks are on hold pending the final
Tenant Management Corporation Board, she used
                                                       completion of that aspect of the case.
$888 in HUD money to pay for airline tickets.
Instead of flying from St. Louis to Washington in
                                                           In Newark, NJ, defendant Kehinde Ayinde, an
November 1996 to attend a HUD conference for the
                                                       employee of P&C Printing and Convenience Center
tenants’ group, Gilkey used the tickets to fly to
                                                       and Power Electronics, was sentenced in federal
Philadelphia for her company, Urban Women, Inc.
                                                       court. This sentencing was a result of Ayinde’s
Gilkey also admitted that on multiple occasions she
                                                       conviction for one count each of conspiracy to
had an official from Urban Women ask the Cochran
                                                       commit mail fraud, mail fraud in connection with
Gardens tenant group to buy her airline tickets.
                                                       federally subsidized housing, mail fraud in connec-
Sometimes she exchanged these tickets to go to
                                                       tion with credit cards, and identity theft. Ayinde
cities she needed to visit for Urban Women. Other
                                                       worked at a storefront business specializing in
times she put the expenses on the Cochran Gardens
                                                       producing fraudulent documents. He was the main
credit card. In total, the Cochran Gardens tenant
                                                       subject of an almost four-year investigation con-
group spent $28,586 for Urban Women travel
                                                       ducted by members of the West African Task Force
expenses. Gilkey repaid $2,710 after a HUD audit,
                                                       (WATF). Citing Ayinde’s role in the “pervasive fraud
and $6,857 was deducted from her claims of
                                                       operation,” the judge sentenced Ayinde to 37
expenses. As part of her plea, Gilkey and Urban
                                                       months incarceration in federal prison (including
Women were debarred from HUD contracts for one
                                                       time served beginning in June of 2001), and three
year.
                                                       years probation following his release. Ayinde was
                                                       also ordered to pay $601,340 in restitution,
    Defendant Claire Freeman, the former director
                                                       $570,124 of which was payable to HUD ($465,880
of the Cuyahoga Metropolitan Housing Authority in
                                                       to the Section 8 Program, and $104,244 to the FHA
Cleveland, OH, was sentenced in federal court to
                                                       Program), and was also ordered to pay a $700
18 months incarceration and two years probation. A
                                                       special assessment.
fine and restitution were waived based on an earlier
civil court’s order for Freeman to pay back more
than $450,000 to the Housing Authority. Freeman,

Chapter 4 — Investigations                                                                                    62
    Defendant Rosebud Agyei, one of over 20                   Defendant Diane Galloway, the manager of
individuals arrested, pled guilty in federal court to a   Branson, MO Manor Apartments, was charged by
one-count theft of government funds involving the         the State of Missouri with one count of financial
Section 8 Lower-Income Rental Assistance Pro-             exploitation of an elderly person and one count of
gram. Agyei was sentenced to two years of proba-          theft by deceit for allegedly failing to disclose
tion and ordered to make restitution to HUD in the        financial assets owned by a resident receiving
amount of $13,936.                                        subsidized housing. Galloway allegedly accepted at
                                                          least $167,443 from an elderly resident. To retain
    In the same case, defendant Frank Quansah was
                                                          access to the resident, she falsified certifications by
sentenced in federal court to five years probation,
                                                          underreporting the resident’s income and assets.
ordered to make restitution to HUD in the amount of
                                                          The total loss to HUD is $6,012.
$23,380, and pay a special assessment of $100.
Additionally, defendant Ronke Forson was sen-
                                                              In Lakewood, NJ, defendant Dallas Jerome
tenced to six months home detention, five years
                                                          McGirt, also known as John Parsley, was sentenced
probation, and ordered to make restitution to HUD
                                                          in federal court. McGirt was sentenced to one year
in the amount of $47,146. Quansah and Forson
                                                          and one day confinement, ordered to pay a $100
were sentenced after each pled guilty to one felony
                                                          court assessment and restitution of $63,999. This
count of theft of U.S. Government funds.
                                                          restitution was to be paid to the Housing Authority
    Defendants Evelyn Williams and Monica Ross            for the City of Lakewood, in the amount of
pled guilty in federal court to conspiracy to solicit     $27,500, with the remaining $34,499 being paid to
and accept bribes by a public official. Williams          Sovereign Bank. The sentencing was the result of a
collaborated with Ross, a former St. Louis, MO            conviction based on a scheme wherein McGrit
Housing Authority employee, to move Section 8             created his alias and cashed a $27,500 check that
applicants up on the waiting list in exchange for         was made to resemble those used by the Housing
monetary bribes. Applicants were placed on the            Authority.
waiting list despite the fact that the Housing Author-
ity was not accepting applications at the time. The           In Cleveland, OH, two individuals were ar-
applicants, who paid cash and whose applications          rested in connection with attempting to pass coun-
were backdated, received HUD Section 8 vouchers           terfeit Cuyahoga Metropolitan Housing Authority
authorizing them to receive as much as $899 per           (CMHA) payroll checks. Further, charges of burglary
month in rental subsidies ahead of those legiti-          are being considering against two of the three who,
mately on the waiting list. The applicants paid $250      in an attempt to evade capture, fled their vehicle
to $350 in bribes.                                        and ran into an occupied home. Cases are being
                                                          presented both federally and locally, with an esti-
     Ross’ duties included entering preliminary
                                                          mated loss to date in excess of $150,000. The OIG
registration forms for the Section 8 Program into a
                                                          involvement in this case began in October 2000
computer system, maintaining the Section 8 waiting
                                                          with a controlled delivery of 2,000 CMHA payroll
list, and assisting applicants in obtaining their
                                                          checks and the subsequent execution of a federal
Section 8 vouchers once they were chosen from the
                                                          search warrant. The search warrant produced the
waiting list. Beginning in the spring of 2001, Ross
                                                          checks, two handguns, and an assault rifle, plus
agreed that, in return for money from potential
                                                          ammunition. This investigation is a spin-off of
Section 8 applicants, she would backdate prelimi-
                                                          another counterfeit case.
nary registration forms submitted by applicants and
place them near the top of the waiting list. She
                                                               In Philadelphia, PA, defendants Arthur Quinn
would place applicants on the waiting list despite
                                                          and Yvette Quinn, both of whom posed as Section 8
the fact that the Housing Authority was not accept-
                                                          landlords, were arrested and charged by the State of
ing applications at the time. The applicants who
                                                          Pennsylvania with theft of a home from a senior
paid cash, and whose applications were backdated,
                                                          citizen and other related theft charges. An investiga-
received HUD Section 8 vouchers ahead of those
                                                          tion disclosed that the defendants expressed interest
legitimately on the waiting list.

Chapter 4 — Investigations                                                                                      63
 in purchasing the home while engaged in home                    proof vest, multiple rounds of ammunition, drug
 improvement repairs for the absentee owner. When                paraphernalia, and $54,500 in cash. One handgun
 the owner refused to sell, the defendants allegedly             was listed as stolen. He was charged federally with
 prepared and had notarized and filed a false quit               possession of a short barrel shotgun. The indi-
 claim deed transferring the property to them. They              vidual, who was also a Section 8 landlord, was
 subsequently rented the property to a family mem-               suspended from the Section 8 Program for housing
 ber. They received about $7,000 in housing assis-               code violations on two of the four properties.
 tance payments to which they were not entitled.
                                                                     In Eugene, OR, defendant Larry Johnson pled
     As a result of the investigation, the District
                                                                 guilty in federal court to a total of 14 counts regard-
 Attorney charged the couple, but the charges were
                                                                 ing mail fraud, making false statements, theft of
 dropped subsequent to the death of the property
                                                                 public money, possession with intent to distribute
 owner. The couple repaid the estate of the deceased
                                                                 marijuana, and possession of fraudulent or stolen
 owner $7,000, or the amount that they received
                                                                 identification documents. Seized pursuant to the
 under Section 8 that should have been paid to the
                                                                 federal search warrant were false identity docu-
 actual owner.
                                                                 ments, approximately 162 marijuana plants and
                                                                 approximately 50 firearms, including a sawed-off
     Defendant Dominic DeSalvo, owner of Doctor
                                                                 shotgun. Also seized was a document of Last Will
 Backflow Plumbing, pled guilty in federal court to
                                                                 and Testament belonging to Larry Johnson that
 making a false document and knowing the same to
                                                                 revealed that Johnson had been using various aliases
 contain false and fraudulent information. This
                                                                 including Mike Wilson. Found in the residence
 charge resulted from a false bid submitted by
                                                                 were business cards showing a business named
 DeSalvo on behalf of his plumbing business for a
                                                                 “Wil-Ber Enterprises” with principals that included
 Buffalo, NY Municipal Housing Authority project.
                                                                 Johnson. Johnson, as a tenant, received HUD
                                                                 funded rental assistance totaling $21,820 for the 35
     In Cleveland, OH, a state search warrant was
                                                                 months between April 1998 and March 2001.
 executed at four properties owned by the same
                                                                 Johnson claimed to be renting his residence to Mike
 individual. The search warrant at one address, an
                                                                 Wilson and Kevin Berry, doing business as “Wil-
 FHA insured single family property, yielded five
                                                                 Ber.”
 handguns and one shotgun, a police badge, a bullet



 Fraud in Public Housing
                                                          RESTITUTION & POTENTIAL HUD LOSSES
 Administration                                             April 1, 2002 through September 30, 2002

                                                                      Indicted -
    The following section highlights other                                                       Months in    Months
                                                   Location           Potential    Restitution
                                                                                                  Prison     Probation
frauds committed by individuals involved in                           HUD Loss
managing Section 8 Programs. The table        Yonkers, NY              $300,000
                                              La Joya, TX              $194,814
summarizes possible losses in cases where
                                              Rochester, NY             $90,000       $90,000                   60
indictments have occurred or sentences have   Eutaw, AL                 $32,000
been levied. Following the table is a brief   Westchester, NY           $30,000       $25,840       6           36
synopsis providing further information        Honolulu, HI                            $23,800                   60
regarding each listed case.                   San Antonio, TX                          $6,658                   60
                                              Newburgh, NY             $108,000                     5           36
                                              Indianapolis, IN                                      6
                                              Arkadelphia, AR           $22,731
                                              Decatur, AL                $5,000
                                              Texarkana, TX              $3,500
                                              Vidor, TX                    $500



Chapter 4 — Investigations                                                                                               64
    Defendant Edward Zamborski, the former site       Witherspoon allegedly embezzled the funds from
supervisor for the Yonkers, NY Municipal Housing      tenants who paid their rent in cash. He used the
Authority, was indicted in federal court on one       money to gamble at a local racetrack and for other
count of theft of government funds. Zamborski         personal expenses. An audit by the Authority’s fee
arranged for Norman Scotland to exclusively           accountant disclosed the discrepancy between the
receive general contracting work at Authority sites   amounts on the receipts issued to tenants and the
in exchange for free work performed by Scotland at    amounts of cash deposited into the Authority’s bank
private sites owned by Zamborski and his son. The     account.
potential loss to HUD totals $300,000.
                                                           Defendant Evelina Jones, an eligibility specialist
    Defendant Ovidio Ramirez, former Section 8        with the Westchester County Department of Social
director at the Housing Authority of the City of La   Services, Westchester, NY, was convicted in
Joya, TX, and defendant José Reynaldo Trevino,        federal court for defrauding HUD’s Section 8 Low-
former executive director, each pled guilty in        Income Rental Assistance Program. Jones was
federal court to one count of conspiracy and one      terminated from employment pursuant to the
count of conspiracy to embezzle. An investigation     testimony of an OIG Special Agent at a civil service
found that from January 1997 through December         hearing. Jones was arrested by OIG Special Agents
1998, Ramirez and Trevino misappropriated             at her place of employment on charges that she
$194,814 from the Authority’s Section 8 funds. The    deliberately concealed her employment and true
two defendants duplicated Section 8 landlord checks   household income from 1989 through 1999 in order
and used the proceeds for their personal benefit.     to obtain nearly $30,000 in HUD Section 8 rental
                                                      assistance payments for which she was ineligible.
    In Rochester, NY, defendant Mark Fulmer,          She also falsely reported that she was unemployed
who previously pled guilty to one count of theft or   in 1999 and that she was employed as a part-time
bribery concerning programs receiving federal         salesperson from 1990 through 1998. As a
funds, was sentenced in federal court.                Westchester County civil servant responsible for
                                                      determining and approving the eligibility of persons
    Between 1993 and 1999 Fulmer, a former
                                                      participating on public assistance programs, her
housing rehabilitation specialist for the Rochester
                                                      annual income is over $46,000. Jones was sen-
Housing Authority, solicited and received kickbacks
                                                      tenced in federal court to six months home deten-
from Authority contractors. Fulmer used several
                                                      tion, three years probation, ordered to pay HUD
methods to encourage contractors to provide kick-
                                                      $25,840 in restitution, to pay a $100 special assess-
backs to him. He either increased the contract
                                                      ment to the court, and to forfeit a $5,400 savings
amount, which allowed the contractors to complete
                                                      account to HUD as part of her restitution payment
the work at full salary with an additional amount
                                                      plan.
remaining for Fulmer, or he would give them a job
that required little or no work to be performed.
                                                          In Honolulu, HI, defendant Faith Tanner, the
    Fulmer was sentenced to five years supervised     former president of the Waimanalo Housing Resi-
probation, 200 hours of community service, six        dent Association (WHRA), was sentenced in federal
months home confinement, ordered to pay $90,000       court to five years probation and ordered to pay
in restitution to HUD and a $100 special assessment   $23,800 in restitution and a $100 special assessment
to the Court. Fulmer faces sentencing for income      fee. In addition, Tanner was ordered to perform 200
tax evasion.                                          hours of community service during the first year of
                                                      probation and 100 hours each remaining year of the
    Defendant Terrence Lee Witherspoon, the           probation, for a total of 600 hours. Tanner pled
former executive director of the Eutaw, AL Hous-      guilty to embezzling funds from a Tenant Opportu-
ing Authority, was indicted by a federal grand jury   nity Program (TOP) grant received from HUD in
on one count of embezzling approximately $32,000      1995. The TOP grant was awarded to the WHRA to
of Authority funds. An investigation disclosed that   promote and encourage tenant opportunities in

Chapter 4 — Investigations                                                                                 65
public housing. The ultimate goal was to promote           Defendant Anthony Jenkins, the Arkadelphia,
self-help initiatives that would enable residents to   AR Housing Authority Section 8 manager, was
create a positive living environment and increase      arrested and charged by the state with one count of
resident satisfaction in their public housing commu-   theft of property and one count of forgery in the
nities. Tanner admitted using the TOP grant money      second degree. Jenkins allegedly stole $5,700 in
for her own personal benefit.                          Authority grant and Section 8 funds between
                                                       December 2001 and March 2002. In his position
    Defendant Juanita S. Sandlsaz, a former San        with the Authority, Jenkins had access to Authority
Antonio, TX Housing Authority management aide,         bank accounts and wrote checks to himself by
was sentenced in Bexar County District Court to        forging the executive director’s signature.
five years probation, fined $1,000, and ordered to
pay $6,658 in restitution to the Authority for             A federal grand jury returned an indictment
misapplication of fiduciary property. The sentencing   against Brenda Ford, an employee of the Regional
followed an investigation which disclosed that         Housing Authority in Decatur, AL, for embezzling
Sandlsaz embezzled $6,658 from the residents of        federal funds and submitting false information to a
the Villa Veramendi Apartments by accepting rental     federal agency. The indictment charged the em-
deposits from tenants and failing to turn over the     ployee with two counts of knowingly converting to
funds to the public housing complex.                   her own use over $5,000 of funds received by the
                                                       Authority, and two counts of submitting false
    Two Newburgh, NY Housing Authority em-             information to HUD regarding salary expenditures of
ployees were sentenced in federal court. Defendant     the Authority’s maintenance department.
Dwight Parker, a former maintenance supervisor,
was ordered to serve five months incarceration and        Defendant Melinda Washington, a Texarkana,
three years probation. Defendant Rene Gayle Parker     TX Housing Authority clerk, along with her spouse
was sentenced to three years probation. Dwight and     Lester Washington, also known as Lester Jones,
Gayle pled guilty to conspiring to fraudulently        were arrested on federal warrants. In February
convert to their own use in excess of $100,000.        2001, they were each indicted in federal court on
Dwight created fake work orders for which Gayle        one count of conspiracy and four counts of em-
would type false invoices and process them for         bezzlement of Authority funds. Lester Washington
payment under the name of an accomplice posing as      was also charged with four counts of identity fraud
an independent contractor. Gayle gave the checks to    and four counts of misuse of a Social Security
Dwight who would accompany an accomplice               number. An investigation disclosed that the clerk
during the cashing of the checks. Approximately        and her spouse allegedly embezzled funds from the
$108,000 was to be paid from several Authority         Authority and conspired to defraud HUD.
accounts for work never performed.
                                                           In Vidor, TX, defendant Karen Patterson, a
     Defendant Paul Lamberg, a former housing          former intake clerk for the Orange County Housing
inspector for the Indianapolis, IN Housing Agency,     Authority, was arrested in Beaumont, TX. In March
pled guilty to one count of conflict of interest, a    of this year, the state charged Patterson with theft
felony under the State of Indiana’s criminal code.     after an investigation found that she had converted
Lamberg was sentenced to six months probation          Authority funds for personal use. Patterson alleg-
and ordered to pay fines and court costs totaling      edly had prospective tenants provide blank money
$139. An investigation disclosed that Lamberg          orders for deposits on apartments, and then cashed
falsified housing quality inspection reports for a     the money orders. She did, however, repay the
Section 8 landlord, for whom he was performing         Authority in some instances; however, the loss to
additional property management duties outside the      the Authority is between $500 and $1,000.
scope of his normal employment. Lamberg was            Patterson was released on bond and no further
previously terminated from his job with the Hous-      judicial proceedings are scheduled at this time.
ing Agency pursuant to this investigation.

Chapter 4 — Investigations                                                                                   66
Tenant/Landlord or Tenant Fraud                                also owned real property and were unlawfully
                                                               subletting the subsidized units to third parties. Four
    The following section highlights other frauds              of the ten arrests were executed out of state. The
committed by subsidy recipients, whether as land-              defendants were charged with submitting false
lord or receiving the benefit of the housing itself.           statements, submitting false statements to HUD and
Following the table is a brief synopsis providing              mail fraud.
further information regarding each case listed in the
table.                                                             In Freeport, NY, defendants Wanda Anderson,
         RESTITUTION & POTENTIAL HUD LOSSES                    also known as Wanda Rhodes, and Matthew White
           April 1, 2002 through September 30, 2002            were arrested on federal warrants and charged with
                                                               one count of mail fraud and one count of making
                         Indicted -
       Location          Potential    Restitution
                                                     Federal   false statements to HUD. Anderson received Section
                                                    Employee   8 rental assistance through the Freeport Housing
                         HUD Loss
  Staten Island, NY      $670,000                              Authority. As a Section 8 recipient, she failed to
  Freeport, NY           $147,000                              report her full household income, which included
  San Francisco, CA                    $78,707
  Yonkers, NY            $65,800       $56,121
                                                               her employment and the employment of White, who
  Columbia, MO           $41,140       $41,140                 resided with her. While Anderson was receiving
  St. Louis, MO          $86,058                               Section 8 assistance, she also purchased an FHA
  Cleveland, OH          $35,994                               insured home where she lived and listed White as
  Topeka, KS             $30,000                               the owner of record so she could continue to receive
  Oklahoma City, OK                    $26,000
  Indianapolis, IN       $25,000                               Section 8 subsidies.
  Omaha, NE              $24,000
  Brooklyn, NY           $23,000                     Postal        In San Francisco, CA, defendant Carolyn
  Huntington, WV         $21,105                               Matthews, a former Section 8 tenant, was sentenced
  Dimmitt, TX            $20,844
  Wilkes Barre, PA       $20,000
                                                               in federal court for fraudulently obtaining Section 8
  Cambridge, MD          $20,000                               housing despite being a millionaire and property
  Harrisonburg, VA       $16,000                               owner. Matthews, who previously pled guilty to
  Conroe, TX             $15,869                               eight counts of submitting false statements on her
  Kansas City, MO        $13,950
                                                               1998–2000 Section 8 certifications to HUD, was
  Roanoke, VA            $13,000
  Columbia, MO           $12,798       $12,798                 sentenced to five months in prison, five months
  Pittsburgh, PA                       $9,272                  electronic monitoring, and two years supervised
  Richmond, CA                         $5,900        Postal    release. She was also ordered to pay $78,707 in
  San Diego, CA              $5,000                            restitution to HUD, which she had paid in full by the
  St. Louis, MO              $1,229
  Houston, TX                  $0
                                                               time of her sentencing hearing. In addition to the
                                                               restitution, Matthews was fined $3,000 and required
                                                               to pay an $800 special assessment fee.
    In Staten Island, NY, ten people from at the
Parkhill development were arrested for allegedly                   From August 1993 through July 2001,
defrauding the Section 8 Program, causing approxi-             Matthews resided at Northridge Cooperative
mately $670,000 in overpayments of subsidies.                  Homes, a HUD subsidized multifamily housing
Vincent Esoga, Presley Albert Hanson, Oluremi O.               development in San Francisco. Beginning in 1995,
Soneye, Odiakosa Ofili, Lafayette Rogie Curtis, Joy            Matthews began acquiring substantial wealth, none
Pope, Jeneba Swaray, Edwin E. Erhabon, Adekunle                of which was ever reported to HUD. While HUD
Banky-Alli, and Taiwo Oduniyi were arrested                    paid $976 to $1,747 per month in rent on her
pursuant to federal warrants. The ten arrestees, who           behalf from 1995 to 2001, Matthews accumulated
lived in Section 8 subsidized units at the develop-            more than $1.7 million in various investment
ment, an FHA insured, HUD subsidized multifamily               accounts, acquired a house in San Francisco, and
housing complex, provided false documents and                  purchased a newly constructed six-bedroom house
statements in order to receive excess subsidies. The           in Antioch, CA, for $548,832. Despite her wealth,
investigation disclosed that many of these tenants

Chapter 4 — Investigations                                                                                          67
Matthews continued to submit annual certifications     her certification forms by failing to report her
in 1996, 1998, 1999, and 2000 to HUD, claiming         earned income. She also pled guilty to making false
that she had no assets or income for those years.      statements on her student loan applications.

                                                           In St. Louis, MO, defendant Bobby Ross pled
                                                       guilty in federal court to a two-count indictment
                                                       charging him with Social Security fraud and false
                                                       statements. Ross illegally obtained Social Security
                                                       benefits by using two different Social Security
                                                       numbers and falsifying Social Security applications.
                                                       He admitted to collecting Social Security disability
                                                       payments while at the same time working for
                                                       General Motors. This resulted in a loss to the
                                                       government of $86,058. Ross’ crime was discovered
                                                       when he made false statements to obtain Section 8
                             San Francisco Chronicle   housing.
                                   June 5, 2002
                             San Franciso Chronicle
                                 June 5, 2002              Defendant Samuel Dabney, a Cleveland, OH
                                                       Section 8 landlord, was indicted in federal court for
                                                       allegedly defrauding the Social Security Administra-
                                                       tion (SSA) and HUD’s Section 8 Program. Specifi-
                                                       cally, the indictment alleges that Dabney failed to
                                                       report the death of his mother, who was his Section
                                                       8 tenant. By concealing her death, Dabney was able
    Defendant Latonia Pierce, a Section 8 recipient
                                                       to receive both HUD and SSA benefits, which he
in Yonkers, NY, was sentenced in federal court to
                                                       received from August 1987 through February 2002.
five years probation, six months house arrest, and
                                                       Losses to the SSA amount to $80,709, while losses
250 hours of community service, and ordered to
                                                       to HUD amount to $35,994.
pay $56,121 in restitution for making false state-
ments to HUD. Pierce, along with her spouse
                                                           Defendant Verel T. Westover, a Section 8 tenant
Edmond Pierce, participated in the Section 8
                                                       in Topeka, KS, was indicted in federal court for
Voucher Program that was administered by the
                                                       making false statements to HUD. An investigation
Yonkers Municipal Housing Authority. The Pierces
                                                       found that Westover failed to report his employment
were also the owners of two homes that had been
                                                       for a period of five years while he was receiving
fraudulently obtained through loans that were
                                                       Section 8 benefits. Westover received nearly
insured through the Section 203(b) Insurance
                                                       $30,000 in benefits to which he was not entitled.
Program. The FHA insured properties were de-
signed to be two family dwellings that the Pierces
                                                           In Oklahoma City, OK, defendant Jimi Dawn
rented out to subsidized tenants under the Section 8
                                                       King, also known as Jimi Dawn Abernathy, was
Voucher Program. The Pierces have defaulted on
                                                       sentenced in federal court to 60 months supervised
both FHA loans. Edmond Pierce has been charged
                                                       release and ordered to pay $26,000 in restitution
in a separate complaint.
                                                       and a $100 assessment fee. King was found guilty
                                                       of one count of theft from an Indian Tribal organi-
    In Columbia, MO, defendant Amy Holmes was
                                                       zation and causing a criminal act. The sentencing is
sentenced in federal court to 30 months incarcera-
                                                       the result of an investigation which found that King
tion and 24 months supervised release, and ordered
                                                       stole money from the Miami Tribe of Oklahoma by
to pay $41,140 in restitution. Holmes, a Section 8
                                                       making false statements to receive monies to pur-
tenant who received rental subsidy from the Colum-
                                                       chase a home through a financial assistance pro-
bia Housing Authority, previously pled guilty to
                                                       gram offered by the Tribe and funded by HUD.
multiple counts of submitting false statements on

Chapter 4 — Investigations                                                                                68
    In Indianapolis, IN, defendant Carson               a period of several years. Mayes lived with his
Shepard, a Section 8 Pprogram landlord, and             Section 8 tenant and received $21,105 in rental
defendant Beverly King, a Section 8 tenant, were        assistance on her behalf from the Point Pleasant
convicted in a state court jury trial on one count of   Housing Authority.
theft. An investigation disclosed that Shepard lived
with King while collecting Section 8 rent payments.         In Dimmitt, TX, defendant Peggy Marquez,
Shepard fraudulently received over $25,000 from         also known as Peggy Montemayor and Peggy Scott,
the Housing Agency over a six-year period.              was indicted in state court on one count of tamper-
                                                        ing with a government record with intent to de-
    In Omaha, NE, defendant Charles Meckna was          fraud. An second indictment with the same charge
indicted in federal court on two counts of submit-      was returned earlier for welfare fraud. This current
ting false statements. Meckna is a Section 8 recipi-    indictment is the result of an investigation which
ent representing himself as disabled. While receiv-     determined that Marquez failed to report the income
ing Section 8 assistance, he has been gainfully         of her common-law spouse, and that they jointly
employed at several places of business. To date, the    owned the mobile home where they lived together
government has sustained losses in excess of            and where their child received Section 8 rental
$24,000.                                                assistance for the last six years. The falsification
                                                        resulted in a loss of $20,844 to HUD and $23,616 to
    Defendant Libretia Daise, a U.S. Postal Service     the Texas Department of Human Services.
mail handler in Brooklyn, NY, was indicted in
federal court on one count of theft of government            Defendant Joseph Lefkoski, a former Section 8
funds. Along with Orlene L. Pestano, Daise sub-         tenant in Wilkes Barre, PA, pled guilty in federal
mitted fraudulent documents and forged signatures       court to submitting false information to obtain rental
in order to benefit from Section 8 Low-Income           assistance benefits to which he was not entitled. An
Rental Assistance subsidy payments.                     investigation conducted at the request of the Wilkes
                                                        Barre Housing Authority, disclosed that Lefkoski
    Daise moved into Pestano’s Section 8 subsidized
                                                        failed to report his annual income of at least
apartment in Brooklyn while Pestano relocated to
                                                        $15,000 over a five-year period, enabling him to
another Section 8 subsidized apartment in Pennsyl-
                                                        receive $20,000 in excess rental assistance over that
vania. Daise did not apply for Section 8 rental
                                                        time.
assistance under her own identity or income but
continued to use Pestano’s information. Daise was
                                                            In Cambridge, MD, as a result of an investiga-
able to fraudulently benefit from overpayments of
                                                        tion conducted at the request of the Maryland
Section 8 subsidies amounting to approximately
                                                        Department of Housing and Community Develop-
$23,000 by continuing to submit bogus verification
                                                        ment, local theft charges were filed in state court in
documents. Had Daise provided true and accurate
                                                        separate cases against two Section 8 recipients,
information with regard to herself and her house-
                                                        Larry Stewart and Ravonya McMillan, for failing to
hold income, she would not have been eligible to
                                                        properly report their income. In one case, Stewart
participate on the Section 8 Low-Income Rental
                                                        allegedly failed to report income over a three-year
Assistance Program.
                                                        period from two separate employers. In the other
    Pestano moved back into her former Section 8        case, McMillan allegedly failed to report income
subsidized apartment and sued the Daise on the          over a three-year period from full time employment
“People’s Court” for nonpayment of rent for which       at an auto body shop. The aggregate overpayment
she was awarded a judgment of $1,000.                   on behalf of both tenants is $20,000.

    In Huntington, WV, defendant Ralph Mayes, a             In Harrisonburg, VA, defendant Helen Elliott,
Section 8 landlord, pled guilty in federal court to     Section 8 recipient, was charged in federal court
mail fraud for his participation in a scheme to         with making false statements to the Shenandoah
defraud the HUD’s Rental Assistance Program over

Chapter 4 — Investigations                                                                                   69
County Department of Social Services (the Depart-        $40,000 in benefits, including over $13,000 in
ment) to obtain rental assistance to which she was       Section 8 assistance.
not entitled. An investigation revealed that Elliott
failed to disclose her annual income of approxi-             Defendant Jeanette Nicole Enyart of Columbia,
mately $20,000 on recertification forms furnished        MO, entered into an agreement in federal court for
to the Department from October 1996 through              pre-trial diversion. Enyart knowingly made false
March 2001. She received excess benefits of at least     statements on Section 8 certifications and recertifi-
$16,000.                                                 cations to the Columbia Housing Authority in order
                                                         to receive rental assistance to which she was not
    Defendant Brenda Lee Becerra of Conroe, TX,          entitled. The amount of overpayment and restitution
pled guilty to a state charge of felony theft. Becerra   is $12,798.
was ordered to pay $15,869 in restitution to HUD,
fined $1,000, and ordered to perform 165 hours of            Defendants Richard C. Miller and Mary C.
community service. The sentencing is a result of an      Miller, former Pittsburgh, PA Section 8 tenants,
investigation which found that Becerra failed to         were sentenced in federal court to a one-year
report a monthly insurance annuity of $684 that she      federal pre-trial diversion program and ordered to
received throughout her participation in the Section     pay $4,636 each in restitution, in lieu of criminal
8 Program. By submitting fraudulent Section 8            prosecution. The Millers, who lived in HUD subsi-
recertification documents from October 1995              dized housing from 1997-2001, were previously
through June 2001, Becerra received $15,869 in           indicted on three counts of making false statements.
Section 8 subsidies to which she was not entitled.       An investigation disclosed that the Millers failed to
The Assistant District Attorney advised that this is     report Mary’s income and Richard’s $20,000
the first HUD related theft case to be prosecuted in     401(k) retirement withdrawal on recertification
Montgomery County.                                       documents. As a result of their nondisclosure, they
                                                         received more rental subsidy than that to which they
    In Kansas City, MO, defendant Monae L.               were entitled.
Taylor pled guilty in federal court to two counts of
making false and fraudulent statements to HUD and            In Richmond, CA, defendant Evelyn Gulley, a
the Department of Agriculture. Taylor failed to          former Section 8 tenant, was sentenced in federal
report her income from the IRS while receiving           court to three years probation and ordered to pay
Section 8 assistance from the Housing Authority of       $5,900 in restitution. Gulley previously pled guilty
Kansas City, and food stamps from the State of           to one count of making false statements for failing
Missouri. The loss to HUD is $13,950 and the loss        to disclose her true employment with the U.S.
to the State of Missouri is $4,258. As part of the       Postal Service on her recertifications with the
plea agreement, Taylor agreed that she would resign      Richmond Housing Authority. Instead, Gulley
from her employment at the IRS and will not seek to      reported working at a day care facility.
be employed by any governmental agency during the
period of her supervised probation.                          The San Diego, CA County District Attorney’s
                                                         Office filed a seven-count felony complaint charg-
    Defendant Melvin Sykes, a former Section 8           ing defendant Patricia Wylie with making false
tenant, pled guilty in federal court in Roanoke, VA,     statements and unlawfully obtaining over $5,000 in
to three counts of a 39-count indictment and to a        Section 8 subsidies. An investigation revealed that
criminal information, both of which charged him          Wylie illegally received funds from Child Develop-
with submitting false statements or claims to several    ment Associates, Inc., an agency funded by the
federal and state agencies for public assistance,        State of California, by allegedly forging her
including Social Security and Medicaid benefits,         mother’s name on child care payment checks. She
food stamps, and housing assistance. Sykes failed to     also allegedly made false statements regarding her
report his income from self-employment over a            income on her Section 8 application.
five-year period, resulting in his receipt of over

Chapter 4 — Investigations                                                                                   70
     In Houston, TX, defendant Ricky Paul Simien,       prevailing wages, as outlined by the Department of
 a Section 8 landlord, was charged by the Harris        Labor.
 County District Attorney’s Office with tampering
                                                            A two-count federal felony information was also
 with a government record. Simien allegedly submit-
                                                        filed in this case against Robert Adkins of Adkins
 ted a fraudulent leasing voucher to the Housing
                                                        Drywall, a subcontractor, alleging conspiracy and
 Authority of the City of Houston in order to obtain
                                                        false statements. Adkins allegedly submitted false
 payment. No payments were disbursed to Simien by
                                                        certified payrolls on the Enclave, Terraces at
 the Authority.
                                                        Northridge, and Terraces on the Green, all HUD
                                                        insured multifamily developments.
                                                            The other significant aspect of this case is not
 HUD Multifamily Housing                                only how much was underpaid to the employees,
 Programs                                               but the fact that a phony change order for $4
                                                        million put forth by the contractors was terminated
     In addition to multifamily housing developments    and denied after HUD program staff were provided
 with HUD held or HUD insured mortgages, the            information relative to the case.
 Department owns multifamily projects acquired
 through defaulted mortgages, subsidizes rents for          Defendant Douglas S. Wasserman, the former
 low-income households, finances the construction       owner of the Mott Haven housing development
 or rehabilitation of rental housing, and provides      located in Bronx, NY, pled guilty in federal court
 support services for the elderly and handicapped.      to equity skimming for illegally diverting to per-
 During this reporting period, OIG investigations       sonal use approximately $894,000 in funds. These
 disclosed multifamily equity skimming, criminal        funds were received from HUD at a time when the
 contempt, conspiracy, and wire fraud.                  Mott Haven development was in disrepair and the
                                                        mortgage remained unpaid. Wasserman also pled
     In Cleveland, OH, defendants Edward Gorges         guilty to tax evasion for calendar year 1995.
 and Andrew Sandor were each charged federally
                                                            Wasserman unlawfully transferred approxi-
 with one count of concealment and one count of
                                                        mately $894,000 out of the Mott Haven account and
 false statements in criminal informations, while
                                                        used these funds for purposes unrelated to Mott
 defendant Robert Gregorek was charged federally in
                                                        Haven, including paying personal expenses and
 a 27-count indictment with one count of conspiracy
                                                        expenses related to his other properties and busi-
 and 26 counts of concealment and falsification. The
                                                        nesses. He diverted the money through several
 defendants, who subsequently pled guilty, were
                                                        different methods, including paying personal
 subcontractors performing work for Gatehouse
                                                        expenses directly out of the Mott Haven account,
 Construction Company, the general contractor for
                                                        making checks payable to cash, and distributing
 the Northridge and Green HUD insured multifamily
                                                        funds to companies he controlled as purported
 residential developments. Specifically, they were
                                                        payments for repairs, when in fact the companies
 charged with and pled guilty to entering a con-
                                                        performed no work on the buildings. Wasserman
 spiracy to reduce the general contractor’s costs on
                                                        used these funds to pay numerous personal and
 the projects by paying workers less than the re-
                                                        business expenses, including legal fees for his
 quired prevailing wages, known as “Davis Bacon”
                                                        divorce as well as a civil lawsuit, personal credit
 wages, and to subsequently concealing these acts.
                                                        card charges, car leases, and expenses at another
 The conspiracy was made possible by the falsifica-
                                                        multifamily development he owned that was not
 tion of payroll forms, which were ultimately sent to
                                                        insured by HUD. On March 12, 1997, Wasserman
 HUD, to make it appear that the employees were
                                                        assigned his ownership of Mott Haven to HUD and
 paid the prevailing wages as approved by the gov-
                                                        HUD became mortgagee-in-possession, causing a
 ernment. These employees were illegal alien immi-
                                                        potential loss to the government of over $3 million.
 grants, many of whom did not know the English
 language and knew nothing of “Davis Bacon” or

Chapter 4 — Investigations                                                                                 71
    Wasserman also admitted that he illegally            portion of the service fee was paid to the Friandes
attempted to evade paying taxes for calendar year        Group, Inc. Eugene Burger’s wife is the president
1995. He took several measures to conceal his            of Friandes.
income, including funneling the income through
various corporate entities under his control and
causing these corporations to pay his personal           HUD Community Planning
expenses, using nominees to conceal his control
over the corporations paying his personal expenses       and Development Programs
and causing the corporations to provide him with
                                                             The Office of Community Planning and Devel-
income by making checks payable to cash.
                                                         opment (CPD) administers programs that provide
    Wasserman was sentenced to two and one-half          financial and technical assistance to states and
years on the charge of equity skimming and an            communities for activities such as community
additional two and one-half years on the charge of       development, housing rehabilitation, homeless
tax evasion, to be completed consecutively. He will      shelters, and economic job development. Grantees
also pay restitution in an amount not determined at      are responsible for planning and funding eligible
this time.                                               activities, often through subrecipients. OIG investi-
                                                         gations of these programs disclosed cases of em-
    Defendant Darlene Starkey, a contractor doing        bezzlement, bankruptcy, wire fraud, money laun-
business as Starkey Enterprises, pled guilty in          dering, false statements, and forgery.
federal court to theft of funds from at least four
HUD assisted developments in and around Charles-              Defendant Martin G. Barnes, the Mayor of
ton, WV. Starkey admitted that, between 1998 and         Paterson, NJ, pled guilty in federal court to
2002, she conspired with the manager of the devel-       falsifying tax returns, embezzling campaign funds,
opments, who is also a target of this investigation,     and stealing money from HUD and the City of
to prepare false invoices for labor and materials that   Paterson by fraudulently seeking reimbursement
were never provided. Upon payment for the labor          from the City’s HUD sponsored HOME (Rental
and materials, Starkey returned half the money to        Rehabilitation) Program.
the manager. The approximate loss as a result of
this scheme is $400,000. Starkey, pursuant to her            Defendant Sara Bost of Irvington, NJ, was
plea agreement, has agreed to repay $175,000, but        indicted in federal court on five counts of bribery
this is subject to review and possible adjustment by     concerning programs receiving federal funds, wire
the court.                                               fraud, and tampering with a witness, victim, or
                                                         informant. Bost allegedly received cash payments
    Defendant Michael B. Kuimelis, doing business        from a contractor who paved a community center
as MBK Insurance, pled guilty in federal district        parking lot. The cash came from HUD Community
court in San Francisco, CA, to one felony count of       Development Block Grant funds. The indictment
criminal contempt and was fined $20,000 and              also alleges that Bost received cash from the owners
sentenced to three years probation, six months           of a HUD insured multifamily development in
electronic home detention, and 150 hours of com-         Irvington.
munity service. Kuimelis submitted invoices for
insurance premiums under Eugene Burger Manage-               A federal jury convicted defendants Charles M.
ment Corporation’s (EBMC) master insurance policy        Barber, his spouse, Helen J. Barber, and their son,
that included a commission and a service fee of 15-      Charles H. Barber, on 27 counts of bankruptcy
18 percent, in addition to the true cost of insurance.   fraud, wire fraud, money laundering, and conceal-
The service fee was then split between MBK and           ing assets. In addition, the father and son were
EBMC. Kuimelis failed to disclose the true percent-      found guilty of misusing public funds, and the son
age that he retained from the master insurance           was convicted of providing false statements to a
policy, and tried to cover up his acts by tampering      federal Agent. AMG Industries Inc., in Queensbury,
with a government witness. In addition, EBMC’s           NY, a company owned and operated by the defen-

Chapter 4 — Investigations                                                                                     72
dants, was awarded a $370,000 Community Devel-
opment Block Small Cities grant (CDBG) for the
                                                        Violent Crime in HUD Public
construction of a new metal fabricating facility. AMG   and Assisted Housing
Industries submitted fraudulent and misleading
invoices in support of the CDBG loan, and then               OIG investigations of violent crime and drug
diverted the funds for personal use.                    trafficking in HUD’s Public and Assisted Housing
                                                        Programs began in February 1994 as part of an
    In San Antonio, TX, defendants Juan Carlos          initiative known as Operation Safe Home (OSH).
Estevez and Ricardo Estevez pled guilty in federal      The investigations were conducted in coordination
court to indictments issued in November 2001 and        with various federal, state, and local law enforce-
January 2002. The indictments charged money             ment task forces. During the last semiannual report-
laundering, mail fraud, and bank fraud. Additional      ing period, we systematically phased out OSH
defendants were charged in these indictments. The       investigations. The Congress funded OSH through
                                                        FY 2002 to allow an orderly and responsible conclu-
defendants obtained a Rental Rehabilitation Pro-
gram loan from the City that was funded through         sion of the initiative, to cease complete operations
HUD’s Community Development Block Grant
                                                        by September 30, 2002. Thus, in accordance with
Program. They used the U.S. Postal Service by           the requirements of HUD’s FY 2002 Appropriations
mailing false statements to the City. They also         Act (Pub. Law 107-73), approved November 2,
conspired with another individual to produce false      2001, OIG has closed OSH violent crime investiga-
income tax return statements, and used the Postal       tions and re-deployed staff to focus on investiga-
Service or a commercial interstate carrier to provide   tions involving single family fraud and property
false loan origination documents to obtain the loan.    flipping. The OSH results discussed below stem
                                                        from investigation cases that were initiated prior to
    A federal search warrant was executed at the        the closing out of the Safe Home initiative.
Williamsburg Heights Community Block Club
Association in Milwaukee, WI, a recipient of HUD        State of Illinois
block grant funds. Employees of the association              Federal, state, and local law enforcement
who are family members of local alderman Rosa           officers arrested 34 members of the Gangster
Cameron allegedly submitted cost reports for the        Disciples street gang. The Gangster Disciples are
Association. Cameron allegedly hid the fact that she    known nationwide as one of the largest and most
was related to these employees, in spite of the fact    violent street gangs in the country. Chicago, IL, is
that she was on the committee to approve their grant    home to the largest contingent of the Gangster
award.                                                  Disciples, and Chicago public housing develop-
                                                        ments serve as their main base of operation for
    Defendant Stanley L. Jackson, an employee of        selling narcotics and committing violent acts. It is
the City of Albany, NY Department of Community          estimated that the Gangster Disciples control the
Planning and Development (ACPD), was charged by         sale of narcotics in approximately 90 percent of
the Dougherty County District Attorney with one         Chicago’s public housing developments.
count of first degree forgery and one count of theft
by conversion. Jackson allegedly wrote a $2,800             This operation was the culmination of a two-
check on the ACPD checking account to pay a             year narcotics investigation into the Gangster
personal debt.                                          Disciples. During that time, over 70 undercover
                                                        purchases of crack cocaine were made from the
                                                        defendants. Since drugs were purchased from
                                                        virtually everyone in the organization, Offices and
                                                        Agents established enough probable cause to initiate
                                                        a Title III wire intercept on the organization’s
                                                        leaders. Enough evidence was secured from the
                                                        wire intercept to implicate high ranking Gangster
                                                        Disciples in the criminal conspiracy.
Chapter 4 — Investigations                                                                                 73
                                                        separate occasions, Sims sold extremely pure
                                                        quantities of heroin and cocaine. This cocaine and
                                                        heroin could have been diluted and packaged for
                                                        individual sale in as many as 25,000 “stamp” bags,
                                                        with a street value between $600,000 and $1
                                                        million.




            Chicago Sun-Times, September 19, 2002

    In a 114-page federal criminal complaint,
Richard Epps, et al, all 34 of whom were members
of Gangster Disciples, were charged with con-
spiracy to possess and distribute crack cocaine and
heroin. The complaint documents in detail the                    Pittsburgh Post-Gazette, September 6, 2002
intense investigative efforts put forth by law en-
forcement officers in an attempt to dismantle the
                                                             Intelligence indicated both that Sims was a
narcotics distribution network of the Gangster
                                                        major source supplier of heroin and cocaine to
Disciples in the Rockwell Gardens public housing
                                                        Pittsburgh public housing communities and that law
development. Items seized during the September 18
                                                        enforcement efforts had been focused on him for
round-up included four fully loaded semi-automatic
                                                        nearly three decades; however, these prior efforts
handguns, approximately 80 grams of crack co-
                                                        were not successful. Sims enjoyed a notorious
caine, drug paraphernalia, narcotics manufacturing
                                                        reputation for secrecy and brutal retaliation against
and packaging materials, and a small amount of
                                                        those who dared to cross him. He was on bail for
cash.
                                                        ordering the contract killing of a DEA informant
                                                        during the period he sold drugs in this investiga-
State of Pennsylvania                                   tion. Sims is facing state trial for the 1997 contract
     In Pittsburgh, PA, defendant Ronald Sims, a        killing of the DEA informant.
drug dealer, was sentenced in federal court to 57           OIG brought critical law enforcement resources
months incarceration and three years probation          to bear, including case related funding and state-of-
based on his previous conviction for distributing       the-art electronic surveillance equipment, during
heroin and cocaine in and around Pittsburgh public      this investigation. Sims’ arrest and subsequent
housing communities. Forfeiture proceedings are         conviction have served to both eliminate him as a
still in process against real property owned by Sims.   source supplier, thought to supply between 50-75
Sims’ conviction and incarceration are the culmina-     kilograms of heroin annually to the Pittsburgh drug
tion of a four and one-half year investigative effort   trade, and to dismantle his drug trafficking organi-
to interdict drug trafficking and violent crime in      zation.
Pittsburgh’s public housing communities. On 14

Chapter 4 — Investigations                                                                                    74
State of Kansas                                         months supervised release after pleading guilty to
                                                        possession of drugs with intent to sell. Peppers was
    “Operation Isolation,” “Operation Street            also ordered to pay $581 in court fees. Defendant
Corner,” “Operation Divert,” and “Operation             James B. Richards pled guilty in state court to
Candid Camera” were undercover operations that          possession of drugs with intent to sell. The court
identified individuals distributing drugs in public     suspended his sentence for imprisonment and
housing developments in Topeka, KS. The opera-          placed him on 12 months supervised probation, and
tions culminated in the arrest of 70 individuals; 11    ordered him to pay $478 in court fees. Defendant
of these were recently sentenced.                       Leola Tyree was sentenced in state court to 22
                                                        months imprisonment and 24 months supervised
     Defendant Johnnie Dodds was sentenced in           release after pleading guilty to possession of drugs
state court after being found guilty of possession of   with intent to sell. She was also ordered to pay
drugs with intent to sell. Dodds was sentenced to       $485 in court fees. Defendant William J. Brackett
40 months in prison and 18 months supervised            was sentenced in state court after pleading guilty to
release, required to attend a substance abuse pro-      carrying a concealed firearm. Brackett was sen-
gram, and ordered to pay $1,146 in court fees.          tenced to 12 months confinement and 12 months
Defendant James Lee Johnson was found guilty in         supervised release, and is required to attend an
state court of possession of drugs to sell and crimi-   approved substance abuse program. Defendant
nal threat. He was sentenced to 20 months impris-       Dean Clifford James was sentenced in federal court
onment and 12 months supervised release and             to 100 months in prison and 48 months probation,
required to attend a substance abuse program.           and ordered to pay $1,200 in restitution to the
Defendant L.J. Edwards was sentenced in federal         Kansas Bureau of Investigation. James was arrested
court after pleading guilty to felon in possession of   after selling over 13 grams of crack cocaine to an
a firearm. He was sentenced to 46 months in prison      undercover Agent. All five individuals were ar-
and 24 months supervised release, and must attend       rested during “Operation Divert.”
a substance abuse program. Dodds, Johnson, and
Edwards were arrested during “Operation Isola-              Defendant Westley Anderson was sentenced in
tion.”                                                  state court after pleading guilty to possession with
                                                        intent to sell drugs. Anderson was sentenced to 24
    Defendant Wendell Parker was sentenced in           months in prison and 18 months supervised release,
state court on one count of first degree murder, one    required to attend a substance abuse program, and
count of felony theft, and one count of child endan-    ordered to pay $2,200 in restitution. Anderson was
germent. Parker was sentenced to life imprisonment      arrested during “Operation Candid Camera.”
plus 12 months, and was ordered to pay $12,705 in
restitution and court fees. He was arrested for             Defendant Efrain Valadez-Dela Cruz was
murder and felony theft after stabbing a public         sentenced in federal court to 87 months imprison-
housing tenant to death and leaving her young child     ment and five years probation. Cruz previously pled
in a crib. The homicide occurred during “Operation      guilty to one count of a federal indictment for
Isolation.”                                             distributing 428 grams of methamphetamine and
                                                        1,760 grams of marijuana. The plea resulted from
    Defendant Odell Stewart was sentenced in state      “Operation Clean Up,” the second operation
court to 12 months imprisonment and 12 months           conducted by the Capital City Safe Home Task
supervised release after pleading guilty to posses-     Force. The operation was initiated to identify
sion of drugs with intent to sell. Stewart was or-      individuals who were distributing drugs in both
dered to pay $503 in court fees. He was arrested        Deer Creek and Pine Ridge public housing develop-
during “Operation Street Corner.”                       ments as well as assisted housing developments in
                                                        Topeka. “Operation Clean Up” has resulted in the
    Defendant Torrence L. Peppers was sentenced         arrest of 37 individuals.
in state court to 11 months imprisonment and 12


Chapter 4 — Investigations                                                                                 75
State of Massachusetts                                  purchase one kilogram of cocaine from an under-
                                                        cover Officer. The arrest took place in the
    Operations by the Chelsea Drug Task Force in        Fitzpatrick housing development. During the arrest,
Chelsea, MA, recently resulted in six sentencings.      Officers and Agents seized $23,089 in cash from
Defendant Lena White was sentenced in state court       Prey.
to seven years in prison after being found guilty of
cocaine trafficking and cocaine possession with         State of Missouri
intent to distribute within 1,000 feet of a school
zone/100 feet of a playground. White was arrested           Two defendants were sentenced in federal court
by Task Force members in December 2000. A state         for distributing a controlled substance in Kansas
search warrant executed at her Section 8 apartment      City, MO public housing. After pleading guilty to
netted 36 grams of cocaine and $152 in cash. After      distributing cocaine base to an undercover Agent,
the matter was referred to the Chelsea Housing          defendant Marcus Timothy Barnes was sentenced to
Authority, White’s Section 8 certificate was can-       84 months imprisonment and five years supervised
celled.                                                 release. He was also ordered to pay a $100 court
                                                        assessment. Anthony Christopher Holoman was
    Defendant Adiel Medina was convicted in state       sentenced in federal court to 50 months imprison-
court of trafficking over 200 grams of cocaine and      ment and five years supervised release, and ordered
conspiracy to traffic cocaine. In addition, defendant   to pay a $100 court assessment. Holoman pled
Gustavo Pino pled guilty in state court to the same     guilty to selling cocaine base.
charges. Both Medina and Pino were sentenced to
10 years in jail. The Task Force arrested Medina        State of New Jersey
and Pino in November 1999 after conducting a two-
month narcotics investigation. Medina was arrested          In Camden, NJ, defendant Rasheed Smith was
at his apartment, which was located in a high           sentenced in federal court to 262 months incarcera-
density Section 8 area. Pino was arrested at the        tion (including time served since his arrest in
Fitzpatrick housing development, a federally            November 1999) and four years supervised release,
subsidized complex.                                     and was ordered to pay a $100 special assessment.
                                                        Smith was previously charged with conspiracy to
    Defendants Orlando Rivera and Randy J.              distribute crack cocaine. He was the last of 10 co-
Wilson pled guilty in district court to possession of   conspirators to be sentenced following the resolu-
heroin with intent to distribute within a school        tion of a three-year investigation by members of the
zone. They were each sentenced to two years and         Project Safe Home Task Force, which was in-
one day in jail. In February 2001, Task Force           structed by the Department of Justice to investigate
members conducted an undercover buy/bust opera-         instances of widespread illegal narcotics distribution
tion and executed four state search warrants at a       in the Camden Housing Authority’s public and
public housing development and at other locations       assisted housing developments. The crack cocaine
in Chelsea. Rivera, Wilson, and three other indi-       distribution organization was based in the Peter J.
viduals were all arrested and charged with several      McGuire public housing development.
different narcotics violations. Approximately four
grams of heroin, several bottles of pills, $330 in      State of New Mexico
cash, two hunting knifes, and drug paraphernalia
                                                            In Albuquerque, NM, defendants Leandra
were seized. The three other individuals have not
                                                        Fuste and Lorenzo Gonzales, both of whom were
yet gone to trial.
                                                        indicted on federal drug violations in July 2001,
                                                        pled guilty to one count of intent to distribute
    Defendant David Prey was found guilty in state
                                                        drugs. Following his guilty plea, Gonzales was
court of cocaine trafficking and was sentenced to 10
                                                        sentenced to 150 months in federal prison and 48
years and one day in prison. In January 2000, Task
                                                        months supervised release.
Force members arrested Prey after a one-month
drug investigation during which Prey attempted to

Chapter 4 — Investigations                                                                                   76
    Defendant Michelle A. Montano was sentenced               Defendants Terrel Howard, Andre Fuller,
to 82 months in prison and 5 years supervised             Cedric Tate, Theodore Johnson, Mitchel King,
release. Montano previously pled guilty in federal        Regal Edgeson, Charles Haywood, Antwan
court to one count of conspiracy to distribute 50         McDonald, James Singleton, Terry Davy, Joseph
grams or more of crack cocaine and one count of           Wells, Harold Worley, Michael Stubbs, Michael
carrying a firearm during the commission of a drug        Burge, Linda Kelly, Marvin Robinson, Shaun
trafficking offense.                                      Wade, and Shaun Jones pled guilty in federal court
                                                          to their role in distributing crack cocaine at
    Defendant Maria Isela Chavez-Marquez was
                                                          Longwood Estates.
sentenced in federal court on one count of con-
spiracy to possess with intent to distribute. Chavez-          Defendant Donaze Gaines was convicted in
Marquez was ordered to serve five years in prison         federal court of possession with intent to distribute
and four years supervised release. Since Chavez-          and being an armed career criminal. Gaines was
Marquez will be deported to Mexico upon her               affiliated with a group of individuals who were
release, she was also ordered not to re-enter the         indicted in February 2002 for conspiracy to distrib-
United States.                                            ute crack cocaine near Longwood Estates.
    These sentencings resulted from operations by             Defendant Darnell Graham was sentenced in
the Albuquerque Safe Home Task Force.                     federal court to 84 months incarceration and five
                                                          years supervised release following his earlier
State of Ohio                                             conviction on charges of possession with intent to
                                                          distribute 267 grams of crack cocaine. Graham was
    “Operation Rolling Thunder” was a nine-month          also charged in February 2002 for his role in the
investigation of cocaine/crack cocaine sales at           drug sale conspiracy at Longwood Estates.
Longwood Estates, a project-based Section 8
development in Cleveland, OH. Undercover                  State of Texas
Officers and Agents made multiple buys of crack
                                                               As a result of Safe Home initiatives conducted
cocaine within the development. Thirty-one indi-
                                                          at the Lincoln Park and Kelly Village public hous-
viduals were sentenced in federal court as a result
                                                          ing developments in Houston, TX, three individu-
of this initiative. With these sentencings, the case is
                                                          als were sentenced, one pled guilty, one was in-
now in its final phase. In February 2002, 40 people
                                                          dicted, and one was arrested. Defendant Cornelius
were indicted in federal court for possession with
                                                          Clark, a drug dealer who was indicted by a federal
intent to distribute more than 50 grams of a sub-
                                                          grand jury in July 2001 and pled guilty in October
stance containing cocaine base and/or for posses-
                                                          2001, was sentenced on one count of possession
sion with intent to distribute more than five kilo-
                                                          with intent to distribute 105 grams of crack cocaine.
grams of cocaine. The sentencings ranged from 28
                                                          Clark was ordered to serve 151 months in prison
months to 140 months in prison. Longwood Estates
                                                          and 60 months supervised release, and fined
is currently under a $111 million reconstruction
                                                          $2,500. Clark was a major narcotics dealer and
plan. The following individuals recently pled guilty,
                                                          gang member in Lincoln Park.
were convicted, or were sentenced in this case:
     Defendants Halleem Hudson and Keith Wilson               Defendants Sterling Thomas and Troy Guidry,
pled guilty in federal court to conspiracy to possess     both major drug dealers in Kelly Village, were
with intent to distribute and distribution of cocaine     sentenced in federal court to 120 months in prison
base. Raymond O’Neal, also known as Big Head,             and 96 months supervised release, and 188 months
pled guilty in federal court to conspiracy to possess     in prison and 60 months supervised release, respec-
with intent to distribute and distribution of between     tively. Thomas was sentenced on charges of aiding
two and three and one-half kilograms of cocaine,          and abetting to possess with intent to distribute five
and filing a false IRS Form 1040 for calendar year        grams or more of a substance containing cocaine
2000. O’Neal agreed to forfeit all rights, interest,      base. Guidry was sentenced on one count of con-
title, and claim relating to four vehicles.               spiracy for possession with intent to distribute. Over

Chapter 4 — Investigations                                                                                    77
190 grams of crack cocaine and $11,775 in cash
were seized from his residence, where Officers and
Agents executed a state search warrant.

    Defendant Terry Armstrong pled guilty in
federal court to one count of possession with intent
to distribute crack cocaine and one count of aiding
and abetting. Armstrong sold approximately 22
grams of crack cocaine to an undercover Officer.
He was a major narcotics dealer in Kelly Village.
Armstrong has also been arrested and charged by
the State of Texas in an unrelated case on capital
murder charges and is awaiting trial.

    Defendant Hilton Guillory, another dealer in
Kelly Village, was arrested and was placed in the
custody of the U.S. Marshals Service. Guillory was
indicted in federal court in June 2002 on one count
of aiding and abetting to possess with intent to
distribute five grams or more of a substance con-
taining cocaine base. Defendant Andre Mills,
another drug dealer, was indicted in federal court
for selling 23 grams of crack cocaine in Kelly
Village.

    Defendant Dwight Deon Jones, who was
indicted by a federal grand jury in May 2001,
arrested in August 2001, and pled guilty in Febru-
ary 2002, was sentenced to 188 months in prison.
Jones was indicted on one count of possession with
intent to distribute. He was identified as a major
narcotics distributor in the Plymouth Village Sec-
tion 8 and Maida public housing developments in
Beaumont, TX. On the same day, defendant Eric
Dewayne Bell was sentenced to 37 months in
prison. Bell was indicted by a federal grand jury
and arrested in August 2001 and pled guilty in
January 2002 to possession with intent to distribute.
He sold over 10 grams of crack cocaine to an
undercover Officer during two buy/walk operations
in a Section 8 complex.




Chapter 4 — Investigations                              78
                                   Chapter 5             —   Joint Efforts
    Many successful OIG criminal and civil investi-            million in restitution. Defendant Dennis Stewart,
gation cases stem from the joint efforts of both               the closing attorney, previously pled guilty and was
Criminal Investigators (Special Agents) and Audi-              sentenced to 33 months in prison and 36 months
tors. In a joint effort, Investigators bring to a case         supervised release, and ordered to pay $81,421 in
knowledge of criminal statutes, administrative                 restitution.
regulations, evidence necessary to prove a crime,
interviewing techniques, procedures for obtaining                  A civil settlement was reached in federal court
written statements and evidence, and a general                 between the U.S. Government and Michael
working knowledge of the judicial process. Auditors            LaMelza, the owner of the Water’s Edge Convales-
provide the education, background, and training to             cent Center, a HUD subsidized facility in Trenton,
conduct the review of accounting records and                   NJ. The settlement agreement requires that
documents that is often required. Based on their               LaMelza repay $1.65 million within a nine-month
expertise, Auditors can also be considered witnesses           period. An OIG review conducted approximately
should a case go to trial. Further, when considered            five years ago disclosed equity skimming. The audit
appropriate, Auditors can accompany Investigators              documented over $1 million in improper/unallow-
on certain key witness/target interviews. Their in-            able expenditures that were disbursed while the
depth knowledge of financial books, records, and               mortgage on this facility was in default, in violation
accounting procedures can be extremely valuable.               of the Regulatory Agreement.
    The joint effort is an effective means to com-
                                                                   Defendant Helen Zapesochny pled guilty in
pleting an investigation, and is often the only way to
                                                               federal court to knowingly making a false or
put together the necessary pieces of an investigation
                                                               fraudulent statement and agreed to make restitution
case. The OIG has had considerable success in
                                                               to HUD in the amount of $871,204. In April 2001,
conducting joint investigations. Some of these cases
                                                               Zapesochny and Juel Karns, a HUD consultant/
are conducted strictly by the OIG; some involve
                                                               inspector, were indicted on 30 counts, including
participation by other federal, state, or local law
                                                               conspiracy to defraud the Federal Government and
enforcement agencies, including the Federal Bureau
                                                               making false statements. Shortly after Karns’
of Investigation, the Drug Enforcement Administra-
                                                               indictment, he died from a serious illness. The
tion, the Internal Revenue Service Criminal Investi-
                                                               indictment of Karns was dropped.
gation Division, the Postal Inspection Service, the
Social Security Administration OIG, the HUD En-                    Zapesochny purchased approximately 74 homes
forcement Center, and local police departments.                in the Rochester, NY area that were subsequently
Following are the results of successful joint efforts          insured through the Section 203(k) Rehabilitation
conducted during this reporting period.                        Home Mortgage Insurance Program. Zapesochny
                                                               and Karns conspired to steal the rehabilitation funds
     Defendant Richard Waters, owner of Waters                 by not completing the specified work on the houses
Mortgage Company in Ft. Lauderdale, FL, pled                   or doing the work with inexpensive materials in an
guilty to two counts of bank fraud in connection               unacceptable manner. To date, 71 out of the 74
with false statements he made to originate fraudu-             homes are in default and HUD has paid claims on 67
lent FHA insured mortgages and have them entered               of these properties. The estimated loss to the FHA
into GNMA pools. Waters participated in a scheme               insurance fund is over $3.6 million. Zapesochny
to fraudulently originate Section 203(k) mortgages             was sentenced to six months home confinement and
for over 80 properties, with mortgages totaling over           five years probation, and was ordered to pay
$4.5 million, by not making the required down                  $871,000 in restitution.
payments. Waters was sentenced in federal district
court to 21 months imprisonment and 36 months                      Louise Corporation/Carnegie Associates, as
supervised release, and ordered to pay over $2.9               representatives of the ownership entities of the HUD

Chapter 5   — Joint Efforts                                                                                       79
assisted developments Westgate Village I and II and     management agent also received kickbacks from
Carnegie Towers in Pittsburgh, PA, entered into a       vendors doing business with Erco for the awarding
settlement agreement with the Department of Justice     of contracts for repairs through a $28.6 million
wherein they agreed to pay $556,663 to avoid            contract that Erco had with the Puerto Rico Public
potential litigation under the federal False Claims     Housing Authority (PRPHA). Defendants Juan
and Anti Kickback Acts. This matter stemmed from        Irizarry-Valentin and his brother Samuel have pled
previous litigation in California involving Insignia    guilty to charges of extortion, conspiracy, and theft.
Financial Group. An investigation disclosed evi-        Irizarry-Valentin was sentenced to 21 months in
dence that over a six-year period, Insignia, as         prison and three years supervised release, while
managing agent for the three developments, re-          Valentin-Toro was sentenced to three years proba-
turned approximately 50 percent, or $1 million, in      tion.
management fees to the ownership entities as a way
for them to extract cash substantially in excess of         Defendant Federico Matthew, a former contract
what was allowed by HUD.                                employee at the PRPHA, pled guilty in federal court
                                                        to three counts of conspiracy, bribery, and violation
     The U.S. Attorney’s Office in Philadelphia,        of the Anti-Kickback Act. Matthew reviewed bid
PA, filed a 41-count superseding indictment in          documents for the PRPHA and provided information
federal court against defendant Albert R. Coccia,       to contractors to allow them to win bids. In ex-
Jr., the former owner of Arco Redevelopment             change for the bid information, Matthew received
Corporation, and a federal grand jury returned a        over $40,000 in kickbacks from the contractors and
true bill against him for the same charges. Coccia      defendant Edwin Rafael Cornier-Ortiz.
was previously indicted and charged with 39 counts
                                                            In a related case, defendant Miguel Maldonado-
of fraud, including 18 counts of wire fraud, 13
                                                        Lopez, the owner of Centrex S.E. Housing in San
counts of making false statements to obtain HUD
                                                        Juan, PR, pled guilty in federal court to paying
insured loans, and eight counts of money launder-
                                                        kickbacks to Freddy Valentin, a former Senator for
ing. The new money laundering charges were
                                                        the Commonwealth of Puerto Rico, in order to get a
imposed based on recent federal case law for this
                                                        $4.8 million contract to manage PRPHA develop-
type of activity. Coccia was a Title I contractor/
                                                        ments. Maldonado-Lopez paid Valentin $129,700 in
dealer in the Philadelphia market who originated
                                                        kickbacks to use his influence as a Senator to cause
fraudulent Title I and conventional home improve-
                                                        a contract to be awarded to Centrex, a property
ment loans. He derived more than $150,490 in
                                                        management company. Valentin was a silent partner
income as a result of his criminal activities. The
                                                        in Centrex and conspired with Maldonado-Lopez,
superseding indictment adds two additional counts
                                                        Jose Cobian, a New Progressive Party finance
of wire fraud to the original charges. Both indict-
                                                        official, and Fernando Vigil, an engineer, to ap-
ments stemmed from a multi-year investigation that
                                                        prove the contract. Defendants Cobian, Vigil, and
focused on Coccia’s predatory lending practices.
                                                        Valentin have pled guilty and have been sentenced.
Coccia has pled guilty to eight of the charges listed
in the indictment.
                                                            Defendant Arturo Paz-Guzman was sentenced
                                                        in the District of Puerto Rico in San Juan, PR, to
    Defendant Edwin Rafael Cornier-Ortiz, a
                                                        10 months imprisonment and 36 months supervised
management agent and president of Erco Enterprise,
                                                        release, and fined $10,000. On the same day,
Inc., San Juan, PR, was found guilty on seven of
                                                        defendant Andres Barbeito-Cambiella was sen-
the eight counts contained in a federal grand jury
                                                        tenced in the District of Puerto Rico to 12 months
indictment. The charges include conspiracy, bribery,
                                                        imprisonment and 36 months supervised release,
money laundering, extortion, and embezzlement.
                                                        and fined $10,000. Defendant Robert S. Prann-
Cornier-Ortiz paid Juan Irizarry-Valentin, a HUD
                                                        Laborda was also sentenced in the District of Puerto
employee in the San Juan Office, over $195,000
                                                        Rico to 9 months home confinement, 36 months
through Irizarry-Valentin’s brother, Samuel
                                                        supervised release, and fined $10,000. All three
Valentin-Toro, who was employed at Erco. The
                                                        individuals were previously indicted, along with

Chapter 5   — Joint Efforts                                                                                 80
two others, on 13 counts of money laundering and        ties at inflated prices to the unqualified buyers on
extortion. The individuals included three former        the same day. The properties were inflated an
employees of the Department of Liquidation for          average of over $15,000 each. The average loss on
CRUV (OLACRUV), the predecessor of the Puerto           each property is over $30,000 and the total loss to
Rico Public Housing Authority (PRPHA), and two          HUD is expected to be over $3.7 million. The
contractors. The OLACRUV employees conspired to         defendants included closing attorneys, real estate
pay more than $500,000 in kickbacks in exchange         brokers, mortgage brokers, loan officers, loan
for OLACRUV contracts for the renovation and            processors, title company employees, and the owner
construction of housing units at the PRPHA.             of a printing company, who created the false docu-
                                                        mentation. Nine members of this organization have
    Defendant Roni Oz, the owner of Professional        already been prosecuted, with sentences ranging
American Mortgage Institute in Miami, FL, was           from one to three years imprisonment and restitu-
sentenced in federal court to 12 months imprison-       tion to HUD of over $1.3 million.
ment and 36 months supervised release, and or-
dered to pay $94,227 in restitution to HUD. Oz              In Rapid City, SD, defendant Gerald “Jump”
previously pled guilty to one count of wire fraud.      Big Crow was sentenced in federal court to three
He was charged with submitting false documents to       years probation and ordered to pay $59,115 in
Corinthian Mortgage, an FHA approved lender, and        restitution to the Oglala Sioux Tribal Housing
causing them to wire transfer funding for a mort-       Authority. Big Crow was previously convicted of
gage. Defendant Bruce Hollander, who was a              theft from a Tribal organization. He leased a low-
closing agent, was also sentenced in federal court to   rent housing unit on the Pine Ridge Indian Reserva-
51 months imprisonment and 36 months supervised         tion and failed to pay rent.
release, and ordered to pay $469,329 in restitution,
                                                             Additionally, defendants Ted and Ramona
$443,429 of that amount to HUD. Hollander was
                                                        Pedregon pled guilty in federal court to one count
previously found guilty at a jury trial. In addition,
                                                        of theft from an Indian Tribal Organization. Ted
defendant Eric Silverman, the owner of American
                                                        was sentenced to 10 months confinement and
Redevelopment Corporation (ARC), a company that
                                                        Ramona was sentenced to two years probation.
purchased properties and sold them at inflated
                                                        They were also ordered to pay $14,888 in restitu-
prices, was sentenced in federal court to 12 months
                                                        tion. The Pedregons did not report their actual
imprisonment and 36 months supervised release,
                                                        income and family size to the Oglala Sioux Author-
and ordered to pay $642,128 in restitution,
                                                        ity from January 1995 to December 1999.
$616,228 of that amount to HUD. Silverman previ-
ously pled guilty in federal court to conspiracy to
                                                            Defendant Maxine Holley, former chairperson
commit bank fraud. He was indicted in September
                                                        of the board, Benson, NC Housing Authority, was
2001 on 13 counts of conspiring to commit wire
                                                        sentenced in federal court to six months home
fraud, submitting false statements to HUD, and
                                                        detention, two years probation and 100 hours of
money laundering. Nine other defendants have
                                                        community service, and ordered to pay $48,762 in
already pled guilty in federal court to conspiracy to
                                                        restitution and a $100 special assessment fee. In
commit wire fraud, HUD fraud, and mail fraud.
                                                        February 2002, Holley pled guilty to one count of
    These defendants were members of an organiza-       making false statements to HUD. She underreported
tion that from 1996 to 1999, conspired to fraudu-       her income as a teacher’s assistant, a North Caro-
lently originate over 125 FHA insured loans, through    lina State Magistrate, and an Assistant Sergeant at
seven banks and nine mortgage companies. They           Arms for the North Carolina State General Assem-
did this by creating false gift letters and income      bly, as well as retirement benefits she received.
information for individuals who would not other-        Holley also misrepresented the number of her
wise qualify for the loans. The loans totaled over      household members and their incomes.
$11 million. In addition, the loan amounts were
inflated as a result of flip sales from the original        In Macon, GA, defendants Lydia Faircloth, a
sellers to the defendants, who then sold the proper-    former HUD employee, Elaine Dunn, a former Real

Chapter 5 — Joint Efforts                                                                                 81
Estate Asset Manager (REAM), George Dunn, a                Defendant Elizabeth Waldon, the former chair-
REAM employee, and Michael East, a contractor,         man of the board of commissioners of the Parrish,
were sentenced in federal court. Elaine and George     AL Housing Authority, signed a pre-trial diversion
Dunn were each sentenced to three years probation,     agreement. Waldon misused the Authority’s credit
fined $1,000, and ordered to pay $19,667 in            card by charging over $13,000 worth of merchan-
restitution, for a total amount of $39,334. Lydia      dise for her personal use. She entered into the
Faircloth and Michael East were each sentenced to      agreement for 12 months and agreed to pay restitu-
three years probation and fined $500. These indi-      tion in the total amount of the fraudulent charges.
viduals were previously indicted on 29 counts of
conspiring to submit false claims to HUD, submit-           The OIG Offices of Audit and Investigation,
ting false claims to HUD, mail fraud, and perjury.     along with FBI Agents, are coordinating their efforts
The indictment alleged that from 1992 to 1996,         to identify police officers and teachers who violated
Elaine Dunn submitted invoices for work not            occupancy requirements under HUD’s Officer Next
performed or for properties no longer owned by         Door and Teacher Next Door Programs (OND/TND).
HUD. In addition, the indictment alleged that Dunn     The purpose of the OND/TND is to improve neigh-
hired East to do repair and maintenance work on        borhoods by offering homeownership opportunities
HUD owned properties. Dunn would then approve          to law enforcement officers and teachers in revital-
the fraudulent invoices and submit them to HUD for     ization areas at 50 percent of appraised value. In
payment. Faircloth would approve the fraudulent        consideration for the deep discount, the officer or
invoices or cause the invoices to be approved. HUD     teacher must agree to reside in the property for
would then issue a check to East, who would            three years. This OND/TND joint effort was initiated
deposit the payment in the bank accounts of Dunn       as a result of our nationwide audit of the OND/TND
and/or Faircloth.                                      Program (Report No. 2001-AT-0001) that found
                                                       about 21 percent of randomly selected OND/TND
    In St. Louis, MO, defendant Charles Robinson       homebuyers violated occupancy requirements.
pled guilty in federal court and was sentenced to
                                                           Our efforts are ongoing. We are performing
two years probation and fined $500 for making false
                                                       detailed examinations of more than 500 cases. To
statements to HUD. Robinson stipulated that while
                                                       date, we have documented 43 officers and 13
employed as a loan officer for The Loan Store, Inc.,
                                                       teachers in violation of occupancy requirements. In
he obtained false income documentation and know-
                                                       five of the identified violations, the OND/TND
ingly submitted the false documentation, along with
                                                       homes remained vacant, appearing to have been
a false Social Security number, to HUD in order to
                                                       purchased as investments rather than as residences.
qualify a client for a $66,618 FHA insured loan.
                                                       In at least six of the identified violations, officers or
Another defendant, Alicia Payne, was charged in
                                                       teachers sought personal profit by renting their
federal court with wire fraud for obtaining approxi-
                                                       OND/TND homes while living elsewhere. We are
mately $300,000 in loans brokered through The
                                                       referring violations for possible prosecution by
Loan Store, Inc.
                                                       U.S. Attorneys or administrative action by HUD
                                                       program officials. At the conclusion of our work,
    Defendant Andrew Gusty, a former president of
                                                       OIG Regional Offices will convey the results to HUD
the Stony River, AK Traditional Council, was
                                                       Regional Officials by memorandum. Eliminating
found guilty at a bench trial of one count of em-
                                                       abuses under the OND/TND Program is important to
bezzlement and theft from an Indian Tribal organi-
                                                       achieving HUD’s goal of strengthening distressed
zation. Defendant Mary Macar, a former treasurer
                                                       communities by encouraging officers and teachers
of the Council, previously pled guilty to the same
                                                       to purchase homes and live in those communities.
charge. The two defendants withdrew Stony River
                                                       (Report No. 2002-KC-0801)
housing project funds from the bank and used the
funds for their own benefit.




Chapter 5   — Joint Efforts                                                                                   82
      Chapter 6            —   Regulations, Handbooks and Other Directives
    Making recommendations on legislation,                 procedures for counting the number of low-income
regulations, and policy issues is a critical part of the   units in the PHA inventory to assure no units are
OIG’s responsibilities under the Inspector General         developed in excess of the number in inventory at
Act. During this 6-month reporting period, the OIG         October 1999, as required by the Quality Housing
reviewed 124 HUD regulations and directives. To            and Work Responsibility Act. Units developed in
accomplish this mission, we are engaging program           excess of the number in the inventory at October
managers at an early stage based on a shared               1999 are not eligible for subsidy. Without this
commitment to improve program operations and               procedure in place, the PHAs are reluctant to de-
effectiveness. Often this collaboration results in our     velop replacement units because they may not be
recommendations being implemented at an early              eligible for subsidy.
stage in the clearance process that can expedite the
                                                               HUD’s Office of Public and Indian Housing
issuance process. This Chapter highlights some of
                                                           (PIH) decided not to include regulations associated
the more significant changes to proposed issuances
                                                           with other requirements in the homeownership
made as a result of OIG recommendations.
                                                           regulation. Instead, PIH will revise the rule for the
                                                           capital fund to provide procedures for the unit
Regulations                                                counts and for the agency plan to provide for
                                                           disposition procedures when these regulations are
Housing Choice Voucher Program                             revised.
Homeownership Option: Eligibility of PHA
Owned or Controlled Units                                  Prohibition of Property Flipping in HUD’s
     This interim rule provides that properties owned      Single Family Mortgage Insurance
or controlled by a public housing agency (PHA) are         Programs
eligible for purchase under the Housing Choice                 This final rule addresses property “flipping,”
Voucher Program Homeownership Option. Essen-               an abusive practice whereby a property recently
tially, HUD’s interim rule has increased significantly     acquired is resold with FHA financing at an exces-
the likelihood that an individual with a voucher can       sive profit based on an inflated appraisal of the
purchase an affordable house by increasing the             home’s value. The property “flip” is often abetted
supply of low-priced units. The interim rule would         by collusion between the sellers, loan officers,
also establish procedures to remove any potential          appraisers, and real estate agents, who share in the
conflicts of interest where the PHA is also the seller.    profiteering. When implemented, the rule will
Specifically, the interim rule would provide that an       establish new requirements to prevent abusive
independent entity must perform certain administra-        property flipping and protect innocent borrowers,
tive duties for which the PHA would normally be            especially first-time purchasers, from becoming
responsible. These provisions are modeled on the           victims of this predatory activity.
conflict of interest requirements for PHA owned
units in the Voucher Program.                                  We provided recommendations, and the Depart-
                                                           ment concurred, that would help strengthen the rule
    We did not concur with this interim rule be-           by ensuring that the enforcement burden is at a level
cause it did not result in the publication of revisions    that could reasonably be implemented by HUD. The
to the rules associated with the interim rule at the       recommendations included discretion for HUD staff
same time that the homeownership regulations are           in determining when the resale price of a property
published. Specifically, the interim rule did not          warrants additional documentation to support the
provide requirements for revising the annual plan          valuation, and exclusion of properties with a low
submission to incorporate the policy and procedures        resale price, and therefore a low dollar mark-up.
for selling a unit to an individual with a Section 8       The final rule had not been issued at the close of
voucher. Further, the interim rule did not provide         the semiannual reporting period.

Chapter 6 — Regulations, Handbooks and Other Directives                                                        83
Handbooks                                                 structions cannot allow grantees to incur any cost
                                                          until point of obligation.
HUD Electronic Mail Policy                                    We recommended that HUD obtain clarification
    This proposed Handbook change would revise            from OMB on the handling of multi-year contracts
policy for using HUD’s standard electronic mail           and funding sources as these issues are not ad-
system, which established an automated timetable          dressed by OMB Circular A-34. Also, the grant
for regularly purging the production mail system of       agreements or contracts need to clearly identify the
“outdated” mail documents.                                multi-year source and year of funds being obligated.
                                                          This would include being specifically identified in
    We commented on the proposed changes to HUD           the Notice of Fund Availability, award letters, and
Handbook 2400.1 REV-1 IRM policies because                final grant or contract.
HUD failed to obtain disposition authority to delete
electronic mail from the U.S. National Archives               Also, we recommended that any ADA violation
and Records Administration (NARA). We pursued             review by HUD should include the assistance of the
this issue because it is important for HUD to safe-       Office of General Counsel to identify if actions on
guard against the destruction of any agency records       the part of HUD officials created a legal obligation
that have not been authorized for disposal by the         prior to the point of obligation established by the
Archivist of the United States in accordance with         program offices and the Chief Financial Officer. All
Section 3301-3314 of Title 44. As a result of HUD         ADA reviews need to be performed by staff who
not obtaining this applicable disposition authority,      have no real or apparent conflict of interest in the
we notified the Office of Administration’s Record         review. The reviewers should report to the Deputy
and Directives Branch of this weakness; they were         Secretary to avoid any undue influence from the
in agreement that NARA approval should be ob-             program offices.
tained.                                                       Our recommendations are being considered for
    The Office of the Chief Information Officer           inclusion in the revised ADA violation procedures.
agreed with our comments and has incorporated
these changes into the revised Handbook. The
Handbook had not yet been published at the close
of this semiannual reporting period.

Other Directives
    The Departmental procedures for responding to
Anti-Deficiency Act (ADA) violations and actions
for preventing ADA violations were being revised
because existing procedures were not adequate for
preventing or acting upon ADA violations.
    We made several comments on the proposed
procedures to clarify the requirements for obligating
funds and dealing with possible violations. We
recommended the procedures mention that the
required notice of fund awards in the Federal
Register, in accordance with the HUD Reform Act,
cannot be published until after point of obligation.
Also important to note was that grant obligations
cannot be entered into the HUD accounting system
without the documents identifying the point of
obligations. Moreover, award letters or other in-

Chapter 6 — Regulations, Handbooks and Other Directives                                                        84
                               Chapter 7          —     Audit Resolution
    In the audit resolution process, the OIG and HUD        FHA’s  information technology systems to more
management come to an agreement as to the needed            effectively support its business processes; and (2)
actions and timeframes for resolving audit recom-           improve FHA’s controls over budget execution and
mendations. Through this process, we hope to                funds control. Corrective action plans to resolve
achieve measurable improvements in HUD programs             these issues have continued to change over the last
and operations. The overall responsibility for              decade.
assuring that the agreed upon changes are imple-
mented rests with HUD managers. This Chapter                Audits of FHA’s FY 1991 through 2001
describes some of the more significant pending              Financial Statements
issues where resolution action has been delayed,
where a management decision has been revised, or                First issued March 27, 1992. FHA has been
where OIG disagrees with a final management                 preparing financial statements for 11 years under the
decision. It also contains a status report on HUD’s         Chief Financial Officers Act, beginning with FY
implementation of the Federal Financial Manage-             1991. The audit of FHA’s FY 2001 financial state-
ment Improvement Act of 1996. In addition to this           ments discussed problems similar to those that have
Chapter on audit resolution, see Appendix 2, Table          been reported since the audit of FHA’s FY 1991
A, “Audit Reports Issued Prior to Start of Period           financial statements. The audit continues to recog-
With No Management Decision at 9/30/02,” and                nize that FHA needs to: (1) improve its information
Table B, “Significant Audit Reports Described in            technology (primarily accounting and financial
Previous Semiannual Reports Where Final Action              management systems) to more effectively support
Had Not Been Completed as of 9/30/02.”                      FHA’s business processes; (2) place more emphasis
                                                            on early warning and loss prevention for single
Delayed Actions                                             family insured mortgages; and (3) monitor and
                                                            account for its single family property inventory. A
Audits of HUD’s FY 1991 through 2001                        weakness reported since the FY 1992 financial
                                                            statement audit relates to the need for FHA to
Financial Statements                                        enhance the design and operation of information
    First issued June 30, 1992. HUD has been                systems’ general and application level security
preparing financial statements under the require-           controls. This weakness was expanded in FYs 1999
ments of the Chief Financial Officers Act for 11            and 2000 to include improvements needed in FHA’s
fiscal years, beginning with Fiscal Year (FY) 1991.         data integrity. FHA did resolve a material weakness
Various internal control weaknesses have been               in FY 2001 and part or all of three reportable
reported in these audits. In our most recent audit          conditions. In addition, the FY 2001 audit identified
effort for FY 2001, we were able to express an              a material weakness in internal controls relating to
unqualified opinion on HUD’s principal financial            the need to improve FHA’s controls over budget
statements.                                                 execution and funds control. FHA’s latest action
                                                            plan continues to report efforts toward resolving
    The results of our FY 2001 report on internal           these long-standing issues. The FY 2002 financial
controls were consistent with results reported in           statement audit will assess FHA’s accomplishments
Semiannual Reports from prior years. While there            in correcting these conditions.
has been progress, material weaknesses continue
with respect to the need to: (1) complete improve-
ments to financial systems; (2) ensure that subsidies
                                                            Empowerment Zone Program, Cities of
are based on correct tenant income; and (3) im-             Chicago, Philadelphia, and Atlanta
prove monitoring of housing subsidy determina-                 Issued September 28, 1998, September 30,
tions. In addition, our report also includes two            1998, and October 15, 1998. Audits of the Cities of
material weaknesses about the need to: (1) enhance          Chicago, IL, Philadelphia, PA, and Atlanta, GA,

Chapter 7 — Audit Resolution                                                                                  85
 found that the Cities used empowerment zone funds       subgrantees. The subgrantees operated a commu-
 inappropriately. The questioned amounts totaled         nity based program which provided business train-
 over $2 million for the three Cities. The unique        ing and incubator space for the benefit of low- and
 nature of the Empowerment Zone Program, autho-          moderate-income residents. The training component
 rized by the Omnibus Budget Reconciliation Act of       included businesses outside of the grantee’s City
 1993, provided HUD the authority to oversee the         limits. However, the City could not provide docu-
 program, but provided funding through tax credits       mentation to support the number of jobs for low-
 and Social Services Block Grant funds from the          and moderate-income persons created or retained,
 Department of Health and Human Services (HHS).          or document future benefits accruing to its resi-
 HHS has responsibilities for resolving questions        dents. We recommended that HUD require the
 concerning the permissible use of zone funds.           grantee to submit documentation of job creation and
                                                         retention activities or return any unsupported
     In 1999, HUD management agreed with our
                                                         amounts to its letter of credit, from non-federal
 findings and promised to have the Cities repay, by
                                                         funds. In December 1999, the Los Angeles Office
 June 2000, program funds spent inappropriately.
                                                         of CPD agreed with our recommendations and
 HUD, however, did not take corrective actions
                                                         agreed to complete actions by October 31, 2000.
 timely. In February 2000, HUD’s Community
 Planning and Development (CPD) Comptroller                   In November 2000, the Los Angeles Office of
 started taking corrective actions and planned to have   CPD requested revised management decisions,
 the outstanding recommendations closed by July          because the City’s program benefited low- and
 2001. In July 2001, the CPD Comptroller requested       moderate-income persons. Therefore, it would not
 that HHS decide whether the Cities’ use of zaone        be necessary for the City to repay the program. We
 funds to provide services to non-zone residents was     disagreed with the Los Angeles Office of CPD and
 an eligible use of funds. If HHS decides that the       referred the matter to the Acting General Deputy
 Cities used zone funds improperly, HUD plans to         Assistant Secretary for CPD for decision in February
 execute a repayment agreement with the Cities           2001. In July 2001, the CPD Comptroller agreed
 requiring repayment within two to three years. At       with OIG’s position and the Los Angeles Office of
 present, HHS has not responded to the                   CPD advised the City to reimburse about $732,000
 Comptroller’s request.                                  to its line of credit. A demand for repayment was
                                                         sent to the City in February 2002. During the last
     On September 10, 2002, the Deputy Assistant
                                                         six months, CPD and the Office of General Counsel
 Secretary for Operations, CPD, sent a letter to HHS’
                                                         requested additional information from the City. The
 Director of Community Services outlining the
                                                         City did not provide any new information. Accord-
 outstanding issues relating to OIG Empowerment
                                                         ingly, HUD has decided to pursue legal action.
 Zone audit reports. CPD requested HHS’ decision on
                                                         (Report No. 1999-SF-1003)
 the eligibility of the questioned costs for which the
 OIG recommended repayment. The letter also
 included HUD’s suggestions for resolving the
 outstanding issues. HUD has no control over HHS’        Revised Management Decisions
 actions, but will continue to pursue these issues
                                                             Section 5(a) (11) of the Inspector General Act,
 until they are resolved. (Report Nos. 1998-CH-
                                                         as amended, requires that the OIG report informa-
 1005, 1998-CH-1006, and 1999-CH-1002)
                                                         tion concerning the reasons for any significant
                                                         revised management decision made during the
 City of Lynwood, CA, Community                          reporting period. During the current reporting
 Development Block Grant (CDBG)                          period, there were significant revised management
 Program                                                 decisions on four audits.
     Issued August 19, 1999. The City of Lynwood
 could not demonstrate its compliance with CDBG
 requirements for activities administered by

Chapter 7 — Audit Resolution                                                                              86
Housing Authority of New Orleans                         Housing and Community Development Act. The
(HANO)                                                   project was intended to meet the national objective
                                                         of “benefiting low- and moderate-income persons
    Issued June 29, 1994. HANO split one contract        with an eligible activity of job creation.” The audit
into three contracts, resulting in their spending        found that the City created no jobs for low- and
more money than necessary and in unnecessary             moderate-income persons. In January 2000, HUD
expenditures totaling $430,512. In April 2002, the       agreed with our recommendation and indicated that
Assistant Secretary for Public and Indian Housing        the City would need to demonstrate that the activity
requested our concurrence in revising the original       met another national objective or repay the amount
management decision that required repayment of           of ineligible assistance. Actions were to be com-
unnecessary expenditures. Rather than HANO’s             pleted by January 2001.
repaying the amount from non-federal funds, the
                                                             Subsequently, the City changed the national
Assistant Secretary requested that amounts due be
                                                         objective to “an activity to aid in the prevention or
forgiven because: (1) HANO did not have the re-
                                                         elimination of slums or blight.” However, the City
sources available to repay the funds; (2) the Depart-
                                                         did not produce documentation to support that the
ment has taken over HANO through an administra-
                                                         area of the activity was deteriorating, was declared
tive receivership; and (3) the Assistant Secretary is
                                                         a slum or blighted area, or that there were condi-
confident that HUD will monitor HANO closely to
                                                         tions existing in the building that would qualify it as
avoid similar findings in the future. In June 2002,
                                                         “spot blight.” Nonetheless, in March 2001, the
we agreed with the revised management decision.
                                                         Office of CPD advised that they considered the
(Report No. 94-FW-201-1005)
                                                         project to meet the national objective of prevention
                                                         or elimination of slums or blight and subsequently
    Issued January 19, 2000. The audit concluded
                                                         the Assistant Secretary for CPD affirmed this posi-
that Anderson Consulting and HANO’s Executive
                                                         tion.
Monitor, an official from Tulane University, vio-
lated federal regulations in obtaining the services of       The OIG believes it is inappropriate to change a
Moten & Associates. Further, the audit concluded         national objective once an objective has been
that Tulane had paid Moten & Associates $421,760         selected and funds expended. A St. Louis Develop-
in unsupported labor. In April 2002, the Assistant       ment Corporation Resolution stated that the purpose
Secretary for Public and Indian Housing requested        of the grant was to reimburse the Union Pacific
our concurrence in revising the original manage-         Railroad for past expenditures. Since this was a
ment decision that required repayment of unsup-          reimbursement for past expenditures, the City
ported amounts. Rather than HANO’s repaying the          should have known whether or not jobs were
unsupported amount, the Assistant Secretary              actually created for low- and moderate-income
requested that amounts due be forgiven because: (1)      employees, and therefore, whether the national
HANO did not have the resources available to repay       objective was met.
the funds; (2) the Department has taken over HANO
through an administrative receivership; and (3) the          Because OIG and CPD could not agree on an
Assistant Secretary is confident that HUD will           appropriate course of action, OIG, in March 2002,
monitor HANO closely to avoid similar findings in        referred the matter to the Deputy Secretary for final
the future. In June 2002, we agreed with the revised     decision. On May 1, 2002, OIG met with the
management decision. (Report No. 00-FW-201-              Deputy Secretary to discuss the disagreement. The
1001)                                                    Deputy Secretary made the final management
                                                         decision that the current directives do not prevent
                                                         the changing of national objectives once an objec-
CDBG Program, City of St. Louis, MO                      tive has been selected and funds expended. He did
   Issued September 28, 1999. A special economic         not believe repayment of funds by the City was
development activity totaling approximately              appropriate. (Report No. 1999-KC-1002)
$700,000 did not meet a national objective of the


Chapter 7 — Audit Resolution                                                                                 87
Storefront Operations                                  Review of Alleged Violations of the Anti-
    Issued March 30, 2000. A nationwide audit of       Deficiency Act and the HUD Reform Act
HUD’s Storefront Operations found that HUD had         by the Office of Multifamily Housing
spent millions of federal funds and used its limited   Assistance Restructuring
resources to implement a new outreach and cus-
tomer-relations initiative, but could not assure           Issued March 22, 2002. In response to Con-
taxpayers that they were receiving the maximum         gressional and Departmental requests, the OIG
return for their investment. HUD opened new            reviewed alleged violations of the Anti-Deficiency
storefront offices to serve as national models for     and HUD Reform Acts in awarding Section 514
more responsive government; however, their impact      Technical Assistance Grants by the Office of Multi-
was minimal and overall benefits could not be          family Housing Assistance Restructuring (OMHAR).
measured.                                              We concluded that HUD did not violate the Anti-
                                                       Deficiency Act in awarding the grants for FYs 1998
    The audit included a number of recommenda-         through 2001. However, HUD did not fully comply
tions for improving the Department’s implementa-       with the HUD Reform Act because they did not
tion and management controls over the initiative.      publish the required notifications in the Federal
HUD agreed to take actions to address our recom-       Register identifying the grantees and award
mendations, resulting in management decisions in       amounts. The audit recommended that: (1) HUD’s
August 2000.                                           Chief Financial Officer adjust HUD’s accounting
    In April 2002, the Director, Office of Depart-     records for Section 514 Technical Assistance Grants
mental Operations and Coordination, requested our      to address prior year errors; and (2) the Assistant
concurrence in revising the previous management        Secretary for Housing take appropriate actions to
decisions for implementing the recommendations.        ensure future grants are timely awarded and prop-
The revisions were necessary because the new           erly recorded in HUD’s accounting system.
Administration changed the Department’s focus,             On September 30, 2002, the Deputy Secretary
including the structure and operations of HUD’s        made final management decisions on the recom-
field offices. On August 12, 2002, we concurred        mended actions. The Deputy Secretary advised that
with the request to revise the management decisions    the Secretary concluded that an Anti-Deficiency Act
since the Department has no plans to continue          violation had occurred and, in accordance with
Storefront Operations. Therefore, no further correc-   Section 1517 of Title 31 of the United States Code,
tive actions are needed. (Report No. 2000-AO-          notified the President, the Director of the Office of
0001)                                                  Management and Budget (OMB), the President of
                                                       the Senate, and the Speaker of the House of Repre-
                                                       sentatives.
Significant Management                                     We disagree with this determination and stand
Decision With Which the OIG                            by the conclusion in our March 22, 2002 report.
                                                       Our conclusion was based on thorough analyses of
Disagrees                                              Comptroller General precedent and HUD’s own
                                                       policy in effect at the time. We applied these analy-
    Section 5(a)(12) of the Inspector General Act,
                                                       ses in determining the events necessary to establish
as amended, requires that the OIG report informa-
                                                       the dates at which time HUD incurred legally
tion concerning any significant management deci-
                                                       binding obligations with respect to the award of the
sion with which the OIG is in disagreement. During
                                                       Section 514 Technical Assistance Grants. In con-
the current reporting period, there was one signifi-
                                                       trast, the Secretary made his determination without
cant management decision with which we dis-
                                                       providing any comparable legal analysis nor did the
agreed.
                                                       Department provide any Comptroller General
                                                       precedent that would refute our legal conclusions.
                                                       Indeed, a July 16, 2002 memorandum to the

Chapter 7 — Audit Resolution                                                                             88
Deputy Secretary from the General Counsel advised        increased from the 11 reported at the end of FY
that they had conducted a legal review and con-          2000 because nine systems that were previously
curred with the OIG that violations of the Anti-         assessed as conforming were reclassified as non-
Deficiency Act did not occur. Further, OIG’s audit       conforming systems. HUD also discontinued two
report and the General Counsel’s opinion were not        systems and corrected deficiencies in one non-
attached to the Secretary’s letters to the President,    conforming system. Our audit of HUD’s FY 2001
the OMB Director, the President of the Senate, and       financial statements cites additional financial
the Speaker of the House of Representatives. OMB         management system weaknesses, which we reported
Circular A-34, Section 40, “Requirements for             as reasons for the Department’s FFMIA noncompli-
Reporting Anti-Deficiency Act Violations,” explic-       ance. These include noncompliance with: (1)
itly requires the inclusion of “…any germane report      federal financial management systems requirements;
by the agency’s Inspector General and/or the             (2) federal accounting standards; and (3) the stan-
agency’s counsel.”                                       dard general ledger at the transaction level. HUD
                                                         has submitted plans to OMB to correct material
    Notwithstanding our disagreement as to whether
                                                         system weaknesses with a target completion date of
an Anti-Deficiency Act violation occurred, the
                                                         December 31, 2005.
Deputy Secretary did agree with our recommenda-
tion to revise the Department’s grant award and
funds control policies and procedures. In our March
22, 2002 report, we concluded that weaknesses in
HUD’s management controls resulted in errors in the
award of the Section 514 Technical Assistance
Grants. These errors, as well as management
decisions that unnecessarily limited the period of
funds availability, led to the appearance of potential
violations of the Anti-Deficiency Act. (Report No.
2002-DE-0801)



Federal Financial Management
Improvement Act of 1996
(FFMIA)
    FFMIA requires that HUD implement a
remediation plan that will bring financial systems
into compliance with federal financial system
requirements within three years or obtain the Office
of Management and Budget’s (OMB) concurrence if
more time is needed. FFMIA requires us to report,
in our Semiannual Reports to the Congress, in-
stances and reasons when an agency has not met the
intermediate target dates established in the
remediation plan required by FFMIA. In April 1998,
HUD determined that 38 of its systems were not in
substantial compliance with FFMIA. At the end of
FY 2001, the Department reported that 17 systems
were not in substantial compliance with FFMIA. The
number of reported non-conforming systems was


Chapter 7 — Audit Resolution                                                                              89
           Report fraud, waste and mismanagement in HUD
                       programs and operations by:

Calling the OIG Hotline:                              Sending written information to:
                                                             OIG Hotline
    1-800-347-3735          Nationwide                       Office of Investigation
    1-202-708-4200          in the DC area                   400 Virginia Ave., SW., Suite 120
    1-800-304-9597          by TDD                           1-800-304-9597 by TDD
    1-202-708-4829          by fax                           1-202-708-4829 by fax

                                   send email to: hotline@hudoig.gov



              or contacting your local HUD OIG District Office:

 New England District                   Southeast/Caribbean District           Great Plains District
 Thomas P. O’Neill, Jr. Building        Richard B. Russell Federal Building    Gateway Tower II
 10 Causeway St.                        75 Spring St., SW                      400 State Ave.
 Boston, MA 02222-1092                  Atlanta, GA 30303-3388                 Kansas City, KS 66101-2406
 Tele: 617-565-5293                     Tele: 404-331-3359                     Tele: 913-551-5866
 fax: 617-565-6916                      fax: 404-331-1243                      fax: 913-551-5496
 States: CT, MA, ME, NH, RI, VT         States: AL, FL, GA, KY, MS, NC, SC,    States: IA, KS, MO, NE
                                                TN, and Puerto Rico

 New York/New Jersey District           Midwest District                       Rocky Mountains District
 26 Federal Plaza, Room 3437            Ralph Metcalfe Federal Building        Denver Federal Center, Bldg.16
 New York, NY 10278-0068                77 W. Jackson Boulevard, Suite 2646    P.O. Box 25327
 Tele: 212-264-8062                     Chicago, IL 60604-3507                 Denver, CO 80225-0327
 fax: 212-264-4933                      Tele: 312-353-4196                     Tele: 303-236-1450
 States: NJ, NY                         fax: 312-353-3188                      fax: 303-236-1456
                                        States: IL, IN, MI, MN, OH, WI         States: CO, MT, ND, SD, UT, WY

 Mid-Atlantic District                  Southwest District                     Pacific/Hawaii District
 The Wanamaker Building                 819 Taylor St., 13A09                  Phillip Burton Federal Building &
 100 Penn Square East                   Ft. Worth, TX 76102                    Courthouse
 Philadelphia, PA 19107-3390            Tele: 817-978-9310                     450 Golden Gate Blvd., Room 8-5139
 Tele: 215-656-3410                     fax: 817-978-9373                      San Francisco, CA 94102-3448
 fax: 215-656-3409                      States: AR, LA, NM, OK, TX             Tele: 415-436-8108
 States: DE, MD, PA, VA, WV, and                                               fax: 415-436-8114
         Washington, DC                                                        States: AZ, CA, HI, NV

                                                                               Northwest/Alaska District
                                                                               Seattle Federal Office Building
                                                                               909 1st Ave., Suite 125
       All information is confidential and you                                 Seattle, WA 98104-1000
                                                                               Tele: 206-220-5380
               may remain anonymous.                                           fax: 206-220-5160
                                                                               States: AK, ID, OR, WA
                                                         U.S. Department of Housing
Semiannual Report to Congress




                                                          and Urban Development
as of September 30, 2002

www.hud.gov/oig/oigindex.html




                           In remembrance.
                                     9/11/01 — 9/11/02




No. 48              HUD-2002-24-IG
U.S. Department of Housing and Urban Development
Office of Inspector General
Semiannual Report to Congress for the period
4/1/02 through 9/30/02




                                            Appendices
                         APPENDIX 1 - AUDIT REPORTS ISSUED
                                                       FOR THE PERIOD
                                     APRIL 1, 2002     THROUGH SEPTEMBER         30, 2002

                                                              Internal Reports
 Single Family                                                        Audit Reports

2002-PH-0002     Single Family Sales to Owner-Occupant Purchasers, 6/10/02.
2002-SE-0001     Follow-up on Down Payment Assistance Programs Operated by Private Nonprofit Entities, 09/25/02.

  Multifamily

2002-KC-0002     HUD’s Office of Housing Section 232 Nursing Home Program (Nationwide Survey), 7/31/02.


      PIH

2002-AO-0001     Grants Management Center’s Operations, 7/12/02.
2002-PH-0001     HUD’s Utlization of the Public Housing Assessment System (Multi-location reviews), 5/23/02.

 Miscellaneous

2002-DP-0001     HUD Network Security Assessment, 7/11/02.
2002-DP-0002     Review of Departmental IT Security Plans, 9/27/02.


 Single Family                                                  Audit Memoranda

2002-KC-0801     Officer/Teacher Next Door Occupancy Violations (Region 7), 5/29/02.

  Multifamily

2002-FW-0801     Annual Audited Financial Statements Completed by George Baugh III & Company, Houston, TX, 5/31/02.
2002-SE-0802     Foreclosure Sale of the Rose Pointe Retirement Community, Ft. Worth, TX Property Disposition Center, 5/16/02.

                                                                2
                                                                                                                           APPENDIX 1

                                                   Internal Reports - continued
  Multifamily                                           Audit Memoranda - continued

2002-SE-0803    HUD’s Approval of a Section 232 Project J.A.M. Davis Incorporated, dba, Loganhurst Health Care, Spokane, WA,
                  9/30/02.
      PIH

2002-AO-0801    Bridges Over Troubled Waters Cooperative Agreement awarded to the International Faith Community Information and
                    Services Clearinghouse and Training Center, Washington, DC, 4/5/02. Questioned: $15,734; Unsupported: $15,734.
2002-SE-0801    Staffing Resources of the Real Estate Assessment Center’s Tenant Assessment Subsystem, Seattle, WA, 4/23/02.


      CPD

2002-SF-0801    HOME Investment Partnerships Program, 7/31/02.
2002-DP-0801    HUD’s Multi-Year Information Technology Plan, 5/1/02. Better Use: $5,800,000.


                                                             External Reports
  Multifamily                                                      Audit Reports

2002-AT-1001    Magnolia Lane Apartments Project Management Operations, Conway, SC, 6/05/02. Questioned: $185,129;
                   Unsupported: $3,207.
2002-AT-1004    Ashley Crossings Apartment Homes, Largo, FL, 9/26/02. Questioned: $324,478.
2002-AT-1005    North Carolina Low-Income Housing Coalition, Inc., Raleigh, NC, Outreach and Technical Assistance Grants and Interme-
                   diary Technical Assistance Grants, 9/27/02. Questioned: $136,818; Unsupported: $73,361.
2002-AT-1006    Ridgeview Manor Apartments, Hopkins, SC, 9/30/02. Questioned: $325,362; Unsupported: $50,833.
2002-BO-1004    Anti-Displacement Project, Springfield, MA, Outreach and Training Assistance Grant, 9/30/02. Questioned: $44,344.
2002-BO-1006    People to End Homelessness, Providence, RI, Outreach and Training Assistance Grant (Interim Report), 9/30/02.
2002-DE-1002    Affordable Housing and Homeless Alliance, Honolulu, HI, Outreach and Training Assistance Grant and Intermediary
                   Outreach and Technical Assistance Grants, 9/30/02. Questioned: $16,867; Unsupported: $4,388.
2002-DE-1004    Housing Advocacy Coalition, Colorado Springs, CO, Outreach and Training Assistance Grant, 8/26/02. Questioned: 2,897;
                   Unsupported: $9,070.


                                                               3
                                                                                                                            APPENDIX 1

                                                   External Reports - continued
  Multifamily                                              Audit Reports - continued

2002-DE-1005    Crossroads Urban Center, Salt Lake City, UT, Outreach and Training Assistance Grants, 9/25/02. Questioned: $38,000;
                    Unsupported: $23,600.
2002-FW-1003    New Mexico Public Interest Education Fund, Albuquerque, NM, Outreach and Training Assistance Grants and Public
                    Entity Grant, 9/30/02. Questioned: $19,495; Unsupported: $5,012.
2002-KC-1002    Housing & Credit Counseling, Inc., Topeka, KS, Outreach and Training Assistance Grant, 9/19/02.
2002-KC-1003    Iowa Coalition for Housing and the Homeless, Des Moines, IA, Outreach and Technical Assistance Grant, 9/19/02.
                    Questioned: $4,945.
2002-NY-1004    Ironbound Community Corporation, Newark, NJ, Outreach and Technical Assistance Grant and Public Entity Grant,
                    9/23/02. Questioned: $18,600; Unsupported: $18,600.
2002-NY-1005    Legal Aid Society, New York, NY, Outreach and Technical Assistance Grants and Public Entity Grant, 9/23/02.
                    Questioned: $19,882; Unsupported: $7,822.
2002-PH-1002    Virginia Poverty Law Center, Richmond, VA, Outreach and Training Assistance Grant, 9/30/02. Questioned: $75,000;
                    Unsupported: $75,000.
2002-PH-1003    Delaware Housing Coalition, Dover, DE, Outreach and Training Assistance Grant and Intermediary Technical Assistance
                    Grants, 9/30/02. Questioned: $77,518; Unsupported: $55,965.
2002-PH-1004    Tenants’ Action Group of Philadelphia, PA, Outreach and Training Assistance Grant, 9/30/02. Questioned: $146,988;
                    Unsupported: $133,269.
2002-PH-1005    Philadelphia Regional Alliance of HUD Tenants, Philadelphia, PA, Outreach and Training Assistance Grant and Intermedi-
                    ary Outreach and Technical Assistance Grant, 9/30/02. Questioned: $84,172; Unsupported: $60,750.
2002-PH-1006    Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant, 9/30/02.
                    Questioned: $116,778; Unsupported: $113,580.
2002-PH-1007    Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant, 9/30/02.
                    Questioned: $159,999; Unsupported: $158,955.
2002-SF-1001    Casa De Vallejo, CA, Multifamily Senior Housing Project, 9/4/02. Questioned: $119,079; Unsupported: $8,263.
2002-SF-1004    Low-Income Housing Fund, Oakland, CA, Intermediary Technical Assistance Grants, 9/30/02.
                    Questioned: $249,073; Unsupported: $249,073.
2002-SF-1005    Housing Rights Committee of San Francisco/Tides Center, San Francisco, CA, Outreach and Training Assistance Grants,
                    9/26/02. Questioned: $4,114; Unsupported: $4,114.
2002-SF-1006    Legal Aid Society of Honolulu HI, Outreach and Training Assistance Grant, 9/30/02. Questioned: $17,312;
                    Unsupported: $17,312.
2002-SF-1007    Southern Arizona People’s Law Center, Tucson, AZ, Outreach and Training Assistance Grant, 9/30/02.
                    Questioned: 9,540; Unsupported: $19,686.

                                                                4
                                                                                                                              APPENDIX 1

                                                    External Reports - continued
      PIH                                                   Audit Reports - continued

2002-AT-1002    City of Tupelo, MS Housing Authority, Housing Programs Operations, 7/3/02. Questioned: $1,353,368;
                   Unsupported: $625,209.
2002-BO-1003    Newport, RI Resident Council, Inc. 4/30/02. Questioned: $42,887.
2002-BO-1005    Chelsea, MA Housing Authority, 9/30/02. Questioned: $465,644; Unsupported: $119,156.
                Houma, LA Housing Authority, Low-Rent Housing Program, Cash & Procurement Controls, 9/18/02.
2002-FW-1002        Questioned $504,880; Unsupported: $247,852.
                Oakland, CA Housing Authority, Rehabilitation of the 49th Street Housing Development, 9/17/02. Questioned: $105,201;
2002-SF-1002        Unsupported: $92,901.

      CPD

2002-AT-1003    National Scholarship Service and Veteran’s Opportunity and Resource Center, Atlanta, GA, Supportive Housing Program
                    Grant, 7/25/02. Questioned: $506,584; Unsupported: $313,811.
2002-NY-1002    Hudson County Division of Community Development, Jersey City, NJ, CPD Programs, 4/15/02. Questioned: $1,081,105;
                    Unsupported: $1,063,625; Better Use: $126,173.
2002-NY-1003    City of Utica, NY Community Planning and Development Programs, 9/5/02. Questioned: $1,371,707;
                    Unsupported: $1,371,707; Better Use: $250,000.
2002-SF-1003    Los Angeles, CA Community Development Bank, Economic Development Initiative Grant, 9/25/02.
                    Questioned: $2,673,096; Unsupported: $2,628,446; Better Use: $6,320,465.

  Multifamily                                                   Audit Memoranda

2002-AT-1808    Homeless and Housing Coalition of Kentucky, Inc., Frankfort, KY, Outreach and Technical Assistance Grants, 9/20/02.
                    Questioned: $70,912; Unsupported: $54,625.
2002-AT-1809    Florida Housing Coalition, Inc., Tallahassee, FL, Outreach and Technical Assistance Grants and Intermediary Technical
2002-BO-1802        Assistance Grants, 9/27/02.
2002-CH-1803    Affordability Housing Coalition, Boston, MA, Outreach and Training Assistance Grants, 8/29/02.
2002-CH-1804    HOME Line, Minneapolis, MN, Section 514 Outreach and Technical Assistance Grant, 9/24/02.
2002-DE-1802    Coalition Homelessness & Housing, Columbus, OH, Section 514 Outreach and Training Assistance Grants, 9/24/02.
2002-DE-1804    Pikes Peak Towers, Colorado Springs, CO, Section 202/Direct Loan for Elderly Housing, 5/10/02.


                                                                 5
                                                                                                                         APPENDIX 1

                                                  External Reports - continued
  Multifamily                                          Audit Memoranda - continued

2002-DE-1805    Tamarack Property Management Company, Billings, MT, Multifamily Management Agent, 7/26/02.
2002-FW-1803    Cox and Associates, Washington, DC, Section 514 Outreach and Technical Assistance Training Contract, 8/21/02.
2002-FW-1805    Apache Trace Apartments, Guymon, OK, Cost Certification Review, 6/3/02. Questioned: $16,006.
2002-KC-1802    Texas Tenant’s Union, Inc., Dallas, TX, Outreach & Training Assistance Grants and Public Entity Grant, 8/21/02.
2002-NY-1803    Golden Oaks Apartments, Kansas City, MO, Survey of Section 8 Housing Assistance Payments, 4/19/02.
                New York State Tenant and Neighborhood Information Service, New York, NY, Outreach and Technical Assistance Grant
2002-SF-1805        and Public Entity Grant, 9/23/02.
                Amador-Tuolumne Community Action Agency, Sonora, CA, Intermediary Outreach and Technical Assistance Grant,
2002-SF-1806        9/30/022.
2002-SF-1807    California Coalition for Rural Housing, Sacramento, CA, Outreach and Training Assistance Grants, 9/26/02.
2002-SF-1808    Legal Aid Society of San Diego, Inc., San Diego, CA, Outreach and Training Assistance Grant, 9/30/02.
                Los Angeles Center for Affordable Housing, Los Angeles, CA, Outreach and Training Assistance Grants, 9/30/02.
      PIH

2002-FW-1802    Lafourche Parish, LA Housing Authority, Hillcrest Apartment’s Up-front Grant, 4/5/02.
2002-FW-1804    Morgan City, LA Housing Authority, Drug Elimination Grant Program, 6/17/02. Questioned: $8,710;
                   Unsupported: $3,000.
     CPD

2002-NY-1802    Community Development Block Grant Disaster Assistance Funds administered by Empire State Development Corp.,
                     New York, NY (Interim Report), 5/22/02.
2002-SF-1803    City of Pomona, CA, Community Development Block Grant Program, 4/24/02.
2002-SF-1804    HOME Investment Partnerships Program, City of Stockton, CA and San Joaquin County, CA, 7/31/02.




                                                               6
                                                                                            APPENDIX 2
                                          TABLE A
                        AUDIT REPORTS ISSUED PRIOR TO START OF PERIOD         WITH
                              NO MANAGEMENT DECISION AT 09/30/02
                                                                                       ISSUE DATE/
                                                                                       TARGET FOR
REPORT NUMBER & TITLE                 REASON   FOR   LACK   OF   MANAGEMENT DECISION
                                                                                       MANAGEMENT
                                                                                         DECISION




                                         Nothing to report.




                                                7
                                                                                                                           APPENDIX 2
                                                          TABLE B
                       SIGNIFICANT AUDIT REPORTS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                           WHERE FINAL ACTION HAD NOT BEEN COMPLETED AS OF 09/30/02
  Report                                                                                              Issue     Decision     Final
  Number                                            Report Title                                      Date       Date        Action

1995CH1009 Alliance Mortgage Corporation, Single Family Mortgage Insurance Program, Villa Park, IL   08/08/95   11/30/95     Note 1

1996FW1001 Credit Finance Corporation, Multifamily Management Agent, Dallas, TX                      10/16/95   06/05/96     Note 1

1996SF1002   Pascua Yaqui Housing Authority, Tucson, AZ                                              02/13/96   06/11/96     03/31/03

1997PH1002 Newport News General Hospital, Section 242 Hospital Program, Newport News, VA             12/09/96   03/26/97     Note 1

1997FW1003 Medlock Southwest Management Corporation, Multifamily Management Agent, Lubbock, TX 08/26/97         01/16/98     Note 1

1997CH1010 Major Mortgage Corporation, Section 203(k) Rehabilitation Home Mortgage Insurance         09/17/97   01/06/98     Note 1
             Program, Livonia, MI

1998CH1005 City of Atlanta, GA Empowerment Zone Program                                              09/28/98   09/20/99     Note 1

1998CH1006 City of Philadelphia, PA Empowerment Zone Program                                         09/30/98   09/20/99     Note 1

1999NY1004 Homestead Financial Services, Inc., Non-supervised Mortgagee, Syracuse, NY                02/17/99   06/25/99     Note 1

1999FO0003 U.S. Department of HUD Fiscal Year 1998 Financial Statements                              03/29/99   09/30/99     12/30/02

1999CH0001 HUD’s Oversight of the Empowerment Zone Program                                           03/30/99   09/17/99     Note 1

1999PH0801 Chester, PA Housing Authority Receivership                                                06/01/99   12/02/99     7/31/03

1999SF1003   City of Lynwood, CA, CDBG and HOME Programs                                             08/19/99   12/16/99     Note 1

1999SF1803   Northern Pueblos Housing Authority, Limited Review of Operations, Santa Fe, NM          09/08/99   11/09/99     12/31/02

1999CH1803 Fairfield County, Community Housing Improvement Program, Lancaster, OH                    09/15/99   01/13/00     Note 1

                                                                   8
                                                                                                               APPENDIX 2, TABLE B

  Report                                                                                             Issue     Decision   Final
                                                   Report Title
  Number                                                                                             Date       Date      Action

1999NY1007 Alliance Mortgage Banking Corporation, Non-supervised Mortgagee, Rochester, NY           09/27/99   02/16/00   Note 1

1999DE0001 Nationwide Review of HUD’s Loss Mitigation Program                                       09/30/99   03/31/00   06/30/03

2000DP0002 Initial Development Efforts of the Departmental Grants Management System                 11/04/99   09/19/01   10/31/04

2000NY1002 Target V Phase I Development Associates, Multifamily Housing Program, Bronx, NY          12/08/99   05/08/00   Note 1

2000FO0002 Federal Housing Administration, Audit of Fiscal Year 1999 Financial Statements           02/29/00   08/09/00   12/31/05

2000FO0003 Attempt to Audit the Fiscal Year 1999 HUD Financial Statements                           03/01/00   09/29/00   09/30/03

2000AT1003   Puerto Rico Public Housing Administration, Procurement Management, San Juan, PR        03/06/00   09/28/01   12/31/02

2000AT1801   Misuse of HUD Funds, Puerto Rico Public Housing Administration, San Juan, PR           03/09/00   09/28/01   12/31/02

2000AT1004   Pinellas County Housing Authority, Clearwater, FL                                      03/23/00   07/24/00   Note 1

2000AT1005   Benson, NC Housing Authority, Public Housing Programs                                  03/27/00   09/13/00   02/28/03

2000SF0001   Single Family Production                                                               03/30/00   01/19/01   12/31/02

2000CH1002 Cuyahoga Metropolitan Housing Authority, Title V Account, Cleveland, OH                  03/31/00   09/29/00   10/15/02

2000SF1001   San Francisco, CA Housing Authority, Low-Income and Section 8 Programs                 03/31/00   09/01/00   Note 2

2000CH1003 State of Ohio, Community Housing Improvement Program, Columbus, OH                       06/15/00   10/18/00   Note 2

2000DE1004   Chippewa Cree Housing Authority, Housing Activities and Related Management Controls,   09/21/00   01/19/01   10/15/02
                Rocky Boy, MT

2000NY1005 Poughkeepsie, NY Housing Authority, Low-Rent Housing Program                             09/25/00   02/13/01   Note 2

2000AT0001   Single Family Property Disposition Program                                             09/28/00   02/20/01   02/28/03


                                                                  9
                                                                                                               APPENDIX 2, TABLE B

  Report                                                                                             Issue     Decision   Final
                                                   Report Title
  Number                                                                                             Date       Date      Action

1999NY1007 Alliance Mortgage Banking Corporation, Non-supervised Mortgagee, Rochester, NY           09/27/99   02/16/00   Note 1

1999DE0001 Nationwide Review of HUD’s Loss Mitigation Program                                       09/30/99   03/31/00   06/30/03

2000DP0002 Initial Development Efforts of the Departmental Grants Management System                 11/04/99   09/19/01   10/31/04

2000NY1002 Target V Phase I Development Associates, Multifamily Housing Program, Bronx, NY          12/08/99   05/08/00   Note 1

2000FO0002 Federal Housing Administration, Audit of Fiscal Year 1999 Financial Statements           02/29/00   08/09/00   12/31/05

2000FO0003 Attempt to Audit the Fiscal Year 1999 HUD Financial Statements                           03/01/00   09/29/00   09/30/03

2000AT1003   Puerto Rico Public Housing Administration, Procurement Management, San Juan, PR        03/06/00   09/28/01   12/31/02

2000AT1801   Misuse of HUD Funds, Puerto Rico Public Housing Administration, San Juan, PR           03/09/00   09/28/01   12/31/02

2000AT1004   Pinellas County Housing Authority, Clearwater, FL                                      03/23/00   07/24/00   Note 1

2000AT1005   Benson, NC Housing Authority, Public Housing Programs                                  03/27/00   09/13/00   02/28/03

2000SF0001   Single Family Production                                                               03/30/00   01/19/01   12/31/02

2000CH1002 Cuyahoga Metropolitan Housing Authority, Title V Account, Cleveland, OH                  03/31/00   09/29/00   10/15/02

2000SF1001   San Francisco, CA Housing Authority, Low-Income and Section 8 Programs                 03/31/00   09/01/00   Note 2

2000CH1003 State of Ohio, Community Housing Improvement Program, Columbus, OH                       06/15/00   10/18/00   Note 2

2000DE1004   Chippewa Cree Housing Authority, Housing Activities and Related Management Controls,   09/21/00   01/19/01   10/15/02
                Rocky Boy, MT

2000NY1005 Poughkeepsie, NY Housing Authority, Low-Rent Housing Program                             09/25/00   02/13/01   Note 2

2000AT0001   Single Family Property Disposition Program                                             09/28/00   02/20/01   02/28/03


                                                                  10
                                                                                                               APPENDIX 2, TABLE B

 Report                                                                                              Issue     Decision   Final
 Number                                            Report Title                                      Date       Date      Action
2000DP0804 Department’s September 2000 Purchase of COTS Financial Management System                 09/29/00   03/30/01 Note 2

2000KC0002 Housing Subsidy Payments                                                                 09/29/00   02/21/01 09/30/05

2000SE0003 Nationwide Audit, Use of and Disposition of Residual Receipts                            09/29/00   08/15/01 12/30/03

2001AT1001   Housing Authority of the City of Miami Beach, FL                                       10/20/00   02/13/01 Note 2

2001CH1001 City of Ironton, OH Community Development Block Grant Program                            11/16/00   03/21/01 Note 2

2001NY1001 Bay Towers, Far Rockaway, NY, Multifamily Mortgagor Operations                           12/07/00   04/20/01 Note 2

2001FW1002 City of Dallas, TX Continuum of Care Program                                             12/13/00   06/26/01 10/15/02

2001SF1802   HUD Earthquake Loan Program Funds, Woodland Hills, CA                                  02/08/01   06/14/01 Note 2

2001DP0801 Review of the Department’s Internet Privacy Status                                       02/21/01   04/23/01 Note 2

2001FO0002 FHA Audit of Fiscal Year 2000 Financial Statements                                       03/01/01   07/24/01 12/21/06

2001FO0003 Audit of HUD’s Fiscal Year 2000 Financial Statements                                     03/01/01   07/18/01 09/30/03

2001CH1005 London, OH Metropolitan Housing Authority, Safeguarding of Monetary Assets and Inventory 03/22/01   07/18/01 04/30/03

2001SF1803   Supportive Housing Program Grant, Los Angeles, CA                                      03/23/01   07/24/01 Note 2

2001FO0004 HUD’s Internal Controls over Fiscal Year 1999 Annual Performance Data                    03/28/01   07/24/01 01/31/04

2001PH1003 Housing Authority of Baltimore City, MD, Section 8 Certificate and Voucher Programs      03/28/01   09/10/01 02/28/03

2001AT1005   San Juan, PR Public Housing Administration HOPE VI, Comprehensive Grant, and Economic 03/30/01    09/28/01 Note 2
                Development & Support Services Programs

2001NY0001 Canal Corridor Initiative, HUD Administered Small Cities CDBG Section 108 Loan Guarantee 03/30/01   05/29/01 Note 2
              Program
                                                                  11
                                                                                                                  APPENDIX 2, TABLE B
Report                                                                                                 Issue     Decision    Final
Number                                               Report Title                                      Date       Date       Action

2001NY1002   Belmax Management Corporation (Management Agent), Brooklyn, NY                           04/17/01   07/13/01   Note 2

2001PH1005   Housing Authority of the City of Pittsburgh, PA                                          05/03/01   02/06/02 12/31/02

2001SF1804   Supportive Housing Program Grant, County of Orange, Santa Ana, CA                        05/09/01   09/26/01   Note 2

2001FW0001 New Orleans, LA Housing Authority                                                          05/11/01   11/02/01   10/15/03

2001CH1007   Detroit, MI Housing Commission, Hope VI Program                                          05/16/01   09/13/01   03/31/03

2001FW0002 HUD’s Compliance with the Government Performance and Results Act                           05/31/01   11/02/01   10/17/02

2001PH0803   Philadelphia, PA Homeownership Center, Single Family Disposition Activities              06/14/01   06/14/01   10/11/02

2001AT0001   Nationwide Audit on the Officer/Teacher Next Door Program                                06/29/01   01/29/02   12/31/02

2001PH1006   Philadelphia, PA, CDBG and Section 108 Funding, Urban Education Development Research     08/01/01   11/21/01   11/19/02
                 and Retreat Center Rehabilitation Project

2001SE0002   Nationwide Audit of Implementation of the Native American Housing Assistance and Self-   08/02/01   12/11/01   12/31/02
                 Determination Act of 1996

2001AT0002   Troubled Agency Recovery Center, Memphis, TN                                             08/17/01   12/06/01   12/06/02

2001AT1006   City of Hattiesburg, MS, Community Planning and Development Programs                     08/27/01   12/21/01   10/31/02

2001FW1005 Harmony House, Inc., Harrison, AR, Supportive Housing Program                              08/27/01   12/21/01   10/31/02

2001AO0003   Drug Elimination Funds used for Creative Wellness Program                                08/29/01   01/22/02   12/04/02

2001BO1006   State of Connecticut, Home Investment Partnership Program, Hartford, CT                  08/29/01   11/09/01   10/22/02

2001SE0802   Nationwide Audit of Rent Reasonableness for Section 8 Tenant-based Units                 08/29/01   11/28/01   11/28/02


                                                                    12
                                                                                                                APPENDIX 2, TABLE B

  Report                                                                                              Issue    Decision   Final
  Number                                        Report Title                                          Date      Date      Action

001DP0802    Annual Evaluation of HUD’s Security Program and Practices                              09/06/01   01/16/02   12/31/02

2001FW1809 Jefferson Parish, LA Housing Authority, Limited Procurement Review                       09/25/01   11/07/01   10/31/02

2001SF1805   Los Coyotes Band of Mission Indians, Warner Springs, CA                                09/25/01   12/14/01   12/01/05

01AT1808     Autographed Book Give-Away for Inner-City Youths, Inc., Orlando, FL, Nonprofit         09/27/01   01/24/02   01/23/03
                Participation in FHA Single Family Insurance Program

2001DE1003   Foster and Associates, Whitefish, MT, Review of Management Activities for Clark Fork   09/28/01   01/16/02   09/30/03
                Manor and Whitefish Manor Projects

2001DP0003   Real Estate Management System                                                          09/28/01   01/30/02   Note 2

2001KC1005   First Community Resources, Inc., St. Louis, MO, Section 203(b) Home Mortgage Insurance 09/28/01   01/17/02   03/16/04
                 Program

2001KC1803   Review of Oak Tree Park Apartments, Overland, MO                                       09/28/01   11/30/01   11/29/02

2002SF0001   Nonprofit Participation, HUD Single Family Program                                     11/05/01   08/30/02   Note 2

2002NY1801   City of Utica, NY, CDBG, HOME and Section 8 Existing Housing Programs                  12/03/01   03/27/02   04/03/03

2002FW1801 Lockhart, TX Housing Authority                                                           12/04/01   03/28/02   11/01/02

2002PH1801   City of Baltimore, MD HOME Program                                                     12/21/01   02/20/02   10/31/02

2002SE1001   Nampa, ID Housing Authority, Housing Program Administration and Operations             01/10/02   05/06/02   11/01/02

2002CH1801 City of Evansville, IN Housing Authority                                                 01/29/02   05/18/02   05/15/05

2002CH1802 Partners for Community Development, Inc., Home Buyers-Lease Purchase and HOME            01/31/02   06/02/02   11/30/03
              Homeowner Rehabilitation and Accessibility Programs, Sheboygan, WI


                                                                  13
                                                                                                                    APPENDIX 2, TABLE B
 Report                                                                                                 Issue      Decision    Final
 Number                                           Report Title                                          Date        Date       Action

2002FO0002   Federal Housing Administration, Audit of Fiscal Years 2000 and 2001 Financial Statements   02/22/02   05/30/02   12/31/06

2002KC1801   Review of Enhanced Enterprise Community Funding, Kansas City, KS                           02/25/02   04/24/02   11/15/02

2002NY0001   Nationwide Audit-Asset Control Area Program, Single Family Housing                         02/25/02   06/17/02   10/15/02

2002FO0003   Audit of HUD’s Fiscal Years 2000 and 2001 Financial Statements                             02/27/02   08/16/02   01/30/04

2002DE0001   Nationwide Review of HUD’s Loss Mitigation Program (Follow-up)                             02/28/02   06/28/02   06/30/03

2002DE1001   Review of Mitchell Management, Multifamily Management Agent                                03/15/02   07/12/02   07/01/03

2002PH1001   City of Williamsport, PA, Community Development Block Grant and HOME Investment            03/19/02   09/04/02   11/15/02
                 Partnership Programs

2002AT1807   Jardines de Valencia Housing Cooperative, Rio Piedras, PR                                  03/20/02   07/15/02   01/30/03

2002NY1001   City of Ithaca, NY, Community Planning and Development Programs                            03/21/02   07/23/02   12/31/02

2002DE0801   Review of Alleged Violations of the Anti-Deficiency Act and the HUD Reform Act by the      03/22/02   9/30/02    Note 2
                Office of Multifamily Housing Assistance Restructuring

2002CH1001   Ypsilanti, MI Housing Commission, Safeguarding Monetary Assets and Inventory               03/26/02   07/24/02   12/31/03

2002PH1802   D.B. Frye and Associates, Norfolk, VA, Management Agent Activities                         03/26/02   07/25/02   12/31/02

2002PH1803   Philadelphia, PA Housing Authority, Limited Personnel Review                               03/26/02   07/25/02   04/30/03

2002BO1001   City of Worcester, MA, Community Development Block Grant Program                           03/27/02   08/29/02   07/01/05

2002BO1002   Concord, NH Housing Authority, Administration of Public Housing and Section 8 Programs     03/29/02   06/14/02   12/31/02

2002CH1002   Alton, IL Housing Authority, Low-Income and Public Housing Drug Elimination Programs       03/29/02   08/02/02   12/31/03

2002KC1001   Dutchtown Care Center, St. Louis, MO, Review of Project Disbursements                      03/29/02   07/22/02   03/31/03
                                                                 14
                                                                                                                         APPENDIX 2, TABLE B

 Report                                                                                                       Issue     Decision    Final
 Number                                               Report Title                                            Date       Date       Action




AUDITS EXCLUDED:                                                 NOTES:

20 audits under repayment plans                                  1    Management did not meet the target date. Target date is over 1 year
17 audits under formal judicial review, investigation, or             old.
   legislative solution                                          2    Management did not meet the target date. Target date is under 1 year
                                                                      old.




                                                                     15
                                                                                                                                                         APPENDIX 2
                                                                           TABLE C
                                                     INSPECTOR GENERAL ISSUED REPORTS WITH
                                                  QUESTIONED AND UNSUPPORTED COSTS AT 09/30/02
                                                            (DOLLARS IN THOUSANDS)
                                                                                                                Number of Audit           Questioned    Unsupported
                                                 Reports                                                           Reports                  Costs          Costs
A1 For which no management decision had been made by the commencement of the reporting                                   13                   $6,841      $2,835
   period
A2 For which litigation, legislation or investigation was pending at the commencement of the                              7                   $28,808     $14,449
   reporting period
A3 For which additional costs were added to reports in beginning inventory                                                -                    $185        $135
A4 For which costs were added to non-cost reports                                                                         3                    $189          0
B1 Which were issued during the reporting period                                                                         36                   $10,512     $7,628
B2 Which were reopened during the reporting period                                                                        0                     0            0
                                                                                          Subtotals (A+B)                59                   $46,535     $25,047
C    For which a management decision was made during the reporting period                                               221                   $8,732      $4,087
     (1) Dollar value of disallowed costs:
         • Due HUD                                                                                                      102                   $3,192      $1,570
         • Due Program Participants                                                                                     13                    $3,619       $712
     (2) Dollar value of costs not disallowed                                                                           83                    $1,921      $1,805
D    For which management decision had been made not to determine costs until completion of                               7                   $28,956     $14,415
     litigation, legislation, or investigation
                                                                                                                       30                 $8,847         $6,545
E    For which no management decision had been made by the end of the reporting period
                                                                                                                      <89>4              <$8,847>4      <$6,545>4



1   2 audit reports also contain recommendations with funds to be put to better use.
2   3 audit reports also contain recommendations with funds due program participants.
3   6 audit reports also contain recommendations with funds agreed to by management.
4   The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.

                                                                                   16
                                                                                                                                                    APPENDIX 2

                                                                           TABLE D
                                               INSPECTOR GENERAL ISSUED REPORTS
                                 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE                                     AT   09/30/02
                                                    (DOLLARS IN THOUSANDS)
                                                                                                                                Number of Audit
                                                         Reports                                                                                  Dollar Value
                                                                                                                                   Reports
A1 For which no management decision had been made by the commencement of the reporting period                                            1         $514,000
A2 For which litigation, legislation or investigation was pending at the commencement of the reporting period                            3          $7,757
A3 For which additional costs were added to reports in beginning inventory                                                               -             0
A4 For which costs were added to non-cost reports                                                                                        1          $1,131
B1 Which were issued during the reporting period                                                                                         4          $12,496

                                                                                                         Subtotals (A+B)                 9         $535,384
C For which a management decision was made during the reporting period                                                                   21         $1,257
    (1) Dollar value of recommendations that were agreed to by management:
        • Due HUD                                                                                                                        2          $1,231
        • Due Program Participants                                                                                                       0            0
    (2) Dollar value of recommendations that were not agreed to by management                                                            12          $26
D For which management decision had been made not to determine costs until completion of litigation,
                                                                                                                                         4         $521,757
  legislation, or investigation
                                                                                                                                       3           $12,370
E For which no management decision had been made by the end of the reporting period                                                   <4>3        <$12,370>3




1   2 audit reports also contain recommendations with questioned costs.
2   1 audit report also contains recommendations with funds agreed to by management.
3   The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.



                                                                                   17
                                                                                                                                           APPENDIX 2
EXPLANATIONS OF TABLES C AND D

    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report cost data on management decisions and
final actions on audit reports. The current method of reporting at the “report” level rather than at the individual audit “recommendation” level results
in misleading reporting of cost data. Under the Act, an audit “report” does not have a management decision or final action until all questioned cost
items or other recommendations have a management decision or final action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For ex-
ample, certain cost items or recommendations could have a management decision and repayment (final action) in a short period of time. Other cost
items or nonmonetary recommendation issues in the same audit report may be more complex, requiring a longer period of time for management’s
decision or final action. Although management may have taken timely action on all but one of many recommendations in an audit report, the current
“all or nothing” reporting format does not take recognition of their efforts.

   The closing inventory for items with no management decision on Tables C and D (Line E) reflects figures at the report level as well as the
recommendation level.




                                                                         18
                                                                                                                              APPENDIX 3

                                            PROFILE         OF    PERFORMANCE
                                                              for the period
                                                April 1, 2002 through September 30, 2002

                        Audit and Investigation Results                          Audit       Investigation   Combined        FY 2002
Recommendations That Funds Be Put to Better Use                                $13,627,310                   $13,627,310   $527,670,544
Management Decisions on Audits with Recommendations That Funds Be Put to
                                                                               $1,256,845                    $1,256,845     $1,300,079
  Better Use
Questioned Costs                                                               $10,886,098                   $10,886,098   $22,379,284
Management Decisions on Audits with Questioned Costs                           $8,732,055                    $8,732,055    $48,736,576
Indictments/Informations                                                                         177            177            426
Convictions/Pleas/Pre-Trial Diversions                                                           184            184            422
Months in Prison                                                                                6,160           6,160         13,752
Months Probation                                                                                6,718           6,718         15,281
Hours Community Service                                                                         2,479           2,479         11,549
Investigative Recoveries                                                                     $26,027,461     $26,027,461   $59,046,309
Collections from Audits                                                        $13,221,345                   $13,221,345   $20,166,938
Administrative Sanctions                                                           1             164            165            417
Arrests                                                                                           66             66            540
Search Warrants                                                                                   8              8              89
Weapons Seized                                                                                    6              6              38
Value of Drugs Seized                                                                             0              0          $278,135
Subpoenas Issued                                                                   92            201            293            465




                                                                   19
